<html>
<title> - INTERNATIONAL SCIENCE AND TECHNOLOGY COOPERATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       INTERNATIONAL SCIENCE AND
                         TECHNOLOGY COOPERATION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2008

                               __________

                           Serial No. 110-89

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
41-470 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               RALPH M. HALL, Texas
BART GORDON, Tennessee
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                             April 2, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Prepared Statement by Representative Vernon J. Ehlers, Ranking 
  Minority Member, Subcommittee on Research and Science 
  Education, Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

Statement by Representative Randy Neugebauer, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    10
    Written Statement............................................    11

                               Witnesses:

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    16

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    25

Dr. Nina V. Fedoroff, Science and Technology Advisor to the 
  Secretary of State, U.S. Department of State; Administrator of 
  USAID
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    32

Mr. Jeff Miotke, Deputy Assistant Secretary for Science, Space, 
  and Health, Bureau of Oceans, Environment, and Science, U.S. 
  Department of State
    Oral Statement...............................................    33
    Written Statement............................................    34
    Biography....................................................    45

Mr. Michael F. O'Brien, Assistant Administrator for External 
  Relations, National Aeronautics and Space Administration
    Oral Statement...............................................    46
    Written Statement............................................    47
    Biography....................................................    50

Discussion.......................................................    51

              Appendix: Answers to Post-Hearing Questions

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy..............................................    78

Dr. Arden L. Bement, Jr., Director, National Science Foundation..    79

Dr. Nina V. Fedoroff, Science and Technology Advisor to the 
  Secretary of State, U.S. Department of State; Administrator of 
  USAID..........................................................    80

Mr. Jeff Miotke, Deputy Assistant Secretary for Science, Space, 
  and Health, Bureau of Oceans, Environment, and Science, U.S. 
  Department of State............................................    81


            INTERNATIONAL SCIENCE AND TECHNOLOGY COOPERATION

                              ----------                              


                        WEDNESDAY, APRIL 2, 2008

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Brian Baird 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       International Science and

                         Technology Cooperation

                        wednesday, april 2, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The purpose of the hearing is to examine the mechanisms by which 
federal priorities are set and interagency coordination is achieved for 
international science and technology cooperation, and to explore the 
diplomatic benefits of such cooperation.

2. Witnesses:

Dr. John H. Marburger, III, Director, Office of Science and Technology 
Policy.

Dr. Arden L. Bement, Jr., Director, National Science Foundation.

Dr. Nina V. Fedoroff, Science and Technology Adviser to the Secretary 
of State.

Mr. Jeff Miotke, Deputy Assistant Secretary of State for Science, Space 
and Health, Bureau of Oceans and International Environmental and 
Scientific Affairs.

Mr. Michael F. O'Brien, Assistant Administrator for External Relations, 
National Aeronautics and Space Administration.

3. Overarching Questions:

        <bullet>  What is the scope of current efforts in international 
        science and technology (S&T) cooperation? What is the scope of 
        efforts in the Middle East and the developing world? To what 
        extent is S&T cooperation integrated into our diplomatic 
        activities in the Middle East and the developing world? What 
        makes S&T cooperation successful as a diplomatic tool? What 
        makes it unsuccessful?

        <bullet>  What are the respective roles of the Department of 
        State, the U.S. Agency for International Development, the 
        mission agencies (such as Department of Energy and National 
        Institutes of Health), and the National Science Foundation in 
        international science and technology cooperation? How does each 
        agency set its priorities for S&T cooperation? What is the role 
        of the Office of Science and Technology Policy in fostering 
        international science and technology cooperation and in 
        coordinating federal activities?

        <bullet>  How is interagency coordination of international S&T 
        cooperation currently achieved? In what ways could interagency 
        coordination be improved? Is there value in reinstating the 
        Committee on International Science and Technology under the 
        National Science and Technology Council? In what other ways can 
        the Federal Government increase and improve the use of S&T in 
        its diplomatic missions?

4. Overview

    Science and technology were closely tied to American diplomacy in 
the early years after the founding of the United States. In fact, the 
first Secretary of State, Thomas Jefferson, was also designated the 
administrator of the Nation's first patent law, and the first efforts 
to establish a bureau of weights and measures were also associated with 
the Department of State. By the 1830's, this close relationship between 
diplomats and scientists seems to have diminished. It was not until 
World War II that science and technology (S&T) once again began to play 
a prominent role in the State Department. Nevertheless, the U.S. 
continued to engage in international science and technology cooperation 
for other purposes. For example, the first International Polar Year, a 
coordinated international effort to collect and analyze data about the 
polar regions, occurred in 1882-83. We are currently in the middle of 
the third International Polar Year.
    There are a number of reasons why the United States has and will 
continue to engage in international science and technology (S&T) 
cooperation, including:

        <bullet>  to strengthen U.S. science by providing our own 
        scientists access to the best scientists and research sites 
        around the world;

        <bullet>  to enable construction of and participation in 
        prohibitively expensive world-class research facilities (either 
        on U.S. soil or foreign sites) by partnering with foreign 
        countries to leverage their funds and scientific talent;

        <bullet>  to address U.S. interests in global matters, such as 
        non-proliferation, water resources, climate change and 
        infectious diseases, in part by ensuring that foreign and 
        international (e.g., U.N.) decision-makers have access to the 
        best science;

        <bullet>  to help build technological capacity and address 
        health and resource crises in other countries in order to help 
        maintain U.S. national security and economic interests; and

        <bullet>  to help build more positive relationships with other 
        countries - what is often called ``science diplomacy.''

    This is certainly not an exhaustive list nor the only way to break 
down the rationale for engaging in international S&T cooperation. One 
former State Department official prefers the following categories: 
science for science's sake; science for the decision-maker; science for 
development; and science for diplomacy. The witnesses for this hearing 
are likely to provide their own lists of reasons why the Federal 
Government broadly, or their respective agencies specifically, engage 
in S&T cooperation.
    In addition to the Department of State and the U.S. Agency for 
International Development (USAID), every federal agency that either 
does its own research or funds academic research (or in most cases, 
both) supports international S&T cooperation, including Departments of 
Agriculture, Defense, Energy, Commerce (includes NIST and NOAA), and 
Health and Human Services (includes NIH) as well as NASA, the 
Environmental Protection Agency, and the National Science Foundation 
(NSF). The Office of Science and Technology Policy advises the 
President on matters of science and technology as they relate to 
international issues, and provides intellectual support to the 
Department of State and USAID on S&T matters. State and USAID also turn 
to NSF and the mission agencies for intellectual input on S&T-related 
issues that fall within those agencies' areas of expertise, such as 
health, energy or water. The mission agencies, on the other hand, turn 
to the Department of State for assistance in negotiating formal 
agreements with other nations. A more detailed description of the 
different agencies' roles is provided below.
    The National Science Board (NSB) recently issued a report, 
``International Science and Engineering Partnerships: A Priority for 
U.S. Foreign Policy and our Nation's Innovation Agenda,'' \1\ in which 
the Board makes a series of recommendations for increased coherence and 
coordination of federally sponsored international science and 
engineering activities.
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov/nsb/publications/2008/nsb084.pdf
---------------------------------------------------------------------------

5. Roles of Federal Agencies

Office of Science and Technology Policy
    The Director of the Office of Science and Technology Policy (OSTP) 
is, by statute, the President's adviser on science and technology 
matters for all areas of national concern, including foreign relations 
and national security, as well as for ``emerging international problems 
amenable to the contributions of science and technology.''
    The OSTP Director, through the National Science and Technology 
Council, is also responsible for interagency coordination of federal 
research and development programs, which includes programs, such as the 
International Polar Year, that are part of an international 
partnership. But OSTP does not have an explicit mandate for 
coordination of all international activities, nor does the office have 
any program budget or management responsibilities of its own.
    The NSB report mentioned previously calls on OSTP to take a more 
active and prominent role both in setting federal priorities for 
international science and engineering cooperation and in coordinating 
efforts across agencies. For example, the Board recommends that OSTP 
``should directly charge federal agencies to include specific 
components of international R&D in their integrated programs'' and 
urges the National Science and Technology Council to reestablish a 
Committee on International Science, Engineering and Technology (CISET). 
Staff participated in conversations in which three former high-level 
officials familiar with CISET during the Clinton Administration (it was 
dissolved in 2000) expressed concern that a new CISET would have the 
same difficulty as its predecessor in carving out a unique role for 
itself, but did add that it was a useful place for information sharing 
across agencies. One of the CISET subcommittees, for example, developed 
an inventory of all federal S&T programs related to developing 
countries. No other organization has taken on responsibility for 
updating that inventory.

National Science Foundation
    The National Science Foundation (NSF) supports science for 
science's sake; like the other research agencies, NSF's mission does 
not include diplomacy or development, although it certainly supports 
research in many areas that are critical to policy-makers across the 
globe. NSF has an Office of International Science and Engineering 
(OISE), housed within the Office of the Director. In addition to having 
region-knowledgeable staff at NSF headquarters, OISE manages three 
overseas offices in Paris, Tokyo and Beijing. The FY 2009 budget 
request for OISE is $47 million, a 15 percent increase over planned 
spending for FY 2008. Approximately $10 million of the OISE budget goes 
to the Office of Science and Technology Policy (OSTP) to pay dues in 
international organizations. The rest of the research budget goes 
toward two types of international science and engineering 
collaboration: support for U.S. scientists to travel to foreign sites 
for collecting data and scientist-to-scientist collaboration. NSF does 
not fund foreign researchers directly.
    In particular, OISE supports:

        <bullet>  International research experiences for U.S. 
        undergraduate and graduate students;

        <bullet>  Doctoral dissertation enhancement projects for U.S. 
        students at foreign sites;

        <bullet>  International postdoctoral research fellowships;

        <bullet>  Partnerships for International Research and Education 
        (PIRE) grants of $500,000 per year for five years for the 
        development of models for long-term international partnerships; 
        and

        <bullet>  International planning visits and workshops.

    In addition to supporting such activities directly, OISE helps 
facilitate and provide some supplementary funds for international 
research collaborations supported by all NSF directorates. According to 
NSF, the agency in total supports $300-$400 million annually on 
research grants involving international collaborations. In addition, 
NSF can support the Department of State and non-governmental 
foundations (such as the Civilian Research and Development Foundation) 
by helping to identify leading academic scientists and engineers (U.S. 
and foreign), reviewing proposals, and otherwise providing intellectual 
support and credibility.

Department of State
    The Department of State has S&T diplomatic strategies related to a 
number of international issues, including water management, energy, 
agriculture, natural resource management, infectious diseases and 
biodiversity. It also promotes international scientific cooperation 
through bilateral and multilateral science and technology agreements to 
``promote the precepts of sustainable development, enhancement of the 
role of women in science and society, science-based decision-making, 
good governance, and global security more broadly.''
    The Bureau of Oceans, International Environmental and Scientific 
Affairs (OES) is responsible for coordinating the formal S&T 
agreements. There are currently 39 formal bilateral agreements, most of 
which are not funded and some of which are inactive altogether. Some of 
the newest agreements, including an agreement not yet signed with Saudi 
Arabia, are part of a State Department policy to enhance relations with 
the Middle East.
    Distinct from OES is the Office of the Science and Technology 
Adviser (STAS).\2\ Dr. Nina Fedoroff became the agency's third S&T 
Adviser in July, 2007. The goals of STAS are to enhance S&T literacy 
throughout the Department; build partnerships with the S&T community; 
provide accurate S&T advice to the Department; and help shape a global 
perspective on the emerging S&T developments anticipated to affect 
current and future U.S. foreign policy.
---------------------------------------------------------------------------
    \2\ The Secretary of State's Advisory Committee on Transformational 
Diplomacy: State Department in 2025 Working Group recently issued a 
report that includes a discussion of how S&T could be better integrated 
into the State Department. The working group raised concerns about 
having a science adviser outside of OES and without any real power of 
her own, and suggested that the same person could serve as both Science 
Adviser and the Assistant Secretary for OES, or alternatively that the 
Science Adviser could be the Principal Deputy Assistant Secretary in 
OES. (http://www.state.gov/documents/organization/99879.pdf)

U.S. Agency for International Development
    The U.S. Agency for International Development (USAID) is the 
primary agency supporting science for development. Many USAID 
initiatives on S&T related issues, such as infectious diseases, energy, 
natural resources management, and agriculture, draw on or build up 
local and regional S&T capacity in addition to contributing American 
know-how and resources.
    USAID used to have a separate Bureau for Science and Technology, 
but several years ago that Bureau was dismantled and the science and 
technology activities spread among the appropriate functional and 
regional bureaus. However, when Dr. Fedoroff was appointed Science and 
Technology Adviser to the Secretary of State, she convinced Secretary 
Rice to assign to her the additional role of S&T Adviser to USAID 
Administrator Henrietta Ford.

Mission Agencies
    Aside from NSF, the National Institutes of Health (NIH) and the 
USDA are the only research agencies with explicit international 
programs. In fact, NIH has a separate Fogarty International Center for 
Advanced Study in the Health Sciences, which addresses global health 
challenges through collaborative research and training programs and 
international partnerships. USDA has many international programs, 
including international offices and overseas laboratories, in addition 
to the Foreign Agriculture Service.
    The remainder of the mission agencies also engage in international 
science cooperation, but wrap those projects into their domestic 
programs rather than having separate programs or offices. NASA in 
particular has international partners for most of its big projects due 
to the tremendous costs of building and launching into orbit the kinds 
of telescopes and other research and exploration equipment required for 
their mission. All of these domestic mission agencies are careful to 
state that they only engage in science cooperation for the sake of 
science and do not have or want a role in diplomacy or development.

6. Questions for Witnesses

Dr. Marburger

        <bullet>  What is the role of the Office of Science and 
        Technology Policy (OSTP) in fostering international science and 
        technology (S&T) cooperation and in coordinating federal 
        activities? What is OSTP's role relative to that of the 
        Department of State?

        <bullet>  How does the Administration set priorities for 
        international S&T cooperation? Is there any regular, forward-
        looking process by which goals are set by OSTP or by the 
        National Science and Technology Council (NSTC)? What is your 
        response to the National Science Board's recommendation to 
        reconstitute the Committee on International S&T under NSTC?

Dr. Bement

        <bullet>  What is the role of the National Science Foundation 
        (NSF) in fostering international science and technology 
        cooperation? What is NSF's role relative to that of the 
        Department of State and of the mission agencies? To what extent 
        does NSF coordinate its efforts with other agencies?

        <bullet>  How does NSF set its own priorities for international 
        collaboration? How does the Office of International Science and 
        Engineering coordinate its activities with the various research 
        directorates?

        <bullet>  What is the extent and nature of NSF supported 
        collaborations in the Middle East and in the developing world? 
        How can NSF best support the growth of science and engineering 
        research capacity in developing countries without compromising 
        its own rigorous merit review system? Does, or could, NSF play 
        any role in institution building--that is in helping to build 
        NSF-like organizations--in such countries?

Dr. Fedoroff

        <bullet>  What is the role of the Science and Technology 
        Adviser to the Secretary of State in fostering international 
        science and technology (S&T) cooperation? What is the role of 
        your office relative to that of the Bureau of Oceans, 
        Environment and Science?

        <bullet>  How do you coordinate your efforts with other 
        agencies, including the Office of Science and Technology 
        Policy, the National Science Foundation, and the mission 
        agencies? How do you coordinate your efforts with non-
        governmental science organizations such as AAAS and The 
        National Academies, and with private foundations?

        <bullet>  What is the Science and Technology Adviser's role at 
        the U.S. Agency for International Development (USAID)? What is 
        USAID's role in international S&T cooperation and how does it 
        differ from that of the State Department?

        <bullet>  What makes S&T cooperation successful as a diplomatic 
        tool? What makes it unsuccessful? To what extent is S&T 
        cooperation currently integrated into our diplomatic activities 
        in the Middle East and the developing world? How could the 
        Federal Government make more effective use of S&T in its 
        diplomatic activities?

Mr. Miotke

        <bullet>  What is the role of the Department of State in 
        fostering international science and technology (S&T) 
        cooperation? What is the role of the Bureau of Oceans and 
        International Environmental and Scientific Affairs (OES)? How 
        does OES set priorities for S&T cooperation?

        <bullet>  How does OES coordinate its efforts with other 
        agencies, including the Office of Science and Technology 
        Policy, the National Science Foundation and the mission 
        agencies? How do you coordinate your efforts with non-
        governmental science organizations such as AAAS and The 
        National Academies, and with private foundations?

        <bullet>  What is the extent and nature of OES sponsored S&T 
        collaboration in the Middle East and in the developing world? 
        What benefits have you seen from your S&T efforts in those 
        regions? In what ways might OES better engage and leverage the 
        U.S. science and engineering enterprise in its diplomatic 
        activities, especially in the Middle East and the developing 
        world?

Mr. O'Brien

        <bullet>  Please provide an overview of the types of 
        international science and technology partnerships and 
        cooperative agreements in which the National Aeronautics and 
        Space Administration (NASA) participates. Does NASA have any 
        presence in the developing world?

        <bullet>  Why does NASA engage in international science and 
        technology cooperation? What are the benefits to NASA and to 
        the broader scientific community? How and based on what 
        criteria does NASA set its priorities for international 
        cooperation?

        <bullet>  What are the roles of other agencies, including the 
        Department of State and the Office of Science and Technology 
        Policy, in supporting or helping to develop NASA's 
        international activities? Does the process of working with the 
        Department of State to negotiate science and technology 
        agreements with other countries work well? Do you have any 
        recommendations for how this process could be improved?
    Chairman Baird. We have been joined by Roscoe Bartlett, Dr. 
Bartlett, and also, by Dr. Jerry McNerney, as well. I am 
Congressman Brian Baird.
    This is a topic that I am tremendously excited about. It 
has a proud history in our country. It has great importance to 
our future, and we have been learning a lot about the topic, 
and today, we have an extraordinarily distinguished panel of 
guests.
    One of the reasons I am excited about this is that, if you 
look at the history of America, one of the most famous 
Americans, maybe the most famous worldwide American, apart 
perhaps, from George Washington of course, was Ben Franklin, 
and it wasn't because of Poor Richard's Almanac. It was because 
of his scientific work, and I am searching the annals of Ben 
Franklin's writings for a substitute quote for Tennyson up 
here, because Tennyson didn't have a lot to do with U.S. 
science, last I checked, but we believe passionately on this 
committee, and particularly, this subcommittee, that science 
and diplomacy should intermix--that they should be co-equals 
and co-partners, and an essential part of the soft power 
strategy of this country.
    And I am sure that that is a position likely shared by our 
witnesses here today. We have had a series of hearings. We had 
a very productive hearing about the whole issue of visas, and 
how student visas and other visas relate, and can either add to 
or detract from our efforts to attract scientists, and to 
collaborate with other countries.
    Today, we want to hear about a different topic. We want 
to--obviously related, but we want to hear about how various 
departments within the government and various agencies, perform 
the collaborative mission, and the mission of sharing 
scientific information. As I have read the testimony, and thank 
you all, it is outstanding testimony, very insightful--the take 
home message for me is, on a very positive front, to be honest. 
I think our country had kind of gone through periods, as 
probably any effort does, but we had been, for a while, in 
maybe a bit of a dip in our profile, in our commitment to 
scientific diplomacy, but I think that is on the upsurge by a 
darn sight. And the people here today are largely responsible 
for that, and I give you great credit for it, and pledge the 
support of this committee in further developing that.
    But at the same time, it is fairly clear that there are 
some areas that we ought to at least consider ways in which we 
can further enhance this mission; issues of lines of authority 
within the various agencies, issue of explicit mission, in 
terms of certain agencies, issues of funding, where funding 
comes from, how it is allocated, to what extent is funding able 
to be used not just to fund U.S. scientists, but to fund 
collaborative efforts, issues about where we may need more or 
different personnel, for example, in embassies abroad. Do we 
need a stronger science profile in our international embassies? 
Do we need designated people at multiple agencies who are in 
charge of the international exchange in scientific diplomacy? 
These are some of the core questions that have emerged, as I 
have looked at your testimony and others, at experts, and we 
look very much forward to your comments today.
    I would also say that I personally believe that science has 
a role in our diplomacy, particularly in areas of the Middle 
East, can be especially valuable, and my colleagues have 
sometimes heard this story, but I will share it, because it was 
so impressive. I was at the World Economic Forum in Sharm el-
Sheikh. I was with my good friend, and we all know, Chairman of 
the Foreign Relations Committee, Howard Berman, and we were 
meeting people there, and we met, I think, a woman who was 
Egyptian. She had a head scarf on, and we were just doing 
informal introductions, and we said this is Howard Berman. He 
is from Southern California. Her response was to raise a proud 
fist in the air, and say, I am a mighty Trojan. Now, she did 
not say, oh, how do you do, I went to school in Southern 
California. No, no, this woman was a mighty Trojan. She had 
just totally internalized the commitment and the values of a 
U.S. school. That sort of passion and friendship and intrinsic 
understanding of our system is literally invaluable.
    We can talk about where the budget lines are, and how much 
we spend, et cetera, but to have people internationally who not 
only know our system, but love it, and have a personal 
commitment to it, is the measure, we just cannot measure the 
merit of that, and I will tell you, that was one striking 
example of literally thousands. And I know all of you have had 
those same experiences as you've traveled the world. It is 
something we must not lose in this country and in our 
scientific mission. And so, this committee, certainly this 
Member, is very, very committed to that.
    With that, I want to introduce Mr. Neugebauer, who is 
filling in as Ranking Member for Vern Ehlers. Dr. Ehlers is 
very sorry he couldn't be here. As you know, he was Chair of 
this committee previously, and has a long, long and strong 
history of commitment to international science cooperation.
    Mr. Neugebauer, thank you.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning. Welcome to this Research and Science Education 
Subcommittee hearing on International Science and Technology 
Cooperation.
    This is the second hearing that this subcommittee has held on the 
role of the Federal Government in fostering international scientific 
cooperation and science diplomacy. At the first hearing we focused on 
how we might improve visa policy to facilitate the open exchange of 
students and scholars.
    More recently we hosted a roundtable on the broader topic of 
international science cooperation with four distinguished former State 
and USAID officials who have since left government. They were able to 
provide me and our colleagues who attended the roundtable with 
insightful observations about what has and has not worked, as well as 
engage in creative brainstorming free from the political and time 
constraints of a formal hearing. I learned a great deal and was very 
impressed with the amount of international science and technology 
cooperation that is already going with the assistance of the Federal 
Government. We will hear more about some of this today.
    Unfortunately, I also learned that we must do more to maximize the 
effectiveness of science and technology cooperation. Cooperation should 
not be pursued simply as a means of achieving bigger and better 
science. It should also be pursued for the sake of development, 
diplomacy, and informing decision-makers around the world about 
critical environmental, security, economic, resource and health issues. 
It seems to me that the Federal Government might need an organization 
and a process dedicated to setting government-wide priorities and 
overseeing implementation of those priorities. One of my goals for this 
hearing is to understand how--or if--the Federal Government sets 
priorities for international science cooperation, and who is or who 
should be responsible for coordinating and overseeing the entire 
effort.
    There have been some attempts in the past--such as the creation of 
a Committee on International Science, Engineering and Technology under 
the President's National Science and Technology Council--to assign that 
task to a dedicated organization. Some experts have suggested assigning 
this task to the State Department itself. To that end, Congress created 
a Science and Technology Adviser to the Secretary of State in 1999. Dr. 
Nina Fedoroff is the third renowned scientist to hold that position. In 
a demonstration of her commitment to better integrate science in our 
diplomatic activities, Dr. Fedoroff personally lobbied Secretary Rice 
to broaden her job description to include Science Adviser to the 
Administrator of USAID.
    While the State Department may be at the center of many of these 
efforts, I would be remiss to downplay the critical role played by a 
number of other agencies, including the National Science Foundation; 
the mission agencies, represented here today by NASA; and the Office of 
Science and Technology Policy, which has responsibility both for 
advising the President on the science and technology components of 
national and international issues, and for coordinating research and 
development activities across the Federal Government.
    Today, representatives from these agencies will tell us about 
current efforts and opportunities in international science and 
technology cooperation and help us understand how such cooperation 
benefits the United States and the world. I want to thank all of the 
witnesses for taking the time to appear before the Committee this 
morning and I look forward to your testimony.

    Mr. Neugebauer. Well, thank you, Mr. Chairman, and good 
morning, and Dr. Ehlers is sorry he could not be here to greet 
these esteemed--to hear these great witnesses today, and hear 
their testimony, but he is giving his own testimony before a 
committee this morning, and cannot be here. Hopefully, we will 
have the benefit of his presence shortly, but in the meantime, 
I ask unanimous consent that his opening statement be inserted 
into the record.
    Chairman Baird. Without objection.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    International diplomacy can be crafted through a variety of 
mediums. Science and technology as a vehicle of diplomacy has been 
explored by our nation, but I believe it is currently underutilized. 
This hearing will help us understand both the established foundation of 
science diplomacy and how we might build upon it.
    While I share the concern about the fiscal year 2008 omnibus and 
its impact on the ITER agreement, this is only one symptom of a greater 
problem: the perceived worth that scientific collaboration has to our 
foreign affairs. While it is hard to gauge the return on investment in 
international science and technology cooperation, it is much easier to 
realize the cost of not investing in these types of endeavors. 
Furthermore, the U.S. will not remain globally competitive in science 
and technology unless we are able to work with international partners 
on large facilities that simply cannot be financed by individual 
nations. In many fields, U.S. researchers would be crippled by lack of 
participation in these activities.
    I am very pleased that Dr. Fedoroff is testifying today and I 
believe that the Science and Technology Advisor position at the 
Department of State has helped build the profile of science and 
technology diplomacy. Thank you for your attendance, and I look forward 
to testimony from our panel today.

    Mr. Neugebauer. The issue of international science and 
technology cooperation is one of importance to this nation. 
This committee spends a significant amount of time talking 
about American science and technology developments and 
improvements in terms of global competitiveness. That is as it 
should be, and is necessary if we are going to remain ahead of 
the innovation curve.
    We do not spend as much time talking or hearing about 
global cooperation and collaboration when it comes to science 
and technology, but we are actively involved in these equally 
important endeavors, and I commend the Chairman for his 
interest in this topic, and for calling this hearing today. I 
am pleased to see that we have such a distinguished panel 
before us this morning to give us an update on what their 
agencies are doing and any challenges or obstacles that they 
may be facing when it comes to international cooperation.
    I thank you for coming, and I look forward to your 
testimony, and I yield back the balance of my time.
    [The prepared statement of Mr. Neugebauer follows:]
         Prepared Statement of Representative Randy Neugebauer
    Thank you, Mr. Chairman, and good morning.
    Dr. Ehlers is sorry he cannot be here to greet these esteemed 
witnesses and hear their testimony, but he is giving his own testimony 
before another Committee this morning and cannot be here. Hopefully, we 
will have the benefit of his presence shortly, but in the meantime, I 
ask unanimous consent that his opening statement be inserted for the 
record.
    The issue of international science and technology cooperation is 
one of importance to this nation. This committee spends a significant 
amount of time talking about American science and technology 
developments and improvements in terms of global competitiveness. That 
is as it should be and is necessary if we are to remain ahead of the 
innovation curve.
    We do not spend as much time talking or hearing about global 
cooperation and collaboration when it comes to science and technology, 
but we are actively involved in these equally important endeavors, and 
I commend the Chairman for his interest in this topic and for calling 
this hearing today.
    I am pleased to see that we have such a distinguished panel before 
us this morning to give us an update on what their agencies are doing 
and any challenges or obstacles they may be facing when it comes to 
international cooperation. I thank you for coming; I look forward to 
your testimony; and I yield back the balance of my time.

    Chairman Baird. Thank you, Mr. Neugebauer. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Good morning. Thank you, Mr. Chairman, for holding today's hearing 
on international collaborations in science and technology.
    In addition to my service on this committee, I also lead an 
International Woman's Peace Initiative that is dedicated to improving 
peace through the empowerment of women.
    I will be interested to know how our federal science enterprise is 
reaching out to other nations and utilizing scientific collaborations 
to strengthen ties to them. Specifically, S&T outreach to the Middle 
East is of interest to me.
    I have also had the opportunity to travel to Cuba several times. I 
know that the United States has medical students who are there, trying 
to earn their medical degrees.
    International scientific collaborations with Cuba have decreased 
dramatically under the current Administration. This stricture has 
robbed American citizens of important medical breakthroughs, simply 
because our diplomats don't want to do business with Cuba.
    Scientific collaborations, when pursued, can serve as salve in old 
wounds, to speed their healing. When those bonds are loosened or 
broken, harm may be done.
    I want to thank today's panelists for your presence here today and 
for the information that you are about to share. Members of this 
committee want to ensure that international collaborations are 
sustained and are well-coordinated.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this important hearing on 
international science and technology.
    As a Member of both the Subcommittee on Research and Science 
Education and the House Committee on Foreign Affairs, I am pointedly 
interested in the coordination of international science and technology 
diplomacy. The United States has a central role in science diplomacy, 
building more positive relationships with other countries through 
science. We also understand that the U.S. can better affect U.S. 
national security and economic interests by helping to build 
technological capacity in other countries. I am particularly interested 
in the role that the Department of State plays in the effort and look 
forward to hearing more details.
    I would like to thank today's witnesses, Dr. Marburger, Dr. Bement, 
Dr. Fedoroff, Mr. Miotke, and Mr. O'Brien for coming before the 
Committee. I look forward to hearing their testimony.

    Chairman Baird.At this time, it is my great privilege to 
introduce our witnesses. Dr. John Marburger is the Director of 
the Office of Science and Technology Policy, and in that role, 
serves as the President's chief science advisor. Dr. Arden 
Bement is the Director of the National Science Foundation, one 
of only three research agencies with explicit international 
programs. Dr. Nina Fedoroff recently became the third Science 
and Technology Advisor to the Secretary of State, and the first 
to serve also as S&T Advisor to the Administrator of USAID. Mr. 
Jeff Miotke is the Deputy Assistant Director of State for 
Science, Space and Health in the Bureau of Oceans and 
International Environmental and Science Affairs, and Mr. 
Michael O'Brien is the Assistant Administrator for External 
Relations of the National Aeronautics and Space Administration, 
and responsible for managing NASA's international agreements 
across its mission directorates.
    As our witnesses know, spoken testimony is limited to five 
minutes, but we are fairly flexible on this committee. And 
then, we will follow with five minutes of questioning on each 
side. And at this point, we will hear from our first witness.
    Mr. Marburger, Dr. Marburger, please, thank you for being 
here.

 STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, OFFICE OF 
                 SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you very much, Mr. Chairman, Ranking 
Member Neugebauer, Members of the Subcommittee. I am quite glad 
to be here. Having served on the faculty of University of 
Southern California for many years, and a Dean there, I think 
of myself as a Trojan, as well.
    In your invitation, you asked two multi-part questions that 
I have answered somewhat implicitly in my written testimony, 
and in my oral remarks this morning, I want to address those 
specific questions very succinctly, and I would be glad to 
provide more detail in response to your questions.
    My written testimony responds mainly to question 1: ``What 
is the role of OSTP in fostering international science and 
technology cooperation, and in coordinating federal 
activities?'' And also: ``What is OSTP's role relative to that 
of the Department of State?'' These are important questions, 
and we try to be clear about them in my office.
    In brief, OSTP provides support to agencies with respect to 
their international science and technology activities, and to 
the Department of State, with respect to its overall 
responsibility for coordinating all international activities. 
We do not seek to duplicate or replace the State Department in 
this responsibility, nor does OSTP establish diplomatic 
priorities or objectives, and we actively discourage other 
agencies from taking actions that may infringe upon the State 
Department's responsibility in this regard.
    On the other hand, I actively discourage the Department of 
State from taking actions that imply or entail commitments with 
international partners that require expenditures within other 
departments and agencies without prior consultation and 
arrangement with those departments, and agreements about the 
source of funds and the responsibility for the programs. The 
State Department does this, and I think they do it well.
    The second question asks how the Administration sets 
priorities for international science and technology 
cooperation, and is there any regular forward-looking process 
by which goals are set by OSTP, or by the National Science and 
Technology Council, NSTC, that you referred to. And then, 
finally, what is my response to the National Science Board's 
recommendation to reconstitute a Committee on International 
Science, Engineering, and Technology, under NSTC.
    Well, as I explained in my written testimony, science is 
intrinsically internationally, and the Administration expects 
each agency to include such international components in its 
programs as are appropriate to their objectives. The current 
annual priority guidance to departments and agencies from my 
office and OMB specifically refers to international activity in 
a bulleted priority, and I am quoting from that document, ``to 
encourage interdisciplinary research efforts on complex 
scientific frontiers, and strengthen international partnerships 
to accelerate the progress of science across borders.'' That is 
currently an Administration priority to the agencies.
    OSTP does not consider the international dimension of 
science and technology as distinct or separable from specific 
technical areas, such as nanotechnology or nuclear physics or 
planetary science. We look to other countries for help in 
achieving our missions and goals for those kinds of areas. The 
Administration does not set priorities for international 
cooperation independently of priorities in the various areas of 
science, except to achieve diplomatic objectives, and that 
priority is established by the State Department.
    OSTP assists the State Department in identifying agencies 
and topics appropriate for achieving diplomatic objectives on a 
case by case basis. Agencies are responsible for determining 
what international capabilities are appropriate to seek in 
support of agency goals, and all agencies with significant 
science capabilities do have international offices.
    So, in the view that I have described, the question of 
goal-setting takes a somewhat different significance than your 
question implies. The only appropriate top-down goal-setting 
for international programs is either very broad, as in 
international collaborations are viewed very positively, or 
they are related to foreign policy objectives which are 
promulgated by the State Department, in which case, they do not 
necessarily refer specifically to science topics.
    In my view, more specific top-down goal-setting is 
counterproductive, and encourages the making of international 
commitments that are mismatched to agency budgets and programs, 
and consequently, I do not agree with the recommendation to 
form a Committee on International Science, Engineering, and 
Technology under the NSTC. The meetings and products of such a 
committee would be duplicative or existing, of existing topic-
specific activities that are conducted in connection with the 
current vigorous program of international collaborations.
    I met with the National Science Board Committee that made 
this recommendation, and advised strongly against it. While I 
agree with much in that National Science Board, I do not agree 
with this recommendation.
    So, in conclusion, I want to emphasize that science is 
strongly international almost by definition, and federal 
departments and agencies do participate broadly and actively in 
international collaborations. It is appropriate to fund science 
programs to achieve diplomatic objectives, and those objectives 
are defined by the Department of State, and the programs are 
carried out by agencies consistent with their roles and 
responsibilities.
    My office acts as a broker to support State in these 
objectives, and as a coordinator of the technical component of 
official activities, such as science and technology agreements 
and joint commissions. Resources and staffing does exist to 
perform these functions, and I believe they are being performed 
well overall.
    So, I thank you for the opportunity to make these remarks, 
and refer you to my written testimony, which I would request be 
made part of the record.
    [The prepared statement of Dr. Marburger follows:]

              Prepared Statement of John H. Marburger, III

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, I appreciate this opportunity to appear before you to 
discuss International Science and Technology Cooperation. Science has 
always been an international activity, and ``strengthening 
international partnerships to accelerate the progress of science across 
borders'' is an important and explicit priority for Executive Branch 
departments and agencies.
    The National Science and Technology Policy Organization and 
Priorities Act of 1976 (Public Law 94-282) requires the OSTP Director 
``[to] assess and advise on policies for international cooperation in 
science and technology which will advance the national and 
international objectives of the United States.'' OSTP manages this 
responsibility through an active program coordinated by a full time 
Assistant to the Director for International Relations. The Assistant to 
the Director works with the Department of State and all agencies 
engaged in international science programs, and particularly with the 
international offices of the National Science Foundation (NSF), 
Department of Energy (DOE), Department of Health and Human Services 
(HHS) (including its National Institutes of Health (NIH) ), and the 
National Aeronautics and Space Administration (NASA). She maintains 
current knowledge of the international issues and activities of these 
agencies, maintains contact with offices such as the National Security 
Council within the Executive Office of the President, and meets 
routinely with the Science Counselors from other countries at the 
Embassies located in Washington, D.C. Under her coordination, OSTP 
staff reviews all international Science and Technology agreements.
    OSTP is a staff office within the Executive Office of the 
President, and does not fund domestic or international programs. Such 
programs are developed and funded by agencies in accordance with the 
needs and objectives of their missions. Just as science is an intrinsic 
component of many of those missions, international science cooperation 
is an intrinsic component of science, and not a separate objective. 
U.S. diplomatic objectives are established and coordinated by the 
Department of State. Each agency has its own international affairs 
officer who maintains contact with the State Department, in most cases 
with the Bureau of Oceans and International Environmental and 
Scientific Affairs (OES) currently headed by Assistant Secretary 
Claudia McMurray and with the Bureau of International Organization 
Affairs (IO) currently headed by Assistant Secretary Kristen 
Silverberg. OSTP provides policy guidance and technical support to all 
departments including the Department of State.
    Science policy is necessarily based on input from the science 
community which comes to Executive Branch policy offices through the 
agencies that fund their work. The function of the OSTP-staffed 
National Science and Technology Council (NSTC), among other things, is 
to ensure that this information is incorporated systematically in 
agency plans and programs. The OSTP international program balances this 
``bottom up'' practice with ``top down'' coordination of formal multi-
agency interactions with other countries as described in more detail 
below. Agencies manage their collaborations and fulfill their 
commitments under umbrella S&T agreements through their individual 
international offices.
    During the past six years, OSTP has experimented with various 
arrangements for coordinating agency international science and 
technology programs. The most successful approach has been one that 
draws together agencies in meetings focused on specific science topics 
such as nanotechnology or genomics, or on specific countries such as 
China or Brazil. The former meetings occur naturally in the NSTC 
context, the latter occur on the schedule of high-level bilateral 
commission meetings to review progress under the S&T agreements. The 
agencies are satisfied with this arrangement, which has been very 
productive. Nanotechnology provides an excellent example of a 
successful internationally coordinated program. Through the NSTC 
Subcommittee on Nanoscale Science, Engineering, and Technology (NSET), 
OSTP collaborated with the Department of State to establish a Working 
Party on Nanotechnology within the OECD to advise on emerging issues in 
science, technology and innovation related to nanotechnology. Today 27 
countries participate in this working group. The NSET Subcommittee also 
facilitates U.S. participation in the OECD Working Party on 
Manufactured Nanomaterials.
    As described in more detail below, OSTP is actively involved in 
international science and technology affairs in all corners of the 
globe. OSTP senior management participates in numerous bilateral and 
multilateral meetings that support U.S. priorities and policies. And 
OSTP staff maintain strong ties with key technical personnel in other 
countries.

G8 Science Ministers and Advisors: I meet twice per year with Science 
Ministers and Advisors from the G8 countries plus the European Union in 
a format originally proposed by the Carnegie Commission (the meetings 
are referred to as ``Carnegie Meetings'' of the Ministers). The 
meetings are small and informal, and we exchange information on our 
science, technology and education plans and priorities. We provide 
updates on relevant government activities within our countries, and 
address international project coordination or provide direction as 
needed.

Joint Committee Meetings: In cooperation with the Department of State, 
OSTP leads bilateral meetings with countries that have high priority 
for United States objectives. In recent years I have led meetings with 
China (2006), Japan (2006), Brazil (2006), and Russia (2005 and 2008). 
A Joint Commission Meeting with India is pending. These meetings bring 
together senior officials from U.S. technical agencies and their 
counterparts to discuss joint scientific collaboration. They take 
measure of what has been accomplished, discuss impediments to 
cooperation, and outline future opportunities for joint collaboration. 
OSTP arranges coordination meetings prior to these events, and ensures 
that agency input is relevant to the aims of the collaboration. 
Bilateral S&T agreements are highly valued in the international S&T 
government community, but not necessarily because they provide funding 
to the international partner. Rather, they bring focus to the partner's 
S&T activities and encourage additional funding by foreign governments 
to their science agencies.

UNESCO: I am a Member of the U.S. National Commission for the United 
Nations Educational, Scientific, and Cultural Organization (UNESCO). 
The U.S. re-joined UNESCO during this Administration. The National 
Commission is a Federal Advisory Committee administered by the 
Department of State with 93 members from government, academia, NGOs, 
and industry. OSTP staff support me and the Commission in its science 
activities. I have also represented the U.S. on each of our delegations 
to UNESCO General Conferences since U.S. re-entry, 32nd (2003), 33rd 
(2005), and 34th (2007). I have served in prominent roles at each of 
these meetings.

OECD: I am equally active in the Organization of Economic Cooperation 
and Development (OECD) where I have spoken at forums and meetings most 
recently in March. OSTP leads the delegations to OECD's Global Science 
Forum, an organization that deals with international cooperation on 
major science facility projects, among other things.

United Nations: I served as the U.S. Minister-level representative to 
both phases of the United Nations World Summit on the Information 
Society (WSIS). Phase I took place in Geneva (December 2003) and the 
second phase took place in Tunis, Tunisia (November 2005). At the WSIS, 
the U.S. successfully advocated to keep the Internet independent and 
effective as a tool for democracy, economic development and social 
progress. By agreeing to a Declaration of Principles and Plan of Action 
in Geneva and Tunis, the U.S. reaffirmed its commitment to the 
importance of the use of Information and Communication Technologies to 
promote peace, security and stability and to enhance democracy, respect 
for human rights, open and transparent government and the rule of law.

Fulbright Program: In April 2006 I traveled to Israel to celebrate the 
50th anniversary of the Fulbright Exchange Program. While there, I met 
with Israeli academics and Palestinian researchers and supported 
cooperation between Israeli scientists and independent Palestinian 
researchers and other scientists throughout the Arab World. At that 
time I also traveled to Jordan where I discussed the Synchrotron Light 
for Experimental Science and Applications in the Middle East (SESAME). 
SESAME is an important scientific endeavor created under the auspices 
of UNESCO in 2004 that involves Israel, the Palestinian Authority, 
Jordan, Pakistan, Turkey, Cyprus, Egypt, Iran, and Bahrain. I also 
received a briefing by the Director at the Alexandria Library 
(Bibliotheca Alexandrina) in Egypt, which is an outstanding example of 
a center that provides a cultural focus for regional discussions on 
topics ranging from medical research, to peace, to ethics and culture. 
I have advocated support for such centers in presentations to 
Department of State sponsored meetings.

IPCC: In 2007, OSTP's Associate Director and Deputy Director for 
Science, Dr. Sharon Hays, led the U.S. delegation to three important 
plenary sessions of the Intergovernmental Panel on Climate Change 
(IPCC). In January, Dr. Hays led the U.S. delegation to the 10th 
Plenary Session of Working Group I, held in Paris, France, during which 
the Summary for Policy-makers was negotiated and approved for the IPCC 
report ``Climate Change 2007: The Physical Science Basis.'' This report 
was the contribution of Working Group I to the Fourth Assessment Report 
of the Intergovernmental Panel on Climate Change. In April, Dr. Hays 
led the delegation to the 8th Plenary Session of Working Group II, held 
in Brussels, Belgium, during which the Summary for Policy-makers was 
approved for the Working Group II report ``Climate Change 2007: 
Impacts, Adaptation and Vulnerability.'' And in November, Dr. Hays led 
the U.S. delegation to the 27th Plenary Session of the IPCC, held in 
Valencia, Spain, during which the Summary for Policy-makers was 
negotiated and approved for the overall ``Climate Change 2007: 
Synthesis Report.'' These reports are important resources for climate 
policy formation for all nations, including the U.S.

Earth Observations: The United States plays an international leadership 
role in Earth Observations, and OSTP supports this activity through the 
NSTC and the direct involvement of senior officials. Dr. Hays 
participated at the Group of Earth Observation Ministerial Summit in 
Cape Town, South Africa in December 2007. I spoke on behalf of the 
Administration at the inauguration of this program in 2003, and 
participated in the GEO Summit in Japan in 2004. The U.S. is also a 
partner in the UNESCO Global Ocean Observing System (GOOS).

WRC: OSTP's Associate Director and Deputy Director for Technology, 
Richard Russell, was the U.S. Ambassador to the 2007 World 
Radiocommunication Conference. This UN/International Telecommunications 
Union meeting brought together all countries of the world plus 
Nongovernmental Organizations and private industry to review and revise 
the treaty that governs the use of spectrum globally. The U.S. goals 
for the conference, all achieved, were to avoid harmful interference to 
allow systems to work, and to create significant synergies, which 
reduce the cost of technology and promote the rapid deployment of new 
technologies and services.

    Mr. Chairman, most of the issues OSTP deals with in its role of 
policy formation, guidance and coordination have an international 
component. International issues are managed routinely and 
systematically with substantial interagency communication and 
coordination, and with the full engagement of the Department of State. 
I believe the U.S. engagement in international science is intense, 
productive, and highly successful. I would be pleased to provide more 
information either now or in greater detail in writing in response to 
your questions.

                  Biography for John H. Marburger, III

    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D., Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the University and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

    Chairman Baird. Thank you, Dr. Marburger. Dr. Bement.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Chairman Baird and Ranking Member Neugebauer 
and distinguished Members of the Subcommittee, thank you for 
this opportunity to discuss NSF's role in international science 
and engineering cooperation.
    For more than 55 years, NSF has recognized the central role 
that international partnerships play in achieving America's 
research and development objectives. The Foundation has a rich 
history of connecting U.S. scientists and engineers with 
international collaborators across all sectors and disciplines 
to leverage intellectual capabilities.
    I believe through such international partnerships and 
leadership with international agencies, NSF fosters trust and 
understanding essential to advancing diplomatic relations. 
Today, international leadership roles are prominent in my 
portfolio as NSF director. I represent the United States at the 
annual meeting of the heads of Research Councils for the G8 
countries, and I serve as a member of the U.S. National 
Commission for UNESCO. Deputy Director Olsen is also active in 
UNESCO and OECD's Global Science Forum, and serves as the Vice 
Chair of the Board of the Human Frontier Science Program. NSF's 
Assistant Directors and Office Directors also help establish 
solid working relationships with counterpart agencies and 
organizations abroad.
    For example, as Director of the NSF's Office of Polar 
Programs, Dr. Karl Erb provides leadership in the International 
Polar Year, the Arctic Council, and in consultative meetings 
with the Antarctic Treaty. Through such roles, NSF leadership 
interacts directly with heads of states, ministers, and other 
principals, to catalyze intellectual exchange on global issues, 
develop bilateral and multilateral agreements, and foster 
international science and engineering capacity.
    NSF leadership also provides guidance on international 
research and related interagency collaborations through its 
work on the National Science and Technology Council. Moreover, 
NSF oversees offices in Beijing, Paris, and Tokyo, proactively 
promote relations between the United States and international 
science and engineering communities. NSF also fosters 
international cooperation through the support of the U.S. 
portion of international research and education projects.
    The Foundation effectively partners with almost every 
country in the world. Our range of international activities 
presents what I believe is a rich portfolio. Activities range 
from individual awards to student fellowships for studies, 
study abroad, to centers and networks, to multinational 
research programs, and to large, international research 
facilities.
    All of NSF's Directorates and Research Offices fund 
international science and engineering activities. The Education 
and Human Resources Directorate also has fostered extraordinary 
collaborations around STEM education and human resource 
development. Additionally, NSF's Office of International 
Science and Engineering, or OISE, supports several programs 
that specifically fund U.S. scientists and engineers engaged in 
international work.
    One such program, the Partnerships for International 
Research and Education, or PIRE, enables U.S. institutions to 
establish partnerships with international groups. PIRE has 
supported institutional level research collaborations with more 
than 40 countries. For example, the PIRE Africa Array Project 
brought together U.S. and African geoscientists as well as 
students to study seismological and volcanic activity in 
Africa. This program has now grown to include collaborators 
from more than 20 U.S., African, and European universities, in 
addition to large corporations, to advance the understanding of 
Earth's mantle dynamics.
    In recent years, OISE has expanded emphasis on linkages 
between U.S. scientists and those in developing countries. 
Specifically, OISE hired a new Program Manager for Developing 
Countries to expand these collaborations. This Program Manager, 
along with NSF leadership, has initiated dialogue with 12 
domestic and 20 international institutions who can co-fund the 
developing countries portion of these projects. OISE also works 
with international counterpart agencies to introduce them to 
the Foundation's merit review process and organizational 
structure.
    Many organizations, particularly those in developing 
countries, look to NSF as a model on how to run a competitive 
merit review research council. The United Arab Emirates, Saudi 
Arabia, and China will soon send representatives to NSF to 
study our methods of operation.
    Mr. Chairman and members of the Subcommittee, thank you 
again for this opportunity to testify on a subject of 
particular importance to NSF.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

Introduction

    Chairman Baird, Ranking Member Ehlers, and distinguished Members of 
the Subcommittee, thank you for this opportunity to discuss 
international science and technology (S&T) cooperation and the National 
Science Foundation's (NSF) current international activities. NSF's 
combined research and education portfolio provides rich examples of 
global S&T cooperation. We believe that science collaboration and 
science diplomacy are essential ingredients for America's future 
progress and prosperity. I am pleased to testify on this important and 
timely issue.
    Scientists have played an important role on the front-lines of U.S. 
diplomacy since the end of World War II. They have been the enablers of 
larger international diplomacy efforts, from the robust scientific 
exchange with China to renewed and strengthened relations with Egypt, 
India, and Pakistan-all started with the peaceful beachhead of 
scientific diplomacy.
    For instance, polls indicate that people in the Middle East 
generally view American S&T more favorably than other aspects of our 
society. This approving attitude provides for favorable forums to 
explain other aspects of American policies and actions. Our nation's 
citizens also benefit directly from S&T cooperation, as it provides our 
scientists and engineers with greater access to cutting-edge research 
and allows us to work across geographical boundaries to solve global 
problems.
    In addition, globalization has amplified the worldwide competition 
for ideas, science and engineering (S&E) talent, and leadership in 
turning new knowledge into real-world applications. Many nations are 
accelerating their investments in research and development, education, 
and infrastructure in order to drive sustained economic growth. To 
continue being a global leader in S&T, we must ensure that we have 
access to discoveries being made in every corner of the world.
    The National Science Foundation understands the global nature of 
scientific discovery, and the international character of knowledge 
creation and research activities are stressed in NSF's FY 2006-2011 
Strategic Plan, Investing in America's Future. For more than 55 years, 
NSF has connected S&E researchers and educators in academic 
organizations, industry and informal science institutions, both 
nationally and internationally, to leverage intellectual capabilities. 
NSF has strengthened the Nation's collaborative advantage by leading or 
participating in key interagency initiatives as well as by developing 
innovative collaborations across all S&E disciplines.
    Three categories of activities illustrate NSF's engagement in 
international S&T: (1) leadership and diplomacy efforts to foster 
global S&E connectivity; (2) the coordination and support of research 
projects, both large and small, that have an international component; 
and (3) the activities of NSF's Office of International Science and 
Engineering (OISE). The following selected examples underscore the 
broad influence of NSF activities.

Leadership and Diplomacy Efforts to Foster Global Science and 
                    Engineering

    The exchange of scientific information and the cooperation in 
international scientific research activities were identified by the 
first NSF Director, Alan Waterman, as two of the major responsibilities 
that Congress had given the agency. NSF embraced those responsibilities 
in its first cycle of grants, supporting international travel and the 
dissemination of scientific information originating overseas. NSF 
recognized that a two-way flow of information and individuals between 
nations resulted in both better science and improved international 
goodwill.
    In 1955, NSF took a comprehensive look at the role of the Federal 
Government in international science, and warned that it was important 
that ``activities of the U.S. Government in the area of science not be 
tagged internationally as another weapon in our cold war arsenal.'' NSF 
concluded that international scientific collaboration, based on 
considerations of scientific merit and the selflessness of the United 
States, could help ease international tensions, improve the image of 
the United States abroad, and help raise the standard of living among 
less-developed nations.
    NSF has long embraced multilateral projects as an essential aspect 
of its portfolio, beginning with the International Geophysical Year of 
1957, and continuing with such activities as the International 
Biological and Tropical Oceans-Global Atmosphere programs, and, more 
recently, the International Continental Drilling Program, Gemini 
Observatory, Rice Genome Sequencing Project, and International Polar 
Year. The agency has also fostered bilateral partnerships in all parts 
of the world. These overarching partnerships, most of which involve 
extensive interagency collaboration on the U.S. side, have generated 
thousands of cooperative research projects on multiple scales.
    As you know, the Office of Science and Technology Policy (OSTP) 
guides and oversees the administration's international science and 
technology strategies and portfolio. Through OSTP, the National Science 
and Technology Council (NSTC) has a pivotal role in setting priorities 
for and coordinating interagency collaborations, including those that 
are international in nature. International cooperation is integrated 
throughout the four committees of the NSTC, and NSF participates in 
this work on many levels. I currently co-chair the Committee on Science 
and serve as the NSF representative on the Committee on Homeland and 
National Security. NSF Deputy Director Kathie Olsen serves as the NSF 
representative on the Committee on Environment & Natural Resources and 
Committee on Technology. NSF is involved in most of NSTC's 
subcommittees and working groups, and leads many. For example, Dr. Jim 
Collins, the Assistant Director of the Directorate of Biological 
Sciences, chairs the Biotechnology Subcommittee, and Dr. Jeannette 
Wing, the Assistant Director for Computer and Information Sciences and 
Engineering, co-chairs the Networking and Information Technology 
Research and Development.
    NSF's senior management team also participates in other important 
international bodies. As NSF Director, I represent the United States at 
the annual meeting of the Heads of Research Councils (HORCS) for the G-
8 countries (Canada, France, Germany, Italy, Japan, Russia, the United 
Kingdom, and the United States). These meetings provide opportunities 
for international leaders to meet on a regular basis, to review 
bilateral issues or problems with individual counterpart agencies, and 
to propose cooperation on particular topics of common interest. In the 
last few years, NSF has chaired HORCS working groups on public 
understanding of science, evaluation of research results, and science 
and math education in schools.
    I also currently serve as a member of the U.S. National Commission 
for UNESCO and as the vice-chair of the Commission's Natural Sciences 
and Engineering Committee. As part of the our involvement with U.S. 
National Committee for UNESCO International Hydrological Programme, NSF 
is currently working with UNESCO, the U.S. Geological Survey (USGS), 
the Department of State, and other federal science agencies to organize 
a high-level Water Science Forum to explore the potential contributions 
of U.S. science to the challenges of drinking water supply and safety, 
sanitation, drought, and resource management. The forum, to be held on 
June 27, 2008, will involve about 80 people, including UNESCO 
leadership, foreign embassies, and experts from U.S. agencies and 
academia. A larger meeting, also sponsored by this group and involving 
hundreds of scientists from around the world, will be held in Irvine, 
CA, December 1-6, 2008. NSF also actively participates in the OSTP-led 
Interagency Working Group on Science of UNESCO, which is exploring 
future collaborative opportunities between the U.S. S&E community and 
UNESCO.
    Additionally, NSF Deputy Director Kathie Olsen serves as Vice-Chair 
of the Board of Trustees of the Human Frontier Science Program and as 
co-chair of the U.S.-EC Biotechnology Task Force. NSF leadership also 
represents the U.S. government on the International Group of Funding 
Agencies for Global Change Research, and through multiple roles in the 
activities of OECD's Global Science Forum. For example, NSF has 
recently been involved in hosting workshops on the science of science 
policy and biocomplexity, and the agency plays a major role in the 
coordination of the U.S. role in large facilities. NSF also plays 
significant roles in the consultative meetings of the Antarctic Treaty, 
in the scientific activities of other United Nations specialized 
agencies, such as the World Meteorological Organization, and in the 
activities of the Arctic Council, where we represent the scientific 
interest of all the Arctic nations. Through these activities, NSF 
leadership interacts directly with heads of state, ministers, and other 
principals to discuss forming new multilateral and bilateral 
agreements, or to alter or extend already existing agreements. Such 
leadership roles play a critical role in keeping the Nation proactively 
involved in the international S&T arena.
    NSF's overseas offices in Beijing, Paris, and Tokyo also 
proactively promote collaboration between the United States and 
international S&E communities. Staff headquartered in these offices 
report on in-country and regional S&T developments and policies, serve 
as resources of information on current and emerging issues in S&E and 
policy, and work as liaisons between NSF and foreign organizations and 
researchers. The offices also regularly support NSF's directorates' and 
research offices' efforts to expand NSF programs internationally and to 
finalize implementing agreements. Thus, they play an important role in 
helping NSF pursue its mission of promoting U.S. research and education 
excellence in a global context.
    Moreover, program officers from NSF's OISE and the heads of its 
overseas offices have helped establish solid working relationships with 
counterpart agencies and organizations abroad. Examples are the UK 
Research Councils, the Japan Society for the Promotion of Science, the 
National Natural Science Foundation in China, CONACyT in Mexico, the 
Centre National de la Recherche Scientifique in France, the Deutsche 
Forschungsgemeinschaft in Germany, the National Research Foundation in 
South Africa, the Russian Foundation for Basic Research and the Czech 
Ministry of Education. Over the years, senior officials and program 
officers from these and other organizations have held numerous 
discussions, participated in seminars and workshops, and funded 
cooperative research projects. Since we fund the U.S. portion of 
international research, these venues provide numerous U.S. S&E 
researchers, postdoctoral fellows, graduate students, and 
undergraduates opportunities to gain important international 
perspectives.
    NSF's support of the annual U.S. contribution to the International 
Institute for Applied Systems Analysis (IIASA) and the International 
Council for Science (ICSU) via grants to the National Academy of 
Sciences--the National Member Organization for both IIASA and ICSU--
also facilitates involvement of U.S. scientists and engineers in 
international non-governmental organizations. This support enables U.S. 
scientists and engineers to participate in global S&E projects. Of 
particular interest for this hearing, both organizations concentrate on 
scientific fields of policy importance, including topics focused on the 
developing world, such as environmental, economic, technological, and 
social issues in the context of global change.
    The Embassy Science Fellows program, administered by the Department 
of State and coordinated within NSF by OISE, also provides for valuable 
international experience. Fellows from NSF and certain other U.S. 
Government agencies spend between one and three months at foreign posts 
as visiting ``scientist/engineer-consultants'' to the Embassy, working 
closely with the Science Counselor and/or other embassy staff involved 
in S&T issues. The fellows conduct assessments of in-country S&E 
institutions, fields, and priorities, and meet with leading scientists 
and science administrators.
    Finally, facilitating the flow of S&E talent to the United States 
is also a major concern of NSF. OISE continues to serve as a resource 
on visa policies both to the scientific and engineering community at 
large and to the Department of State. OISE continues to track the visa 
situation, providing timely information to NSF senior management and 
program officers as the policies evolve.

NSF's International Research and Education Portfolio

    The U.S. portion of international S&E research and education 
activities is funded by all NSF directorates and research offices. 
International implications are found throughout all of NSF's 
activities, from individual research awards and fellowships for 
students to study abroad, to centers, collaborations, joint projects, 
and shared networks that demonstrate the value of partnering with the 
United States.
    As a result of its international portfolio encompassing projects in 
all S&E disciplines, NSF effectively partners with almost every country 
in the world. The following examples illustrate the international 
breadth and scope of NSF's international portfolio.
    The Research Experiences for Undergraduates program, an NSF-wide 
activity, gives undergraduate students the opportunity to engage in 
high-quality research, often at important international sites. One of 
these sites is CERN, the European Laboratory for Particle Physics in 
Switzerland, and one of the world's premier international laboratories. 
Undergraduate students work with faculty mentors and research groups at 
CERN, where they have access to facilities unavailable anywhere else in 
the world. NSF also provides support for the Large Hadron Collider 
housed at CERN.
    Collaborations among individual NSF-supported investigators are 
also common in NSF's portfolio. Recently, scientists at the University 
of Chicago created a single-molecule diode, a potential building block 
for nanoelectronics. Theorists at the University of South Florida and 
the Russian Academy of Sciences then explained the principle of how 
such a device works. They jointly published their findings.
    The Foundation's Division of Materials Research supports the 
Materials World Network (MWN), a global collaborative aimed at 
fostering partnerships between materials science and engineering 
researchers at institutions around the globe, including institutions in 
Africa, Europe, Asia, and Australia. The MWN was launched in 1995 and 
further developed via a series of NSF co-sponsored workshops around the 
world. Through MWN, NSF and international partner agencies jointly 
solicit proposals for collaborative projects. Since 2001, NSF has 
participated in funding over 180 awards. Research is targeted at 
improving medical diagnosis, developing stronger materials for the 
housing and transportation industries, and more.
    At the ends of the world, NSF coordinates nearly all of the U.S. 
scientific research in the Arctic and Antarctica through its Office of 
Polar Programs. In fact, NSF was designated as the lead federal agency 
for the International Polar Year (IPY) 2007-2008. During this campaign, 
more than 100 countries undertook projects involving scientists, 
students, teachers, and the public to increase understanding of the 
polar region.
    Research at NSF supported-centers also has significant 
international implications. For example, the NSF Center for 
Sustainability of Semi-Arid Hydrology and Riparian Areas recently won 
the International Great Man-Made River Prize awarded by UNESCO. The 
prize ``rewards remarkable scientific research work on water usage in 
arid region as well as areas subject to drought and also for the 
development of agriculture for the benefit of humanity and the 
environment.'' More than three dozen scientists and support staff at 
another NSF-supported center recently won a different prestigious award 
for their work on climate change. Researchers and staff at National 
Center for Atmospheric Research (NCAR), as well as many other NSF-
supported researchers, were involved in reports by the U.N. 
Intergovernmental Panel on Climate Change (IPCC). The U.N. 
Intergovernmental Panel on Climate Change (IPCC) was awarded the 2007 
Nobel Peace Prize along with former Vice President Al Gore.
    There are also examples where NSF partners with the United States 
Agency for International Development (USAID) to support international 
S&T programs to facilitate capacity building. For example, the U.S.-
Pakistan Science and Technology Program, led by a coordinating 
committee chaired by Dr. Arden Bement, NSF Director, and Dr. Atta-ur-
Rahman, Pakistan Minister of Education and Science Advisor to the Prime 
Minister. USAID funds the U.S. contribution of the joint program and 
supports other programs in Pakistan involving NIH and other agencies. 
This U.S.-Pakistan S&T program supports a number of joint research 
projects peer reviewed by the National Academy of Sciences and approved 
by the joint S&T committee. Over the past year, the Committee has also 
established sixteen S&T working groups that involve interagency 
participation in Pakistan and in the United States to carry out joint 
research projects of mutual interest (with direct benefit to Pakistan).
    Through this collaboration, NSF just completed a network connection 
of Internet 2 with Pakistan to facilitate research and education 
collaborations and data exchanges under the program. This project 
embodies one of NSF's top priorities, the development of the national 
science and engineering cyberinfrastructure, enabling a prime role for 
the United States in global research networks. NSF's goals for the 
national cyberinfrastructure include the ability to integrate data from 
diverse disciplines and multiple locations, and to make them widely 
available to researchers, educators, and students. Already, the Grid 
Physics Network and the international Virtual Data Grid Laboratory are 
advancing IT-intensive research in physics, cosmology, and 
astrophysics.
    In today's highly sophisticated, technology-driven science, many 
international partnerships center around major, high-budget research 
facilities that are made possible only by combining the resources of 
more than one nation. For example, NSF's facilities budget includes 
construction funds for the IceCube neutrino detector, antennas for the 
Atacama Large Millimeter Array (ALMA), and observation technologies for 
the Arctic Observing Network (AON).
    The IceCube Neutrino Observatory--the world's first high-energy 
neutrino observatory--offers a powerful example of an international, 
interagency research platform. Agencies in Belgium, Germany, and Sweden 
have joined NSF and Department of Energy (DOE) in providing support for 
IceCube, which will search for neutrinos from deep within the ice cap 
under the South Pole in Antarctica. Neutrinos are hard-to-detect 
astronomical messengers that carry information from cosmological 
events.
    The Atacama Large Millimeter Array, currently under construction 
near San Pedro de Atacama, Chile, will be the world's most sensitive, 
highest resolution, millimeter wavelength telescope. The array will 
make it possible to search for planets around hundreds of nearby stars 
and will provide a testing ground for theories of star birth, galaxy 
formation, and the evolution of the universe. ALMA has been made 
possible via an international partnership among North America, Europe, 
and East Asia, in cooperation with the Republic of Chile. NSF is the 
U.S. lead on this ground-breaking astronomical facility.
    As part of the aforementioned IPY activities, NSF serves as lead 
contributing agency for the Arctic Observing Network (AON)--an effort 
to significantly advance our observational capability in the Arctic. 
AON will help us document the state of the present climate system, and 
the nature and extent of climate changes occurring in the Arctic 
regions. The network, organized under the direction of the U.S. 
Interagency Arctic Research Policy Committee, involves partnerships 
with the National Oceanic and Atmospheric Administration, National 
Aeronautics and Space Administration, Department of Interior, 
Department of Defense, Smithsonian Institution, National Institutes of 
Health, DOE, and USDA. NSF coordinates AON activities across the U.S. 
government, as well as with international collaborators, including 
Canada, Norway, Sweden, Germany, and Russia.
    Such international infrastructure projects will continue to play a 
key role in advancing S&E capacity worldwide. NSF leadership and 
proactive involvement in large international research projects helps 
ensure that U.S. S&E stays at the frontier.

The Office of International Science and Engineering

    The Office of International Science and Engineering--the 
centerpiece of NSF's international activities--integrates Foundation-
wide activities and manages a broad range of programs that support U.S. 
scientists and engineers engaged in international research and 
education. OISE is currently leading the agency's effort to develop a 
goal-oriented strategic plan that will inform the coordination of 
international activities across the Foundation. In FY 2009, NSF 
proposes a budget of $47.44 million for OISE.
    Organizationally, OISE is comprised of five regional groups and the 
three aforementioned international offices. OISE has two programmatic 
priorities: (1) to enhance research excellence through international 
collaboration; and (2) to serve as a catalyst for partnerships between 
the U.S. and the international research community.
    OISE works closely with the NSF directorates and other research 
offices to co-fund innovative awards and supplements that promote 
research excellence through international collaboration and develop the 
next generation of globally engaged U.S. scientists and engineers. For 
example, OISE and NSF's Directorate of Mathematics and Physical 
Sciences co-fund the ``East-West Collaboration.'' The East-West 
Collaboration supports frontier research in elementary particle 
physics. This scientific interchange between a 20-university 
collaboration centered at Cornell University and an 18-university 
collaboration centered at the Institute for High Energy Physics in 
Beijing, China has enabled a faster start-up for the first 
superconducting magnet in China, advances in ``new physics,'' and for 
the direct partnership of U.S. and Chinese scientists. As China 
continues to invest heavily in science and engineering research, such 
collaborations will foster necessary intellectual exchange for U.S. 
scientists and engineers as well lead to greater connectivity between 
the United States and China.
    OISE also serves as an interface for NSF's directorates, offices, 
divisions, and programs with multi-national organizations, 
international science organizations, and national funding agencies and 
ministries in other countries. OISE often works with international 
counterpart agencies to educate them on the Foundation's peer review 
process, organizational structure, and funding process, as many, 
particularly those in developing countries, look to NSF as a model for 
how to run their programs.. These efforts help align agency procedures 
close to those of NSF, which can often make collaboration and science 
funding more effective in these countries.
    For example, the United Arab Emirates' (UAE) Ministry of Higher 
Education has commissioned their scientists to establish a National 
Research Foundation by early 2008. These scientists visited NSF in 
January 2008 to learn about NSF procedures for support of research and 
evaluation of results. Additionally, the King Abdulaziz City for 
Science and Technology in Riyadh, NSF's counterpart agency in Saudi 
Arabia, will send its Director of Research in August 2008 to learn 
about NSF. China also sends representatives to study the NSF 
experience, as their research agency, modeled on NSF, operates in a 
similar fashion. Additionally, Turkey, France, and Ireland, among 
others, are emulating the NSF model.
    NSF's international office has implemented specific programs to 
stimulate innovative international partnerships. The East Asia and 
Pacific Summer Graduate Research Institutes (EAPSI), International 
Research Fellowship, and Partnerships for International Research and 
Education (PIRE) Programs are examples of three OISE-supported programs 
that facilitate partnership across institutions and countries.
    The East Asia and Pacific Summer Graduate Research Institutes 
(EAPSI) Program enables U.S. graduate students to build collaborations 
with scientists and engineers working in relevant research facilities 
in East Asia and the Pacific region. The eight-week institute programs 
are held at top research institutions in Japan, Korea, Taiwan, China, 
Australia, New Zealand, and Singapore. Over 1,600 U.S. graduate 
students have participated in the program since its inception in 1990. 
The program fosters a U.S. S&E workforce capable of operating in a 
global marketplace increasingly impacted by scientific developments in 
Asia and the Pacific Region.
    The research of a behavioral biology student from Texas A&M 
University offers one example of the resulting increased international 
connectivity. The student studied the ability of giant pandas to 
recognize their kin by establishing a live web based ``Panda Cam'' at 
China's Wolong Nature Reserve. This student's project not only opened 
the door for researchers and the broader public to observe the behavior 
of pandas in their natural habitat, but it helped develop a bridge 
among China's Forestry Ministry, the Chinese Academy of Sciences, and 
U.S. researchers.
    The International Research Fellowship Program supports 
approximately three dozen U.S. postdoctoral fellows for 9 to 24 months 
at foreign host institutions annually. The program's objective is to 
introduce U.S. scientists and engineers to cutting-edge international 
research opportunities in the early stages of their careers. Fellows' 
research projects involve international collaboration, the use of 
overseas instrumentation, and access to unique research environments in 
a wide range of fields, including biology, physics, engineering, 
geosciences, computer sciences, and social and behavioral sciences.
    In fiscal year 2007, 39 fellowship recipients from 21 states were 
selected to conduct research in 21 foreign countries. After completion 
of the fellowship, the researchers return to jobs in academia and 
industry in the United States. Past fellows attest that their 
experiences abroad were unparalleled career-enhancers and that the 
fellowship placed them at the leading-edge of their field of research 
and positioned them to build new collaborations with colleagues in 
their host country. These collaborations have also led to foreign hosts 
of NSF International Research Fellows joining U.S. research teams.
    The Partnerships for International Research and Education (PIRE) 
Program is an example of a larger collaborative research activity 
supported by OISE. PIRE enables U.S. institutions to establish 
collaborative relationships with international groups or institutions 
to conduct research dependent upon international collaboration. The 
program catalyzes a cultural exchange in U.S. institutions by 
establishing innovative models for international collaborative research 
and education. PIRE also readies U.S. students to participate in 
international research collaborations.
    To date, the PIRE program has supported the work of 32 institutions 
in 23 states. Research collaborations with more than 40 countries have 
resulted. The U.S.-China PIRE project on electron chemistry and 
catalysis was listed in the Chinese media as one of the top ten S&T 
developments in China for 2006. The PIRE program supports research 
projects that nurture U.S. relationships with international 
counterparts.
    Another PIRE project has significantly impacted the developing 
world. The ``AfricaArray'' brought together U.S. and African 
geoscientists, as well as students, to study seismological and volcanic 
activity in Africa. Collaborators from Penn State University, the 
University of Witwatersrand (South Africa), the University of Dar Es 
Salaam (Tanzania), and the National Seismological Network (Uganda) have 
developed a network of seismic monitoring stations that cross the 
African continent to study the origins and structure of the African 
Superplume, an anomalous part of the Earth's mantle that stretches from 
deep in the mantle to near the surface. To date, the NSF-supported 
researchers leading AfricaArray have collaborated with more than 20 
U.S., African, and European universities, in addition to large 
cooperations, in order to advance the understanding of Earth's mantle 
dynamics.
    AfricaArray is only one of 15 PIRE projects involving collaboration 
with scientists in developing countries. Other examples include a 
project with Indonesia, Malaysia, and the Philippines to transform a 
biodiversity hot spot into a research and education opportunity as well 
as a project with Argentina and Mexico to enable cyberinfrastructure 
applications. In total, the 15 projects represent approximately $36 
million in NSF funds, invested in U.S. collaborating institutions.
    In recent years, OISE has put greater emphasis on increasing 
linkages between scientists in the United States and those in 
developing countries. Specifically, OISE hired a new Program Manager 
for Developing Countries to expand collaborations with developing 
countries. Outreach presentations have been given at 12 domestic 
institutions and 20 international institutions in 10 countries. This 
OISE program manager and NSF senior leadership are also initiating and 
continuing dialogue with 12 funding agencies appropriate to co-fund the 
developing countries' portion of S&E projects, e.g., the International 
Foundation for Science, the International Rice Research Institute, 
USAID, and the World Bank.
    The progress of humankind will depend increasingly on the new 
knowledge of science and technology. The collaborative pursuit of new 
knowledge is a powerful tool for bringing people together, and OISE 
activities will continue to stimulate global collaboration.

Conclusion

    International collaboration in S&E is a necessary foundation for 
the future. In order for the United States to be competitive in this 
new global society, we must engage in international research. And, we 
must proactively develop a workforce that is adept at working on 
international research teams.
    For NSF, this means a continued commitment to foster collaborations 
of all kinds and to seek new forms of partnership to address today's 
research challenges and opportunities. The more widely research, data, 
and new knowledge are shared, the broader the resulting perspectives. 
As you can see from the numerous examples above, the National Science 
Foundation is committed to international partnership and collaboration 
on many levels.
    We will continue to leverage our broad mission to catalyze 
international research endeavors in all disciplines and to train an 
internationally engaged S&E workforce. We will also continue to 
leverage science and engineering know-how and the NSF model to catalyze 
larger diplomatic efforts.
    Lastly, we look forward to any new insights that can be garnered 
from the National Science Board's new report entitled, ``International 
Science and Engineering Partnerships: A Priority for U.S. Foreign 
Policy and Our Nation's Innovation Enterprise;'' we are currently 
working with the board on their recommendations.
    Thank you again for the opportunity to testify, and I would be 
happy to respond to any questions.

                   Biography for Arden L. Bement, Jr.

    Arden L. Bement, Jr., was sworn in as the 12th Director of NSF on 
November 24, 2004. He had served as Acting Director since February 22, 
2004. Dr. Bement heads the only federal agency that funds research and 
education in all fields of science and engineering. He directs a budget 
of more than $6 billion; hundreds of programs that support roughly 
200,000 scientists, engineers, educators, and students across the 
country; and the development of world-class facilities and 
infrastructure. He oversees a robust international research program in 
the polar regions and several international partnerships to build 
sophisticated research and experimental facilities.
    Since the White House launch of the American Competitiveness 
Initiative in 2006, he has overseen numerous initiatives that 
strengthen the U.S. innovation base and economic position and intensify 
the training of the U.S. workforce to operate in a high-tech global 
economy. His top priorities have included increasing the size and 
duration of NSF funding awards; implementing electronic proposal and 
grant processing at NSF; developing cyberinfrastructure that advances 
research and education through expanded capabilities for networking, 
data processing and storage, modeling, and simulation; and broadening 
international collaborations to leverage NSF investments. He has 
expanded NSF's centers of excellence program to encompass dozens of 
science and engineering disciplines partnering with industries and 
educators.
    He serves as a member of the U.S. National Commission for UNESCO 
and as the vice-chair of the Commission's Natural Sciences and 
Engineering Committee. He is a member of the U.S. National Academy of 
Engineering, a fellow of the American Academy of Arts and Sciences, and 
a fellow of the American Association for the Advancement of Science. 
Dr. Bement is an ex officio member of the U.S. National Science Board, 
which guides NSF activities and serves as a policy advisory body to the 
President and Congress. He was a member of the NSB from 1989 to 1995.
    Prior to his confirmation as NSF Director in November 2004, Dr. 
Bement served as Director of the National Institute of Standards and 
Technology of the Department of Commerce, a position he had held since 
Dec. 7, 2001. At NIST he oversaw an annual budget of about $773 million 
and an on-site research and administrative staff of 3,000 employees, 
complemented by a NIST-sponsored network of 2,000 locally managed 
manufacturing and business specialists serving smaller manufacturers 
across the United States.
    He joined NIST from Purdue University, where he was the David A. 
Ross Distinguished Professor of Nuclear Engineering and head of the 
School of Nuclear Engineering. He has held appointments at Purdue 
University in the schools of Nuclear Engineering, Materials 
Engineering, and Electrical and Computer Engineering, as well as a 
courtesy appointment in the Krannert School of Management. He was 
Director of the Midwest Superconductivity Consortium and the Consortium 
for the Intelligent Management of the Electrical Power Grid.
    Dr. Bement joined the Purdue faculty in 1992 after a 39-year career 
in industry, government and academia. His positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965). He has also been a 
Director of Keithley Instruments Inc. and the Lord Corp. and a member 
of the Science and Technology Advisory Comm. for the Howmet Corp., a 
division of ALCOA.
    He has earned numerous awards and served in diverse government 
advisory roles, including: head of the NIST Visiting Committee on 
Advanced Technology; head of the advisory committee for NIST's Advanced 
Technology Program; member of the Board of Overseers for the Malcolm 
Baldrige National Quality Award; Chair of the Commission for 
Engineering and Technical Studies and the National Materials Advisory 
Board of the National Research Council; and member of the Space Station 
Utilization Advisory Subcommittee and the Commercialization and 
Technology Advisory Committee for NASA. He has consulted for the 
Department of Energy's Argonne National Laboratory and the Idaho 
National Engineering and Environmental Laboratory.
    Dr. Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate in metallurgical engineering from 
the University of Michigan, and honorary doctorates from Cleveland 
State University, Case Western Reserve University, and the Colorado 
School of Mines, as well as a Chinese Academy of Sciences Graduate 
School Honorary Professorship. He is a retired Lieutenant Colonel of 
the U.S. Army Corps of Engineers, and a recipient of the Distinguished 
Service Medal of the Department of Defense.

    Chairman Baird. Thank you, Dr. Bement. We have been joined 
by Mr. Bilbray from California, and Eddie Bernice Johnson from 
Texas, and I thank them for joining us. Dr. Fedoroff.

   STATEMENT OF DR. NINA V. FEDOROFF, SCIENCE AND TECHNOLOGY 
 ADVISOR TO THE SECRETARY OF STATE, U.S. DEPARTMENT OF STATE; 
                     ADMINISTRATOR OF USAID

    Dr. Fedoroff. Chairman Baird--thank you--and distinguished 
Members of the Subcommittee, thank you for the opportunity to 
discuss science diplomacy at the State Department and USAID.
    My written testimony describes what we do, in response to 
your questions. I take this opportunity to tell you why we do 
it. New York Times columnist Tom Friedman has attracted a great 
deal of attention with his declaration that the world is flat. 
By this, he means that the Internet, communications technology, 
and globalization have put all peoples of the world on an equal 
economic footing. Yet, despite the extraordinary increase in 
our ability to communicate and access information, we all know 
that the world is far from flat, even metaphorically.
    Countries that cannot feed their people or provide them 
with economic opportunities are susceptible to extremist 
ideologies, autocratic rule, and human rights abuses. The 
still-growing human population, rising affluence in emerging 
economies, and many other factors are pushing the global prices 
of edible oils and grains to unprecedented highs. Global 
climate change is expected to make matters worse.
    Encouraging, and more importantly, assisting countries to 
use science and technology to build food security, manage land 
and water resources, and create knowledge-based economic 
opportunities, are essential goals for U.S. diplomacy and U.S. 
national security. Indeed, they are a central element of the 
Secretary's Transformational Diplomacy Initiative.
    Let me give you just one small personal example of science 
diplomacy, from my experience before I came to State. I am a 
plant molecular biologist and geneticist. In 2004, I published 
a book on the science behind genetically modified plants, 
generally known as GM crops, or GMOs. Not long after, I 
received an e-mail from a junior Foreign Service Officer in the 
American Embassy in Bangladesh, inviting me to come and speak 
about GMOs. Bangladesh is a poor country, with a limited amount 
of arable land, and a still-growing population. It badly needs 
contemporary science to increase its agricultural output. 
Caught between U.S. acceptance and Europe's continued rejection 
of GM crops, Bangladesh had not developed its own GM policy. 
The conference opened an important dialogue among scientists in 
our country and theirs, diplomats and government officials, as 
well as the local press, in the effort to distinguish fact from 
fiction in this highly charged area and move forward.
    There is a growing recognition that science and technology 
are, and will increasingly be, the drivers of the successful 
economies of the 21st Century. From countries to companies, 
today's organizations are shaped by their expertise in science, 
technology, and engineering. Improving the welfare and 
stability of the poorest nations will require a concerted 
effort by the developed world to address the underlying 
disparities in access to the education, the science, and the 
technology essential for economic growth.
    The world also faces common threats, climate change, energy 
and water shortages, infectious diseases, and environmental 
degradation. Such threats are blind to political boundaries. 
The birds that spread avian flu don't apply for visas or stop 
at border crossings. Addressing global challenges necessitates 
international scientific cooperation. Scientists speak a common 
language, making it possible for members of ideologically 
divergent societies to cooperatively address the problems 
confronting all of us.
    Finally, some types of science are inherently international 
in scope and collaborative by necessity. The objective of the 
International Thermonuclear Experimental Reactor, ITER, as it 
is generally known, is to harness the power of nuclear fusion 
as a new and viable energy source. ITER is an international 
scientific cooperation among key science leaders, Japan, Korea, 
China, the European Union, India, Russia, and the United 
States. The recent elimination of funding for the Fiscal Year 
2008 U.S. contribution to the ITER Project has made our allies 
question our commitment and credibility in the international 
cooperative ventures.
    It is perhaps important to remember that in an earlier era, 
science diplomacy was an important avenue of communication 
between the Soviet Union and the U.S., credited by many with 
preventing a flash-over of the Cold War. In a complex, multi-
polar world, relations are more challenging, the threats 
perhaps greater, and the need for engagement even more 
compelling.
    I thank you very much.
    [The prepared statement of Dr. Fedoroff follows:]

                 Prepared Statement of Nina V. Fedoroff

MAKING SCIENCE DIPLOMACY MORE EFFECTIVE

    Chairman Baird, Ranking Member Ehlers, and distinguished members of 
the Subcommittee, thank you for this opportunity to discuss science 
diplomacy at the U.S. Department of State. The U.S. is recognized 
globally for its leadership in science and technology. Our scientific 
strength is both a tool of ``soft power''--part of our strategic 
diplomatic arsenal--and a basis for creating partnerships with 
countries as they move beyond basic economic and social development. 
Science diplomacy is a central element of the Secretary's 
transformational diplomacy initiative, because science and technology 
are essential to achieving stability and strengthening failed and 
fragile states.
    S&T advances have immediate and enormous influence on national and 
global economies, and thus on the international relations between 
societies. Nation states, nongovernmental organizations, and 
multinational corporations are largely shaped by their expertise in and 
access to intellectual and physical capital in science, technology, and 
engineering. Even as S&T advances of our modern era provide 
opportunities for economic prosperity, some also challenge the relative 
position of countries in the world order, and influence our social 
institutions and principles. America must remain at the forefront of 
this new world by maintaining its technological edge, and leading the 
way internationally through science diplomacy and engagement.

The Public Diplomacy Role of Science
    Science by its nature facilitates diplomacy because it strengthens 
political relationships, embodies powerful ideals, and creates 
opportunities for all. The global scientific community embraces 
principles Americans cherish: transparency, meritocracy, 
accountability, the objective evaluation of evidence, and broad and 
frequently democratic participation. Science is inherently democratic, 
respecting evidence and truth above all.
    Science is also a common global language, able to bridge deep 
political and religious divides. Scientists share a common language. 
Scientific interactions serve to keep open lines of communication and 
cultural understanding. As scientists everywhere have a common 
evidentiary external reference system, members of ideologically 
divergent societies can use the common language of science to 
cooperatively address both domestic and the increasingly trans-national 
and global problems confronting humanity in the 21st century. There is 
a growing recognition that science and technology will increasingly 
drive the successful economies of the 21st century.
    Science and technology provide an immeasurable benefit to the U.S. 
by bringing scientists and students here, especially from developing 
countries, where they see democracy in action, make friends in the 
international scientific community, become familiar with American 
technology, and contribute to the U.S. and global economy. For example, 
in 2005, over 50 percent of physical science and engineering graduate 
students and postdoctoral researchers trained in the U.S. have been 
foreign nationals. Moreover, many foreign-born scientists who were 
educated and have worked in the U.S. eventually progress in their 
careers to hold influential positions in ministries and institutions 
both in this country and in their home countries. They also contribute 
to U.S. scientific and technologic development: According to the 
National Science Board's 2008 Science and Engineering Indicators, 47 
percent of full-time doctoral science and engineering faculty in U.S. 
research institutions were foreign-born.
    Finally, some types of science--particularly those that address the 
grand challenges in science and technology--are inherently 
international in scope and collaborative by necessity. The ITER 
Project, an international fusion research and development 
collaboration, is a product of the thaw in superpower relations between 
Soviet President Mikhail Gorbachev and U.S. President Ronald Reagan. 
This reactor will harness the power of nuclear fusion as a possible new 
and viable energy source by bringing a star to Earth. ITER serves as a 
symbol of international scientific cooperation among key scientific 
leaders in the developed and developing world--Japan, Korea, China, 
E.U., India, Russia, and United States--representing 70 percent of the 
world's current population.
    The recent elimination of funding for FY08 U.S. contributions to 
the ITER project comes at an inopportune time as the Agreement on the 
Establishment of the ITER International Fusion Energy Organization for 
the Joint Implementation of the ITER Project had entered into force 
only on October 2007. The elimination of the promised U.S. contribution 
drew our allies to question our commitment and credibility in 
international cooperative ventures. More problematically, it 
jeopardizes a platform for reaffirming U.S. relations with key states. 
It should be noted that even at the height of the cold war, the United 
States used science diplomacy as a means to maintain communications and 
avoid misunderstanding between the world's two nuclear powers--the 
Soviet Union and the United States. In a complex multi-polar world, 
relations are more challenging, the threats perhaps greater, and the 
need for engagement more paramount.

Using Science Diplomacy to Achieve National Security Objectives
    The welfare and stability of countries and regions in many parts of 
the globe require a concerted effort by the developed world to address 
the causal factors that render countries fragile and cause states to 
fail. Countries that are unable to defend their people against 
starvation, or fail to provide economic opportunity, are susceptible to 
extremist ideologies, autocratic rule, and abuses of human rights. As 
well, the world faces common threats, among them climate change, energy 
and water shortages, public health emergencies, environmental 
degradation, poverty, food insecurity, and religious extremism. These 
threats can undermine the national security of the United States, both 
directly and indirectly. Many are blind to political boundaries, 
becoming regional or global threats.
    The United States has no monopoly on knowledge in a globalizing 
world and the scientific challenges facing humankind are enormous. 
Addressing these common challenges demands common solutions and 
necessitates scientific cooperation, common standards, and common 
goals. We must increasingly harness the power of American ingenuity in 
science and technology through strong partnerships with the science 
community in both academia and the private sector, in the U.S. and 
abroad among our allies, to advance U.S. interests in foreign policy.
    There are also important challenges to the ability of states to 
supply their populations with sufficient food. The still-growing human 
population, rising affluence in emerging economies, and other factors 
have combined to create unprecedented pressures on global prices of 
staples such as edible oils and grains. Encouraging and promoting the 
use of contemporary molecular techniques in crop improvement is an 
essential goal for U.S. science diplomacy.
    An essential part of the war on terrorism is a war of ideas. The 
creation of economic opportunity can do much more to combat the rise of 
fanaticism than can any weapon. The war of ideas is a war about 
rationalism as opposed to irrationalism. Science and technology put us 
firmly on the side of rationalism by providing ideas and opportunities 
that improve people's lives. We may use the recognition and the 
goodwill that science still generates for the United States to achieve 
our diplomatic and developmental goals. Additionally, the Department 
continues to use science as a means to reduce the proliferation of the 
weapons of mass destruction and prevent what has been dubbed `brain 
drain.' Through cooperative threat reduction activities, former weapons 
scientists redirect their skills to participate in peaceful, 
collaborative international research in a large variety of scientific 
fields. In addition, new global efforts focus on improving biological, 
chemical, and nuclear security by promoting and implementing best 
scientific practices as a means to enhance security, increase global 
partnerships, and create sustainability.
    The Office of the Science and Technology Adviser (STAS) is actively 
involved in long-term strategic planning and dialogues about the 
importance of science, engineering, and technology to the future 
security our nation. The STAS Global Dialogues on Emerging Science and 
Technology have focused on emerging technology outside of the U.S. The 
most recent conference this March focused on the development of 
geographic information systems for sustainable development in Africa 
and will promote greater U.S.-African regional cooperation on this 
issue.
    Another broad Department initiative has been the Iraqi Virtual 
Science Library. The Iraqi Virtual Science Library (IVSL), launched on 
May 3, 2006, is a digital portal that provides 80 percent of Iraqi 
universities and research institutes with access to an outstanding 
collection of millions of full text articles from over 17,000 premier 
scientific and engineering journals and their archives, in addition to 
technical content and educational resources through an innovative open-
source Internet platform developed with Sun Microsystems. Its goal is 
to help rebuild the educational and scientific infrastructure in Iraq 
and reintegrate Iraqi scientists and engineers into the global 
scientific community.
    Recognizing the need to rebuild the science and engineering 
infrastructure in Iraq, a group of American Association for the 
Advancement of Science (AAAS) Science & Technology Policy Fellows began 
the IVSL (https://ivsl.org) project in 2004. The IVSL is now an 
interagency collaboration with members from the U.S. Departments of 
State and Defense. The project is funded by the Defense Threat 
Reduction Agency, the U.S. State Department, and the Civilian Research 
and Development Foundation, the generous donations of publishing 
companies and professional societies, and partnerships with the U.S. 
National Academy of Sciences, other departments and agencies of the 
U.S. Government, Sun Microsystems, the Massachusetts Institute of 
Technology, Useful Utilities, and Vitalect Technologies.
    STAS has been also closely involved in Project Horizon, in 
partnership with other bureaus at State, as well as the DOD, USAID, the 
intelligence community, and other U.S. technical agencies. Project 
Horizon is a strategic, scenario-based planning project to focus on the 
future of 21st century global affairs and transformational diplomacy. 
The purposes of Project Horizon are threefold. First, it is to develop 
strategic interagency capabilities in which the U.S. Government should 
consider investing in to prepare for the threats and opportunities that 
will face the Nation over the next 20 years, including building and 
integrating our operational capacity to respond to contingencies and 
support country transitions effectively. Second, it is to provide 
participating agencies with a scenario-planning tool set that can be 
used to support both internal agency planning and planning across 
agencies. Third, it is to provide a starting point for an 
institutionalized interagency planning process. Project Horizon 
anticipates that the Department of State will have a critical need to 
strengthen the ability of the Department to focus on shaping the 
environment for our international relations. Science, technology, and 
engineering are key components of the Horizon blueprint for the future 
of the Department's statecraft.

Increasing Science Literacy at State
    Just as we may use S&T diplomacy outside of State, it is also 
important to build science literacy within the Department of State and 
USAID in order to maintain our ``intellectual security.'' Our diplomats 
will be called upon increasingly to exhibit science, engineering, and 
technology expertise and presence in fulfillment of their duties.
    As the Secretary of State's Advisory Committee on Transformational 
Diplomacy noted, the Department of State should expand its investment 
in science, engineering, and technology expertise in order to enhance 
its presence and global engagement in the formulation of new 
international laws, standards, and practices in emerging scientific 
fields such as climate change, genetics, and nanotechnology. We seek to 
increase the number of scientists in the Department through promotion 
and coordination of the American Association for the Advancement of 
Science Diplomacy Fellowships (30 fellows for 2007-2008), professional 
science society fellowships (two fellows), and Jefferson Science 
Fellowships (eight for 2007-2008). The Department is also actively 
promoting the Embassy Science Fellows Program (37 from seven agencies 
in 33 posts in 2007) to place scientists in posts overseas, and 
developing science, engineering, and technology student internships at 
the Department of State. These initiatives provide important technical 
capacity within the Department, and STAS is actively working, in 
partnership with the Bureau of Oceans, Environment, and Science (OES), 
to make scientific, engineering, and technical capacity more widely 
accessible to the Department and overseas embassies and missions.
    The Department should expect all Foreign Service officers and other 
officials of the Department and Agency for International Development to 
achieve a minimum level of scientific literacy and awareness in matters 
relating to foreign policy to perform their duties effectively. This is 
obvious for issues such as global health, nanotechnology, space and 
advanced research, environment, and energy, but comes into play in 
other ways as well. Science literacy is also essential to understanding 
and dealing with issues such as arms control and nonproliferation, 
including chemical and nuclear weapons and their delivery systems, and 
for counter-terrorism. The STAS office is working with the Foreign 
Service Institute to broaden science literacy within the Foreign 
Service.
    Finally, STAS provides appropriate advice to policy-makers in the 
Department on emerging scientific issues, and to help reach political 
consensus on challenging issues. It does so by bringing together 
scientists within the State Department, other agencies, the private 
sector, and the academic communities.

THE ROLE OF SCIENCE AND TECHNOLOGY AT USAID

    Development can directly support diplomacy and science is an 
integral part of development. The foci of our foreign assistance are 
building self-sustaining economies and poverty alleviation, 
transforming agriculture and resolving food insecurity, solving global 
health problems, climate and environment, as well as building democracy 
and supporting the rule of law. Science and technology have a role to 
play in all of these.
    Science, engineering, and technology are eagerly desired by 
developing countries and remain among the most admired aspects of 
American society. Access to S&T is a key component of innovation, which 
in turn, is a key component of economic competitiveness in all 
countries, at every stage of development. Investments in science and 
technology have long been recognized as a key element of development 
strategies to lift people out of poverty and onto a path of self-
sufficiency and sustainable growth.

Enhancing Science at USAID
    Nearly all aspects of development require science and technology or 
would benefit from them, and this will only grow in the future. Yet 
USAID has suffered steep declines in S&T capacity, staffing, and 
funding, particularly in overseas missions, where such knowledge is 
crucial to the development of foreign assistance programs that fully 
respond to local needs. In parallel, so too has the Agency's support 
for research to develop a new generation of technologies and practices 
to address these emerging or deepening problems of development. These 
shortfalls have hurt the Agency's ability to achieve its mission.
    The State Department's Science Adviser's recent additional 
appointment as the Science Adviser to the USAID Administrator 
highlights the Agency's recognition of the importance of S&T to 
development, and emphasizes the need to ensure that that U.S. 
Government is using the best scientific and technological information 
to solve the world's development challenges. Solving such challenges 
pays important dividends to the American people.
    To address the science and technology issues at the Department of 
State and USAID and to link policy initiatives with foreign assistance 
programs, the STAS office is transforming into a joint State 
Department-USAID Science Diplomacy unit to more effectively engage 
scientists, engineers, and a variety of technical experts in meeting 
our diplomatic and development goals and unite STAS' dual roles to the 
Secretary and the USAID Administrator.
    The mission of this office will be to deliver the kind of 
scientific and technical expertise required by a country to address the 
critical challenges that threaten it. It will focus on emerging, as 
well as fragile and failing states in need of technical and scientific 
expertise. The office will call on the U.S. academic, industrial and 
USG S&T sector, constituting working groups of scientists, engineers 
and other technical personnel to address development problems. Its 
purpose is to ensure that the use of science and technology achieves 
our goals in public diplomacy, increases the efficacy of our foreign 
assistance programs, and meets our foreign policy objectives of 
transformational diplomacy and stabilization of the international 
system.

THE ROLE OF STAS RELATIVE TO OES

    The State Department's Science and Technology Adviser to the 
Secretary is one of the Department's principal interlocutors with the 
national and international scientific community. The Adviser seeks 
counsel and assistance from the community on foreign policy based 
science and technology initiatives at the Department of State, but also 
serves to inform the community of such initiatives, and provide a venue 
for collaboration.
    STAS helps ensure that scientific issues receive attention at 
senior levels of the Department, including the Secretary. The Adviser 
provides accurate advice to the Department to help officials understand 
emerging scientific issues and inform U.S. positions on issues, such as 
biotechnology and climate change. The Adviser also ensures access for 
the Department to the expertise and resources of the scientific 
community.
    The Science Adviser works closely with OES and with other bureaus 
and offices within the State Department on a variety of issues, from 
promoting international cooperation on science, engineering, and 
technology, to meeting with delegations, and crafting policy for 
international meetings. STAS is both a resource and a collaborator for 
OES and other and functional and regional State Department bureaus.
    Most importantly, the Adviser is a conduit for scientific 
information to the leadership of the Department. STAS advises and 
receives policy advice from the Secretary of State, the Deputy 
Secretary, the Under Secretary for Democracy and Global Affairs (G) and 
OES Assistant Secretary, on all science, environment, health, 
technology, engineering, and related research and development 
activities, and issues that have foreign policy implications. STAS also 
provides scientific and technical advice and counsel to other Under 
Secretaries, regional and functional Assistant Secretaries, and other 
senior staff throughout the Department on issues that involve a 
scientific, engineering, or technology component, in partnership with 
OES.

STAS' ROLE IN AGENCY, NGO, & PRIVATE SECTOR COORDINATION

    STAS plays a key coordination role for State in its relationship 
with the NGO community on scientific, engineering, and technology 
topics. STAS works actively with professional and scientific 
organizations, such as the American Association for the Advancement of 
Science, and the National Academies of Science, Medicine, and 
Engineering. These relationships provide the Department of State and 
the Agency for International Development access to the best intellects 
in the field, and to the frontiers of science.
    STAS also maintains close working relationships with the other USG 
agencies that deal with science- and technology-based issues, 
particularly, with the White House Office of Science and Technology 
Policy (OSTP), the National Science and Technology Council within the 
White House, the National Science Foundation, and the National 
Institutes of Health, and speaks for the Department in its dealings 
with those agencies. The Adviser has met with many of her direct 
counterparts at the Departments of Agriculture, Energy, and Defense, 
for example, to share ideas about areas of common interest and concern, 
and to pursue collaborative opportunities.
    Finally, STAS is an important link to the private sector, both 
companies and foundations. Such partnerships leverage State Department 
and USAID resources to achieve common goals.
    Thank you again for allowing me to testify on this important topic.

                     Biography for Nina V. Fedoroff

    U.S. Secretary of State Condoleezza Rice has named Dr. Nina V. 
Fedoroff to be her new Science and Technology Adviser. Dr. Fedoroff is 
the Willaman Professor of Life Sciences and Evan Pugh Professor in the 
Biology Department and the Huck Institutes of the Life Sciences, 
Pennsylvania State University.
    Dr. Fedoroff is a leading geneticist and molecular biologist who 
has contributed to the development of modern techniques used to study 
and modify plants. She received her Ph.D. in molecular biology from the 
Rockefeller University in 1972. In 1978, she became a staff member at 
the Carnegie Institution of Washington and a faculty member in the 
Biology Department at Johns Hopkins University. In 1995 Dr. Fedoroff 
joined the faculty of the Pennsylvania State University, where she 
served as the founding Director of the Huck Institutes of the Life 
Sciences.
    Dr. Fedoroff has done fundamental research in the molecular biology 
of plant genes and transposons, as well on the mechanisms plants use to 
adapt to stressful environments. Her book, Mendel in the Kitchen: A 
Scientist's View of Genetically Modified Foods, published in 2004 by 
the Joseph Henry Press of the National Academy of Science, examines the 
scientific and societal issues surrounding the introduction of 
genetically modified crops.
    Dr. Fedoroff is a member of the National Academy of Sciences, the 
American Academy of Arts and Sciences, and the European Academy of 
Sciences. She has served on the National Science Board of the National 
Science Foundation. Dr. Fedoroff is a 2006 National Medal of Science 
laureate.
    Nina V. Fedoroff did her undergraduate work at Syracuse University, 
graduating summa cum laude with a dual major in biology and chemistry. 
She attended the Rockefeller University, where she earned her Ph.D. in 
molecular biology in 1972. Both her undergraduate research at Syracuse 
University and her graduate research on RNA bacteriophage at The 
Rockefeller University were supported by grants and fellowships from 
the National Science Foundation. Following graduation from The 
Rockefeller University, she joined the faculty at the University of 
California, Los Angeles (UCLA), and carried out research on nuclear 
RNA.
    In 1974 Fedoroff received fellowships from the Damon Runyan-Walter 
Winchell Cancer Research Fund and the National Institutes of Health 
(NIH) for postdoctoral work, first at UCLA and then in the Department 
of Embryology of the Carnegie Institution of Washington in Baltimore. 
Working in the laboratory of Donald Brown, Fedoroff pioneered in DNA 
sequencing, determining the nucleotide sequence of the first complete 
gene. In 1978, Fedoroff became a staff member at the Carnegie 
Institution of Washington and a faculty member in the Biology 
Department at Johns Hopkins University. Her research focus changed to 
the isolation and molecular characterization of maize transposable 
elements. The isolation of the maize transposons, discovered 
genetically by Barbara McClintock in the 1940s, was achieved in the 
early 1980s. In subsequent years, Fedoroffs lab showed that the maize 
transposons were active in a variety of other plants, developed 
transposon tagging systems, and studied the eipgenetic regulation of 
transposon activity.
    In 1995 Fedoroff joined the faculty of the Pennsylvania State 
University as Willaman Professor of Life Sciences. From 1995 to 2002, 
she served as the Director of the Biotechnology Institute and she 
organized and served as the first Director of the Life Sciences 
Consortium (now the Huck Institutes of the Life Sciences), a seven-
college organization devoted to the promotion of multi-disciplinary 
research and teaching in the life sciences. In 2002, Fedoroff was named 
an Evan Pugh Professor of the Pennsylvania State University and in 
2003, she became a member of the External Faculty of the Santa Fe 
Institute. Fedoroff's current work is directed at understanding the 
genetic organization and molecular dynamics of plant stress and hormone 
responses and makes use of DNA microarray expression profiling, reverse 
genetics, and theoretical approaches to the analysis of large data 
sets. Fedoroff has published two books and numerous papers in 
scientific journals.
    Fedoroff has served on the editorial boards of the Proceedings of 
the National Academy of Sciences, Science, Gene, Plant Journal and 
Perspectives in Biology and Medicine and currently chairs the NAS 
Council's Publications Committee. She served on the board of the 
International Science Foundation and the International Scientific 
Advisory Board of the Englehardt Institute of Molecular Biology in 
Moscow. She has been a member of the Council of the National Academy of 
Sciences, the Board of Directors of the Genetics Society of America, 
the American Association for the Advancement of Science, the Board of 
Trustees of BIOSIS and the National Science Board, which oversees the 
National Science Foundation. She is currently a member of the Science 
Steering Committee of the Santa Fe Institute and the Board of Directors 
of the Sigma-Aldrich Chemical Company.
    Fedoroff has received several awards and honors, including an NIH 
Merit Award, a 10-year research grant that supported her work from 1989 
to 1999. She also received the University of Chicago's Howard Taylor 
Ricketts Award in 1990, the New York Academy of Sciences' Outstanding 
Contemporary Woman Scientist award in 1992, and the Sigma Xi's McGovern 
Science and Society Medal in 1997, and Syracuse University's Arents 
Pioneer Medal in 2003. She is a member the American Academy of Arts and 
Sciences, the European Academy of Sciences, the American Academy of 
Microbiology and the National Academy of Sciences.

    Chairman Baird. Thank you, Dr. Fedoroff. Mr. Miotke.

 STATEMENT OF MR. JEFF MIOTKE, DEPUTY ASSISTANT SECRETARY FOR 
SCIENCE, SPACE, AND HEALTH, BUREAU OF OCEANS, ENVIRONMENT, AND 
               SCIENCE, U.S. DEPARTMENT OF STATE

    Mr. Miotke. Thank you, Mr. Chairman, and Ranking Member 
Neugebauer, and distinguished Members of this subcommittee. I 
welcome the opportunity to talk a little bit about how 
important S&T is to diplomacy, although I have to say I am now 
a little at a loss for words, since your own comments and Dr. 
Fedoroff's have pretty much stolen my thunder.
    And Dr. Marburger, as usual, has described the role of the 
State Department better than I can. I am going to be asking him 
to write my work requirement statement. So, I got myself in 
trouble. Nonetheless, I am a diplomat. I get paid by the word, 
so I am going to read my statement in any case.
    My last overseas tour in Hungary was a great example of the 
power of S&T to build bridges. My Ambassador there, Nancy 
Brinker, who many of you may know from the Komen Foundation, 
orchestrated an impressive breast cancer awareness campaign. GE 
was generous in its support of the initiative, making medical 
equipment and experts available. And so, at the very time that 
we were working with Hungary in preparation for the coalition 
forces to move into Iraq, Ambassador Brinker engineered a 
massive outpouring of support for the Embassy, and I believe 
that had very real implications for the level of support that 
we enjoyed from Hungary.
    As Dr. Fedoroff has noted also, S&T is also a fundamental 
pillar of development. Most, if not all countries have realized 
that to create jobs and be competitive, they must accelerate 
the development of their knowledge and technology sectors. Our 
cooperation with them supports the establishment of science-
based industries, encourages investments, highlights the 
importance of education, and promotes international dialogue on 
issues of global import. By hearing our expertise in an area of 
comparative strength, the United States demonstrates to other 
nations that we are interested in seeing them develop and 
flourish. This helps alleviate some of the misconceptions about 
U.S. motives.
    Science also drives diplomacy as well. This is certainly 
the case in the full range of my Bureau's issues, be it avian 
influenza, persistent organic pollutants, climate change, or 
nanotechnology. In each case, the scientific community alerted 
us to potential problems or concerns. That awareness then 
spawned an international process. As the international dialogue 
proceeds, the scientific community redefines and updates the 
parameters of the problem. Ideally, this ongoing scientific 
process helps achieve a consensus on an issue, or at least 
helps to narrow the political divide.
    In the best known example, growing concern about climate 
change resulted not just in the negotiations under the U.N. 
Framework Convention on Climate Change, but also, in the 
periodic assessment process of the Intergovernmental Panel on 
Climate Change.
    The Department is applying S&T diplomacy in a strategic 
manner. In July 2005, Secretary Rice approved an initiative to 
increase S&T outreach to the countries in the Middle East, 
North Africa, and South Asia. The goal of this strategy is to 
enhance our relationships, to foster development in those 
countries by engaging more fully with their science and 
technology communities, and by reaching out, in particular, to 
women and youth.
    In approving this strategy, the Secretary recognized the 
promise of S&T to both advance American national interests and 
promote the freedom and dignity of others. Science and science 
education can play an important role in fostering dialogue, 
increasing innovation, and addressing poverty. S&T empowers 
people to raise themselves up by developing their own human and 
intellectual capacity. This empowerment gives hope, a natural 
enemy of extremism.
    I am pleased to say that S&T diplomacy has been an all-
hands effort at State. In addition to launching the Muslim 
Outreach Strategy, the Secretary has signed several S&T 
agreements, including Bulgaria and India, just to name a 
couple. Under Secretary of State for Democracy and Global 
Affairs, Paula Dobriansky, was the architect of our Muslim S&T 
Outreach strategy, and she has led a number of S&T delegations, 
including the first to Libya since that country renounced 
nuclear weapons. OES Assistant Secretary Claudia McMurray has 
led S&T delegations to Morocco and Libya as well. Ambassador 
Reno Harnish, the OES Principal Deputy Assistant Secretary, has 
been extremely active speaking on S&T issues in the United 
States and abroad. And Dr. Fedoroff, of course, has been an 
invaluable addition to the S&T team at State.
    I thank you again for this opportunity, and I look forward 
to any questions you might have.
    [The prepared statement of Mr. Miotke follows:]

                   Prepared Statement of Jeff Miotke

    Mr. Chairman and Members of this committee, thank you for giving me 
the opportunity to address the important topic of international science 
and technology cooperation.

Scope

    The Department of State (DOS) engages governments, business, 
universities, non-governmental and international organizations, and 
individuals from every region in the world to promote scientific 
cooperation and education. To accomplish this, DOS applies a suite of 
diplomatic tools including: formal bilateral science and technology 
(S&T) cooperation agreements that facilitate international 
collaboration by USG technical agencies, promotion and support of S&T 
entrepreneurs and innovators, scientist and student exchanges, 
workshops, conferences, meetings, public-private partnerships, seed 
funding for scientific programs and innovation activities, and 
production of educational materials, including films, websites, 
posters, and cards.
    Our own activities and cooperation with other USG agencies cover a 
wide range of scientific topics, including alternative energies, health 
and medicine, environment and marine research, nanotechnology, space 
exploration, weather, seismology, and geology among many others. In 
carrying out its science diplomacy, DOS makes a special effort to 
include women, youth, and emerging leaders as beneficiaries, and in 
recent years, has supported programs focused on capacity building, 
entrepreneurship, outreach to scientific communities in Muslim-majority 
countries, and the developing world.

Bilateral S&T Cooperation Agreements

    Science and science-based approaches make tangible improvements in 
people's lives. Strategically applied, S&T outreach serves as a 
powerful tool to reach important segments of civil society. Sound 
science is a critical foundation for sound policy-making and ensures 
that the international community develops reliable international 
benchmarks. Science is global in nature--international cooperation is 
essential if we are to find solutions to global issues like climate 
change and combating emerging infectious diseases. International 
scientific cooperation promotes good will, strengthens political 
relationships, helps foster democracy and civil society, and advances 
the frontiers of knowledge for the benefit of all.
    The Bureau of Oceans, Environment, and Science (OES) in DOS pursues 
such efforts through the establishment of bilateral and multilateral 
S&T cooperation agreements. There are now over forty of these framework 
agreements in place, or in various stages of negotiation, in every 
region of the world--from Asia and Africa, to Europe, the Middle East, 
and Latin America. These agreements:

        <bullet>  Strengthen bilateral, regional, and global 
        cooperation

        <bullet>  Advance broader U.S. foreign policy goals

        <bullet>  Provide for protection and allocation of intellectual 
        property rights and benefit sharing

        <bullet>  Encourage public and private engagement

        <bullet>  Foster science-based decision-making

        <bullet>  Facilitate the exchange of scientific results and 
        access for researchers

        <bullet>  Address taxation issues

        <bullet>  And respond to the complex set of issues associated 
        with economic development, security, and regional stability

    These bilateral agreements have significant indirect benefits 
including contributing to solutions and initiatives that encourage 
sustainable economic growth, promoting good will, strengthening 
political relationships, helping foster democracy and civil society, 
supporting the role of women in science and society, promoting science 
education for youth, and advancing the frontiers of knowledge for the 
benefit of all.
    The agreements are instrumental in advancing our diplomatic 
relationships with key countries. They bring leading U.S. Government 
scientists together with foreign counterparts and policy-makers to 
discuss the important role of cooperative scientific endeavors in 
advancing, for example, our understanding of key elements of the 
climate system. Through our bilateral relationship with Russia, to cite 
one such project, we have advanced the state of research on the impacts 
of climate change in the Arctic--a key system in which we are working 
to address important gaps in knowledge. In bringing senior officials 
together to discuss areas of common concern, the bilateral partnerships 
have helped to demonstrate how much we have in common and have thereby 
advanced our diplomatic relationships and helped us achieve our 
objectives.

Promotion of International Cooperation

    The International Space Station Agreement and the International 
Thermonuclear Experimental Reactor (ITER) projects are multilateral 
projects the Department supports that have the promise of broadening 
knowledge, strengthening capabilities, and extending benefits to the 
United States and our international partners. Disseminating knowledge 
on the use of remote sensing capabilities in developing countries and 
negotiation of nanotechnology standards for emerging products and 
services in member nations of the Organization for Economic Cooperation 
and Development (OECD) are included in the wide range of subjects 
supported by DOS.
    The Global Positioning System (GPS) is one of the greatest gifts of 
the American people to the world. OES works with the USG interagency 
community and foreign space-based satellite navigation providers to 
promote compatibility and inter-operability of other provider's signals 
and services with GPS for the benefit of users worldwide. A GPS-Galileo 
Cooperation Agreement with the European Union and Joint Statements on 
GPS Cooperation with Japan, India, Australia, and Russia are producing 
tangible results such as common signal design and protecting United 
States national security interests.
    OES works closely with the United Nations (UN) Office on Outer 
Space Affairs and other interested nations to form a voluntary 
International Committee on Global Navigation Satellite Systems (ICG) 
and related Providers Forum. This multilateral venue provides an 
opportunity for discussing and resolving spectrum compatibility and 
inter-operability issues, considering guidelines for the broadcast of 
natural disaster alarms via Global Navigation Satellite Systems (GNSS), 
seeking ways to enhance performance of GNSS services, promoting GNSS 
use among developing countries, and coordinating work among 
international scientific organizations for GNSS applications worldwide.
    OES also protects U.S. security and global economic growth by 
promoting global health. Global health policy is firmly grounded in a 
scientific understanding of the infectious, environmental and potential 
terrorist threats to public health worldwide. OES works with agencies 
throughout the U.S. Government to facilitate policy-making regarding 
environmental health, infectious disease, health in post-conflict 
situations, and surveillance and response, bioterrorism, defense of the 
food supply and health security. OES works on global health with other 
U.S. Government agencies, including the National Security Council, 
Homeland Security Council, Departments of Health and Human Services, 
Homeland Security, Agriculture, Defense, USAID, and intelligence 
agencies. OES also works with the United Nations (especially the World 
Health Organization) and other international organizations, the private 
sector, non-governmental organizations, and foreign governments.
    DOS performs an important role in coordinating United States 
engagement in the scientific and technical organizations of the UN and 
other multilateral fora including the Arctic Council, the International 
Council for the Exploration of the Seas, and more. Often, the scope of 
scientific endeavors and research interests requires DOS, due to 
limited financial resources, to leverage its resources with other 
governments. For example, with National Oceanic and Atmospheric 
Administration (NOAA) leadership and DOS cooperation, the United States 
hosted the First Earth Observation Summit in 2003, with 34 
participating nations, to generate international support for creating a 
comprehensive Global Earth Observation System of Systems (GEOSS). This 
ambitious undertaking involves coordinating disparate Earth observation 
systems across the world in order to improve our collective ability to 
address critical environmental, economic, and societal concerns. The 
now 72-member governments, including the European Commission, and 46 
participating organizations of the Group on Earth Observations (GEO) 
met in Cape Town in November 2007 to assess progress.
    Other parts of the Department of State are similarly engaged in S&T 
related cooperation. For example, the bureaus under the leadership of 
Acting Under Secretary for Arms Control and International Security John 
Rood has, in cooperation with the Bureau for Near Eastern Affairs, have 
been focused on redirecting scientists through engagement in new 
programs, whether in the Middle East, North Africa or Central Asia. In 
Central Asia, cooperation is focused on post Soviet demilitarization of 
science infrastructure following the model of the Civilian Research and 
Development Foundation (CRDF) and the International Science and 
Technology Center (ISTC). Cooperation in Eurasia involves the 
Department of Energy, which since 1994 has funded over 650 projects at 
over 200 research institutes in Russia, Kazakhstan, Georgia, Armenia, 
and Uzbekistan under its Global Initiatives for Proliferation 
Prevention (GIPP) program to provide meaningful, sustainable, non-
weapons-related work for former Soviet weapons of mass destruction 
scientists, engineers, and technicians through commercially viable 
market opportunities.
    The GIPP program provides seed funds for the identification and 
maturation of technology and facilities interactions between U.S. 
industry and former Soviet institutes for developing industrial 
partnerships, joint ventures, and other mutually beneficial peaceful 
arrangements. The program involves the active participation of ten DOE 
national laboratories and the DOE Kansas City Plant. The national 
laboratories provide technical direction, project managements, and 
intellectual property management assistance. U.S. industry partners 
bring the resources and know-how to bring project results to market. 
Industry partners are engaged in specific projects through Cooperative 
Research and Development Agreements (CRADAs) with the participating DOE 
national laboratories. Cooperation also is underway with and USDA in 
the process of moving weapons scientists to civilian science roles. 
Cooperation is also conducted with DOD in nonproliferation as well as 
the destruction of nuclear missile silos.
    The State Department's Public Diplomacy/Public Affairs section 
supports many activities related to S&T diplomacy, especially in its 
Education and Cultural Affairs bureau. Most effective have been 
visitors' programs and other exchanges, the Fulbright S&T scholarships, 
and more recently grant competitions for science and technology 
education and women's scientists mentoring programs. They have also 
provided seed money for a number of bilateral and multilateral efforts, 
most notably the 2007 Kuwait Conference of Women Leaders in Science, 
Technology, and Engineering.
    To address trans-boundary environmental issues, and to support 
officers at U.S. embassies working on OES issues, the Department 
established 12 regional environmental Hubs, located in embassies around 
the world. The Hub concept is based on the idea that trans-boundary 
environmental problems can best be addressed through regional 
cooperation. The regional environmental officer's role complements the 
traditional bilateral Environment, Science, Technology and Health 
(ESTH) officers stationed in U.S. embassies in many countries of the 
world. Rather than dealing with a single country, Hub officers engage 
with several countries of a region on a particular issue, with the aim 
of promoting regional environmental cooperation, sharing of 
environmental data, and adoption of environmentally sound policies that 
will benefit all countries in that area. The Hubs work closely with 
other USG agencies and support their efforts by raising key issues at 
the diplomatic level. They also cooperate with non-governmental 
organizations on environmental activities within their region. In 
addition, there are ESTH officers working with the U.S. Mission to the 
UN and the U.S. Mission to the EU.
    OES works closely with a number of USG technical agencies on the 
international aspects of climate change policy. Under OSTP leadership, 
OES has played a key role in the Intergovernmental Panel on Climate 
Change (IPCC) since its inception, through official contributions and 
key leadership positions in IPCC report development, as well as through 
the contributions of many U.S. scientists and experts. Other examples 
of DOS cooperation on climate issues include:

        <bullet>  Bilateral climate partnerships with 15 countries and 
        regional organizations that, together with the United States, 
        account for almost 80 percent of global greenhouse gas 
        emissions. These partnerships now encompass over 400 individual 
        activities with Australia, Brazil, Canada, China, Central 
        America (Belize, Costa Rica, El Salvador, Guatemala, Honduras, 
        Nicaragua, and Panama), the European Union, Germany, India, 
        Italy, Japan, Mexico, New Zealand, South Korea, Russia, and 
        South Africa. These partnerships now encompass over 400 
        individual activities.

        <bullet>  The Asia-Pacific Partnership on Clean Development and 
        Climate, which focuses on acceleration and deployment of clean 
        energy technologies, and includes Australia, Canada, China, 
        India, Japan, the Republic of Korea and the United States.

    Oceanographic exploration in the 20th century has completely 
transformed our view of the deep ocean. Today, scientists know that the 
deep sea is teeming with life and that its bio-diversity is comparable 
to the world's richest tropical rain forests. The advent of new 
exploratory technologies is leading to the discovery of ecosystems 
which are extraordinary in nature, often hosting species found nowhere 
else on the planet.
    For the fishing industry also, the unreachable is now within reach. 
Advances in bottom fishing technology mean that it is now possible to 
fish the deep sea's rugged floors and canyons. This has led to an 
urgent call for action within the international community to ensure 
that deep-sea bottom fishing on the high seas is monitored and 
regulated to protect these unique and fragile areas. The Department of 
State, in collaboration with NOAA, has facilitated science and 
technology partnerships enabling more effective fishery regulation to 
achieve sustainability.

Outreach to the Muslim S&T Community

    OES is finalizing S&T cooperation agreements with Kazakhstan and 
Azerbaijan that will enable an increase in the scope of S&T cooperation 
in the region. Funding, and how we successfully leverage the ability of 
those countries to finance science exchange, will largely determine the 
pace of activities in terms of new programs.
    U.S. S&T capability remains one of the most admired aspects of 
American society around the world, and this is particularly true in 
predominantly Muslim countries. Public opinion polling indicates that 
people view American science and technology more favorably than 
American products, our education system, or even our freedom and 
democracy. Young people under thirty find American S&T particularly 
appealing.
    Secretary Rice recognizes the promise S&T offers both to advance 
American national interests and to promote the freedom and dignity of 
others. S&T empowers everyone to raise themselves up by developing 
their own human and intellectual capacity. This empowerment gives 
hope--a natural enemy of extremism.
    In July 2005, Secretary Rice approved a strategic initiative, put 
forward by Under Secretary of State for Democracy and Global Affairs 
Paula Dobriansky, to increase U.S. outreach to countries in the Middle 
East, North Africa, and South Asia. The goal of this strategy is to 
enhance our relationships and to foster development in those countries 
by engaging more fully with their science and technology communities, 
reaching out to women and youth, and increasing collaborative S&T 
activities and exchanges. In approving this strategy, the Secretary 
recognized the promise of science and technology to both advance 
American national interests and promote the freedom and dignity of 
others. Science and science education can play an important role in 
fostering dialogue, increasing innovation, and addressing poverty.
    A wide variety of outcomes have resulted from the implementation of 
this strategy.

1.  We have recently concluded S&T agreements with Algeria, Morocco, 
Libya, and Jordan. We are now finalizing agreements with Kazakhstan, 
Saudi Arabia, and Azerbaijan. We've raised our S&T relationship with 
Pakistan to a higher level. With Pakistan and Egypt we have the only 
two government-to-government S&T funds still in existence.

2.  Under Secretary Dobriansky hosted a ``Conference of Women Leaders 
in Science, Technology, Engineering, and Mathematics'' in Kuwait in 
January 2007. The Conference brought together 270 women scientists and 
leaders from 18 Arab countries and Turkey, including a 31-member U.S. 
delegation that included university presidents, CEO's and an astronaut, 
to build the capacity of Muslim majority and developing countries by 
focusing on women scientists as a key human resource.

3.  Following the Kuwait Conference of Women Leaders in Science, 
Technology, Engineering, and Mathematics, Under Secretary Dobriansky 
approved a body of robust new science partnerships in a wider array of 
Muslim-majority countries. We have leveraged resources with others to 
begin dozens of new engagements which focus on the transformative 
aspects of science diplomacy, including conferences, workshops, 
training, educational materials, e-education, science films, technology 
accelerators, sustainable laboratory design, and a host of other 
engagements.

4.  The S&T cooperation agreement with Libya was the culmination of a 
multi-year, multi-faceted effort to acknowledge Libya's historic 
decision to renounce nuclear weapons. By forging a new, positive 
relationship through science engagement, we hope to enhance our 
bilateral relationship and to advance peace and stability.

  The suite of agreements which now exist between the United States and 
the North African countries of the Maghreb enables the United States 
Government and the non-governmental science community to pursue a 
vigorous science dialogue with these countries, and permits their 
science establishments to reciprocate, both bilaterally and regionally, 
as a group. The United States Government will use these instruments to 
forge new relationships at the government-to-government level. But the 
true vibrancy of a more normalized relationship with Libya comes from 
the academic and private sector. We already have significant new 
programs to illustrate how this effort is paying off:

        <bullet>  Two U.S. universities have teamed up with the 
        University of Tunis to conduct a North Africa--wide workshop on 
        nano-structured materials and nanotechnology.

        <bullet>  Scientists from the United States and across North 
        Africa, and around the world, came together in Libya for a 
        conference which that country hosted on solar and other 
        alternative energy technologies.

        <bullet>  Some 3,000 delegates attended the Washington 
        International Renewable Energy Conference (WIREC 2008). 
        Morocco, Algeria, and Tunisia were present along with many 
        government, civil society, and private business leaders from 
        around the world.

        <bullet>  This month mayors and other municipal leaders from 
        American cities came together in Chicago for the U.S.-Arab 
        Cities Forum. They will share their insights on attracting 
        global investment, poverty eradication, clean energy 
        technologies, and new approaches to providing clean water to 
        their people.

        <bullet>  Later this spring, Stanford University and NASA's 
        Goddard Space Flight Center will install monitoring devices at 
        Libyan universities in Tripoli and Benghazi that will enable 
        graduate students to join in an international assessment of 
        high atmospheric disturbances.

        <bullet>  The Fulbright Academy of Science and Technology 
        brought together Fulbright Scholars and alumni for an annual 
        meeting in Boston in late February 2008 that included a number 
        of students from the Middle East and North Africa. A few of 
        these individuals received Fulbright Grants. OES will be 
        working with institutions here in the United States and in the 
        Middle East to increase the number of Arab students studying 
        the sciences in the United States.

5.  OES supports a variety of science-based educational programs in the 
Islamic World. One, a Boston-based, educational non-profit NGO, 
translated its website, www.greenscreen.org with OES support into 
Arabic and French. Teacher guides and other educational materials focus 
on developing student skills in multiple subject areas, including 
science, mathematics, and environment themes. These materials provide 
step-by-step, how-to instructions on carrying out student projects and 
scientific experiments to be undertaken in the classroom. The 
Greenscreen web portal allows students to share their science-writing 
and create linkages with peers domestically and overseas. Thus far, top 
countries accessing the site have been the United Arab Emirates, Libya, 
Tunisia, and Kuwait.

Stimulating Growth of the S&T Private Sector in the Middle East

    The public and private sectors in the United States are respected 
for sharing S&T advances and best business practices with the world. 
The American way of doing business and our earnest efforts to apply 
honest, best practices in business and institutional partnerships 
reinforces our attraction to the Islamic World. Our public and private 
sector S&T communities are perceived as reliable, non-controversial, 
and beneficial to Islamic society.
    Technology business accelerators provide entrepreneurs with 
reliable partners, provide financial means to create market-ready 
products from prototypes, assist in developing business plans, and 
attract venture capital interest. The guiding principles of technology 
business accelerators make them especially attractive to countries that 
want a sense of ownership of the program rather than just being 
beneficiaries of traditional foreign assistance programs. OES is 
advocating introduction of business technology accelerators that can 
provide the United States and cooperating countries with opportunities 
to create partnerships that build S&T-based private sectors and 
strengthen public institutional ties.
    OES is currently working with Jordan, Egypt, Morocco, Algeria, 
Tunisia, and Libya on the development of technology business 
accelerators and hopes to expand this program to partner countries in 
other parts of the world. Elsewhere, OES has on-going dialogues with 
South Africa and Vietnam regarding accelerators and has raised the 
subject in meetings with the OECD and APEC. Since the promotion of 
technological entrepreneurship is of great interest to many partner 
countries, discussions on accelerators are frequently associated with 
recently signed bilateral agreements on S&T cooperation.
    Business focuses aggressively on market drivers for selecting 
technologies that can be developed into business opportunities. It 
applies proven processes and practices to speed up growth of 
technology-based enterprises that are regionally focused and globally 
competitive from the outset. Business strives to overcome traditional 
barriers to success including lack of access to capital and to markets 
firstly by attracting investment and secondly by using innovative 
proactive marketing and business development processes in key markets. 
Finally, U.S. and local business partners assertively infuse the 
appropriate know-how to ensure their success by transferring their 
knowledge and advocating its adoption.
    U.S. and host country business partnerships are desirable as a 
means of sustaining S&T programs because they are guided by the 
following principles:

        <bullet>  They are host country-owned and backed by U.S. public 
        and private partners.

        <bullet>  They are business initiatives.

        <bullet>  They involve stakeholders from both the governmental 
        and private sectors.

        <bullet>  They are guided by both technology policy and 
        business development components, frequently have links to 
        bilateral S&T agreements, and have goals that aim to strengthen 
        the underlying legal, regulatory and policy framework 
        supporting S&T business sector development.

        <bullet>  They offer opportunities for stakeholders to 
        commercialize research undertaken at local universities and 
        government agencies.

        <bullet>  They create long-term independence through extensive 
        knowledge transfer and local capacity building and 
        infrastructure for S&T business creation and growth.

    One case in point that illustrates how S&T cooperation is 
integrated into our diplomatic activities in the Middle East is in the 
case of Egypt. A wide array of joint United States-Egyptian S&T 
research activities that have occurred have been funded under our 
bilateral S&T agreement. In addition to the more tangible and pragmatic 
S&T benefits observed, both countries have benefited from the cultural 
understanding and goodwill these relationships foster. The agreement 
continues to play a significant role in a very important bilateral 
relationship for the United States. Egypt plays a key role in helping 
to ensure a stable Middle East.

Establishing Priorities for S&T International Cooperation

    The role of the DOS in international S&T collaboration is to 
advance the objectives of the USG, the academic community, and U.S. 
commercial interests. The State Department's power rests in its ability 
to lay the appropriate ground rules for engagement at the government-
to-government and international level, to serve as a catalyst, and to 
use its convening authority effectively. In its role as ``chair'' for 
USG international science engagement, OES convenes USG interagency 
working groups on S&T cooperation with specific countries. These groups 
are composed of representatives from over 20 USG agencies that have on-
going, past or planned activities in those countries. Most interagency 
meetings are discretionary and called when S&T policy coordination is 
necessary. There are several every week over the course of the year.
    Our outreach program to the Muslim world is indicative of the 
Department's broad interest in seeing S&T being used as a way to build 
bridges, promote development, and enhance U.S. scientific progress and 
capacity. Each year the DOS reviews its priority objectives with each 
of the regional bureaus to ensure that science and technology is 
advancing American national and foreign policy interests and promoting 
the freedom and dignity of others. This is followed up with detailed 
discussions at the bureau leadership level. Input from our missions 
abroad is factored into these deliberations, through the review of 
mission-specific strategic planning documents.
    DOS also participates on various joint subcommittees of the 
National Science and Technology Council including the Joint 
Subcommittee on Ocean Science and Technology, and attends meetings of 
the National Academy of Sciences and National Research Council's 
Studies Boards. DOS finds such mechanisms useful conduits to gather and 
disseminate information on international S&T policies and collaborative 
programs.
    Interagency S&T coordination is achieved on both a country-by-
country and regional basis. For example, the scientific response to the 
need for a tsunami early warning system in the Indian Ocean and 
Caribbean basins, the implementation of a U.S. strategy on GPS, or the 
mobilization of ``big science'' programs, such as the International 
Thermonuclear Experimental Reactor or the International Space Station, 
require coordination along thematic lines and on a regional basis. 
Building science collaboration that addresses individual national 
concerns and aspirations requires a more intensive effort toward 
coordination of agency programs on a bilateral basis, while 
concomitantly implementing the strategic vision put forward by the 
Secretary of State.

Working with USG Technical Agencies

    We enjoy close collaboration with the technical science agencies, 
including the Office of Science and Technology Policy (OSTP), the 
National Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), the United States Agency for International 
Development (USAID), the National Institutes of Health (NIH) within the 
Department of Health and Human Services (HHS), the National Institute 
for Science and Technology (NIST), the Department of Energy (DOE), and 
the Environmental Protection Agency (EPA).

OSTP
    The Office of Science and Technology Policy (OSTP) plays an 
instrumental role in defining interagency programmatic priorities and 
broad budget guidelines for the many global science challenges we face. 
OSTP Director Dr. Marburger also serves as our ``Science Minister'' on 
some bilateral S&T cooperation committees, and in some meetings with 
S&T Ministers from the international community. His team leads the U.S. 
delegations to the IPCC as well. The State Department promotes OSTP's 
R&D Priorities for 2009 through its international partnerships. The 
2009 R&D priorities ``encourage interdisciplinary research efforts on 
complex scientific frontiers and strengthen international partnerships 
to accelerate the process of science across borders.''

NSF
    NSF works with DOS to promote S&T cooperation with a number of 
countries or regions. These include:

        <bullet>  The U.S.-Egypt Joint Fund Program, where NSF manages 
        nearly half of the entire portfolio of proposals for research 
        and workshops.

        <bullet>  The U.S.-Pakistan Commission on Science and 
        Technology, where the Director of NSF is the U.S. Co-Chair. NSF 
        recently funded a linkage from the Global Research and 
        Education Network node in Singapore to Karachi, Pakistan, where 
        it connects with the large and developing Research and 
        Education network in that country.

        <bullet>  NSF participated in an assessment trip in the fall of 
        2003 followed by a number of workshops, notably one on digital 
        libraries in Rabat, Morocco in January 2007, and one on 
        nanotechnology in Tunisia in March 2008. The workshops are 
        scheduled to be broadcast via Digital Video Conferencing (DVC) 
        to other countries in the region.

        <bullet>  NSF staff worked with OES on developing collaboration 
        with Jordan, with a visit of a staff member in January 2006 and 
        a two-month science fellowship by another NSF staff member at 
        the Embassy in Amman. A new NSF funded workshop on 
        nanotechnology is scheduled for the fall of 2008 in 
        collaboration with the Government of Jordan. That workshop is 
        also scheduled to be broadcast via DVC to other countries in 
        the region.

NOAA
    In fulfilling their mission to understand and predict changes in 
Earth's environment and conserve and manage coastal and marine 
resources to meet our nation's economic, social, and environmental 
needs, NOAA undertakes science and technology collaborations globally. 
NOAA's science and technology cooperative efforts range across their 
capabilities, and in many cases link to their contributions to the 
Global Earth Observing System of Systems. Activities include collection 
of data on the Earths' atmosphere and oceans, weather forecasts, severe 
storm warnings and climate monitoring, fisheries management, coastal 
restoration and supporting marine commerce.
    Examples of NOAA's recent cooperation through bilateral science and 
technology agreements include:

        <bullet>  NOAA's National Environmental Satellite, Data, and 
        Information Service (NESDIS) participated in a bilateral 
        meeting with Brazil that has led to enhanced cooperation and 
        data exchange for Earth observations. Key areas of cooperation 
        include regional cooperation on Earth observations, data 
        dissemination (especially via GEO-NETCast), continuity of 
        moderate-resolution space-based land observation, satellite 
        navigation signals and Global Positioning System (GPS) 
        applications, weather and climate forecasting, the Pilot 
        Research Moored Array in the Tropical Atlantic (PIRATA) 
        network, research on the ionosphere and magnetic anomalies, 
        Earth Observation space projects, satellite reception and 
        dissemination, and training on the use and application of Earth 
        Observation data.

        <bullet>  NOAA, along with the Deputy Secretary of Commerce, 
        participated in a visit to Libya in 2007, setting the stage for 
        cooperation on integrated watershed management to prevent 
        impacts on coastal ecosystems from land based sources of 
        pollution.

        <bullet>  Several NOAA offices recently participated in a 
        bilateral meeting with South Africa, and are discussing 
        opportunities for further collaboration to improve climate 
        change models and fill gaps in oceanic and atmospheric data 
        collection in the South African region.

USAID
    USAID plays a significant role in integrating the products of S&T 
to meet the challenges of economic, environmental, and social 
development. USAID supports research primarily in the areas of 
agriculture and health and is directed towards applied problems. The 
technologies and results from research and development supported by 
other federal agencies and the private sector is, however, integrated 
across the Agency's work in areas such as information technology, 
infrastructure, climate change, energy, clean water, environmental 
management, social safety nets and education. Among federal agencies, 
USAID has the unique mandate for applied work on the ground in more 
than seventy developing countries.
    USAID leverages the expertise of U.S. universities, private 
companies, and other federal agencies in partnerships with governments, 
research institutions, and the private sector in developing countries. 
In recent years, USAID funding cuts have greatly scaled back the 
Agency's support for training in science and technology compared to the 
1980s. The Agency still supports modest programs of capacity building 
as integral to its agricultural research and higher education 
development programs.
    USAID is seen as an international leader in areas such as 
agricultural biotechnology, contraceptives research, nutrition, 
vaccines, and the application of geospatial information to climate 
analysis and response. USAID is one of the only donors to support the 
development of improved crops using modern biotechnology, providing 
broader access to this technology by scientists, and eventually small 
farmers in Africa and Asia. USAID is also a major donor to the 
Consultative Group on International Agricultural Research (CGIAR), a 
network of research centers in developing countries which formed the 
basis of the Green Revolution.
    Rising international food prices due to rising food demands 
threatens the welfare of the world's poor. USAID's leadership in the 
CGIAR will be a critical component of an international effort to raise 
productivity and meet this growing food demand. USAID's program to 
apply geospatial information technology to improve disaster response, 
weather forecasting, and monitoring of fires, ocean tides, and air 
quality in Central America was highlighted as an early accomplishment 
under GEOSS and is now expanding with USAID support to Africa.
    USAID invests in bilateral scientific cooperation between the U.S. 
and Pakistani research and engineering communities. A series of some 40 
cooperative R&D efforts, involving several hundred researchers and 
students on both sides, focus on areas that contribute to broader USAID 
development objectives in public health, agriculture, water and the 
environment, education and other sectors. The program, implemented by 
the National Academy of Sciences, is a true bilateral partnership, with 
USAID funding U.S. research partners and the Government of Pakistan 
funding the Pakistani scientists and engineers. All of this activity is 
implemented under the auspices of an S&T cooperation agreement 
negotiated by OES.

NIH/HHS
    Over the past several decades, the NIH has supported research and 
research training programs that have resulted in the growth of a 
worldwide community of global health scientists. Many of these NIH-
trained and/or NIH-funded scientists are making remarkable scientific 
advances and discoveries, becoming worldwide leaders in the medical 
research enterprise. Life expectancy and prosperity are generally 
increasing across the developing world, in part due to the success of 
biomedical advances directly or indirectly supported by the NIH.
    NIH's Fogarty International Center is specifically dedicated to 
advancing global health by supporting and facilitating medical research 
conducted by U.S. and foreign investigators, building partnerships 
between U.S. and health research institutions worldwide, and training 
the next generation of scientists to address global health needs. 
Although significant advances have been made through the efforts of the 
NIH, there are still many unknown global health research questions that 
need to be answered, before we can adequately address the immense 
challenges from infectious diseases, and the growing global burden of 
non-communicable diseases. These questions are particularly relevant 
given the increasing incidence of infectious and non-communicable 
diseases in low and middle-income countries, where science diplomacy 
could be most helpful for the United States.
    Because the United States is a melting pot of immigrants from every 
continent, we can make substantive gains in our own nation's health 
only through a better understanding of the predilection for diseases 
from ancestral populations abroad. Moreover, as life expectancy and the 
prevalence of life-style related chronic diseases increase in most 
foreign countries, the research questions that are most relevant in the 
United States are those that are also relevant in foreign countries, 
often with large populations such as India or China, wherein research 
findings conducted through collaborative work with U.S. and foreign 
investigators can more quickly lead to biomedical breakthroughs. For 
many reasons, the future health and well-being in the United States 
will be increasingly dependent on strengthening existing, and 
developing new international research collaborations.
    NIH's extramural support for health research conducted by foreign 
investigators is estimated at more than $500 million per year. 
Additionally, the NIH Visiting Program provides intramural research 
opportunities for non-citizen scientists to train and conduct 
collaborative research at the NIH. Annually, more than 3,000 foreign 
scientists from over 100 countries worldwide conduct research in the 
basic and clinical science laboratories on the NIH campus in Bethesda, 
Maryland, and in several field units around the country.
    Likewise, we work closely with the Departments of Agriculture, 
Energy, Interior, and Health and Human Services on related research, 
and climate change, that permeates all of our S&T relationships, from 
the ITER fusion energy large-scale collaborative project to a 
widespread interest in biofuels and other renewable energy sources. 
Clean coal R&D is a major interest in China and India. In all these 
areas, we work closely with these agencies to promote S&T cooperation 
with our foreign partners. All of these agencies and others are 
important members of our technical working group that convenes 
frequently to assess new S&T agreements and programmatic activities.
    Additionally, we encourage initiatives such as the National Nuclear 
Security Administration's unique partnership arrangement between its 
Cooperative Border Security Program (CBSP) and Jordan's Royal 
Scientific Society (RSS) and Cooperative Monitoring Center in Amman, 
Jordan (CMC-A). CBSP partnered with RSS in 2002 to establish the CMC-A. 
The CMC-A is a forum in the Middle East for regional experts and 
officials to explore and adapt technology-based methodologies and 
solutions for enhancing regional cooperation on security and security-
related issues. It assists official and technical experts in the Middle 
East to acquire cooperative monitoring concepts and technology-based 
skills and tools necessary to assess, design, analyze, and implement 
projects related to Nonproliferation, Border Control, Strategic Trade 
Control, Public Health, and Environmental Security. CBSP is working 
directly with the CMC-A to help establish cadres of technical 
specialists and experts in the focus areas of Nonproliferation, Border 
Control and Strategic Trade Control.

EPA
    EPA's Office of International Affairs supports several major 
international partnerships and initiatives that build the capacity of 
other countries to address key environmental threats and that help to 
reduce the risk of trans-boundary transport of pollutants to the United 
States. EPA works closely with DOS, USAID, and other USG partner 
agencies to advance work under these partnerships. EPA's efforts 
include:

        <bullet>  The Partnership for Clean Fuels and Vehicles (PCFV), 
        which EPA launched during the 2002 World Summit on Sustainable 
        Development. This multilateral partnership seeks to eliminate 
        the use of leaded gasoline worldwide, reduce the level of 
        sulfur in fuels, and promote the use of cleaner vehicle 
        technologies. Technical and policy cooperation under PCFV 
        helped move countries in sub-Saharan Africa to phase out the 
        refining or importing leaded gasoline as of 2006, thus 
        significantly reducing the exposure of 767 million people (42 
        percent of whom are children) to this toxic substance. As of 
        March 2008, only 16 countries in the world still used leaded 
        gasoline. The Partnership has also designed and implemented 
        diesel retrofit technology projects in some of the world's 
        largest and most polluted cities. These projects are designed 
        to build support for introducing low-sulfur diesel fuel and 
        demonstrate the emissions reductions that can be achieved in 
        older vehicles with retrofit technologies combined with low-
        sulfur fuel.

        <bullet>  EPA has played a key role in developing and 
        implementing the UNEP (United Nations Environment Program) 
        Global Mercury Partnership. This Partnership, which began in 
        February 2005, promotes the protection of human health and the 
        global environment by reducing or eliminating mercury releases 
        to air, water, and land from the use of mercury in products and 
        processes as well as by reducing unintentional releases from 
        combustion and processing of fuel and ores. Under the 
        Partnership, EPA leads global work on mercury in chlor-alkali 
        production and in products, and is also active in work on 
        small-scale gold mining and cooperates with scientists in other 
        nations on mercury fate and transport research and analysis. 
        Under EPA's chairmanship, the multilateral Arctic Contaminants 
        Action Program (ACAP) Working Group of the Arctic Council has 
        helped Russian chlor-alkali production facilities reduce 
        consumption and release of over two tons of mercury. In the 
        small-scale gold mining sector, EPA helped West African miners 
        who use mercury to amalgamate gold learn adopt inexpensive 
        (less than $5.00), locally constructed hand-held retorts which 
        can reduce mercury releases. By the end of 2007, miners using 
        these retorts had captured more than 24.5kg of mercury. EPA 
        also helped develop a low-cost, locally manufactured technology 
        to capture mercury emissions from vent hoods during small-scale 
        gold processing in gold refining shops; this technology is 
        capable of keeping 80-90 percent of the mercury emissions from 
        this process out of the atmosphere, thereby reducing demand for 
        new stocks of mercury. This technology, piloted in Brazil, can 
        be adapted for use in shops in over 55 countries which further 
        refine gold from artisanal miners in the field.

        <bullet>  EPA's technology transfer and training efforts under 
        the ACAP Working Group of the Arctic Council have substantially 
        reduced the trans-boundary transfer of Persistent Organic 
        Pollutants (POPs) to the Arctic. EPA has led efforts to 
        inventory, analyze, and safely store of over 3000 metric tons 
        of obsolete and prohibited pesticides from the Arctic and sub-
        Arctic regions of Russia, thereby preventing the potential 
        transport of these chemicals to the U.S. Arctic. It has also 
        implemented a model cleaner production program at one of the 
        world's largest emitters of air pollutants, Norilsk Nickel 
        Company, located in the Russian Arctic. This technology 
        cooperation project has resulted in annual reductions in fresh 
        water consumption by 7.9 million cubic meters; reduction of 
        waste discharge by 3.4 million cubic meters; reduction in 
        electrical energy use by 14.9 million kWh; and reduction in 
        discharge of heavy metals and their oxides into the atmosphere 
        by 850 tons. EPA also led the creation of the Indigenous 
        Peoples Community Action Initiative within ACAP, a model 
        environmental justice and indigenous community empowerment 
        program. This ACAP initiative has enabled indigenous 
        communities in the Arctic Rim countries to manage their local 
        sources of hazardous contaminants, and has already resulted in 
        removal and safe storage of over 1.1 tons of PCBs and POPs 
        pesticides from five indigenous villages in Alaska and northern 
        Russia. The State Department provided funding to this 
        initiative.

        <bullet>  EPA Partnered with Norway and the Russian Federation 
        in building Russian capacity to treat low-level liquid 
        radioactive waste from decommissioned naval submarines, which 
        ultimately facilitated Moscow's decision (May 2005) to formally 
        accede to London Convention ban on ocean disposal of all 
        radioactive waste (October 2005). Through this technical 
        cooperation effort, Russia completed design, construction and 
        testing of the first cask conditioning system for long-term 
        safe storage of highly radioactive spent nuclear fuel from 
        decommissioned Russian submarines. This project allows safe 
        transport of spent nuclear fuel away from the Arctic and Far 
        Eastern coasts and helps meet the joint U.S. and Russian 
        objectives under the Strategic Arms Reduction Treaty.

Non-governmental Partners

    We are fortunate to have very constructive relationships with the 
American Association for the Advancement of Science (AAAS), as well as 
the National Academies of Science (NAS). The Academies of course, play 
a vital role in informing us of the state of the science in key 
international issues, as well as in identifying emerging science 
issues. NAS has also been extremely generous helping to host bilateral 
S&T discussions, most recently with Viet Nam. Similarly NAS has been 
helpful in choosing the scientists that participate in the Jefferson 
Fellows program, managed by Dr. Nina Federoff. NAS is also able to 
access some communities that DOS cannot reach. NAS is actively working 
to build ties to the Iranian scientific community. In some case, NAS 
has been able to convey key messages to overseas audiences.
    A NAS delegation, for instance, was able to speak for the American 
scientific community to the government of Libya on the issue of the 
Bulgarian nurses who were accused of intentionally infecting children 
with HIV. NAS made the compelling argument that American scientists and 
health professionals would be reluctant to work in a country where 
science was misused to imprison foreign collaborators. Along the same 
lines, NAS has been very active in strengthening counterpart Academies 
aboard. It was instrumental, for instance, in helping its South African 
colleagues in the production of an objective assessment of the causes 
and appropriate treatments of AIDS. NAS has also provided valuable 
information tools to U.S. embassies, such as the multi-language website 
(www.drinking-water.org) and a CD on providing safe drinking water, and 
free access to all NAS reports and publications to all users in 
developing countries.
    The AAAS has been no less helpful. We are working together to 
organize an APEC workshop on linking research to innovation. AAAS has 
also worked with some of the posts in Africa to distribute our science 
on a stick to science institutes in Africa. This program puts content 
from Science magazine on USB drives for countries with limited Internet 
broadband access. State has participated in the AAAS annual meeting at 
senior levels. Dr. Federoff gave the keynote speech this year. The AAAS 
also co-sponsored the 2007 ``Conference of Women Leaders in Science, 
Technology, Engineering, and Mathematics'' in Kuwait and has been a 
valuable advocate in the importance of S&T in diplomacy. Finally, the 
AAAS Diplomacy Fellowship, also managed by Dr. Federoff, is a crucial 
contributor to the Department's science literacy.
    We have been the beneficiaries of the work being done by others as 
well. Ambassador Harnish and I have participated, for example, in 
several events organized by the science and technology program of the 
Saban Center at the Brookings Institute. While we are collaborating 
with AAAS and NAS fairly closely, we could interact more with the 
private sector, academia, and a variety of other non-governmental 
organizations.

Conclusion

    S&T is universally perceived as apolitical. This inherent 
characteristic makes S&T an excellent means for engaging societies, 
such as those in the Middle East, where the United States has become 
progressively more unpopular. While there has been no definitive study 
on the topic of what makes science diplomacy effective, we have learned 
through years of engagement that some of the key elements are:

        <bullet>  finding areas that break new ground, sometimes in a 
        neglected area of science or development

        <bullet>  finding areas that are educationally and 
        developmentally transformative, that are highly motivational 
        for the participants

        <bullet>  finding areas that address core developmental issues 
        of poverty and human development

        <bullet>  finding areas that promote sustainable uses of 
        natural resources

        <bullet>  finding programs that stimulate job creation and 
        private sector investment

        <bullet>  finding collaborative projects that bear tangible 
        results

    The appeal of American science and technology creates a more 
favorable atmosphere in which to explain other American policies and 
interests. S&T allows the United States to engage in mutually 
beneficial dialogue with foreign nations, and creates a foundation for 
international exchange of ideas, scientists, data, and students. 
Science education provides opportunities for upward mobility for youth 
worldwide. S&T empowers individuals, in America and around the world, 
to find dignified, independent solutions to pressing social, economic, 
and environmental problems.
    We are proud of the work we are doing to strengthen our S&T ties 
with other nations. Nonetheless, there is a lot more that could be done 
to further harness the soft power of S&T. Last month, the Secretary of 
State's Advisory Committee on Transformational Diplomacy recommended 
that the DOS ``expand its investment in Science, Engineering, and 
Technology expertise, presence, and global engagement. This includes 
expanding the Department's engagement in global science, engineering, 
and technology networks through exchanges, assistance, and joint 
research activities addressing key issues.'' I look forward to hearing 
from the Committee how we might work together to broaden our 
international cooperation on science and technology.
    Thank you for this opportunity to testify and I would be pleased to 
respond to any questions you may have.

                       Biography for Jeff Miotke

    Jeff Miotke is a Foreign Service Officer currently serving as the 
Deputy Assistant Secretary of State for Science, Space and Health. 
Previously, Mr. Miotke was the Chief of Staff for the Under Secretary 
for Democracy and Global Affairs, Paula J. Dobriansky. As the Director 
of the Office of Global Change, he was a senior negotiator on climate 
change. He has also been the Deputy Director of the Office for 
Development Finance in the State Department. Overseas, he served as the 
Deputy Chief of Mission in Lesotho, Economic Counselor in Hungary, 
Economics Officer in Guatemala and Consular Officer in the Dominican 
Republic. He has received eleven Honor Awards as well as the Frank Loy 
Award for Environmental Diplomacy.
    Prior to joining the Foreign Service in 1986, Mr. Miotke managed 
the overseas users' groups for Hewlett-Packard, edited biostatistical 
reports for Syntex Labs, served as a management consultant for SRI 
International, and taught math and science as a Peace Corps Volunteer 
in Swaziland.
    He has a Bachelor's degree in Biology from Dartmouth College, a 
Master's in Public Policy from the Goldman School at the University of 
California in Berkeley, and a Master's in International Policy Studies 
from Stanford University.
    He speaks Spanish and Hungarian.

    Chairman Baird. Thank you, Mr. Miotke. Mr. O'Brien.

 STATEMENT OF MR. MICHAEL F. O'BRIEN, ASSISTANT ADMINISTRATOR 
    FOR EXTERNAL RELATIONS, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Mr. O'Brien. Mr. Chairman, Ranking Member Neugebauer, and 
Members of the Subcommittee, thank you for the opportunity to 
appear today--there we go. Sorry.
    For 50 years, NASA has enjoyed the benefits of 
international cooperation, the direction for which is found in 
legislation that created NASA in 1958, and more recently, in 
the U.S. Space Exploration Policy signed by the President in 
2004.
    NASA's international cooperation has involved thousands of 
agreements, not only with space-faring nations, but also, with 
an increasing number of other countries that rely on the unique 
vantage point of space for their day to day activities, such as 
resource management and disaster warning.
    International cooperation, for NASA, is mission-driven, and 
pursued in accordance with guidelines that we have developed 
over the years. For example, such activities must have 
technical merit and demonstrated programmatic benefit to NASA, 
provide access to unique capabilities, or improve mission 
redundancy, and certainly, in all cases, they must be 
consistent with U.S. foreign policy objectives.
    Now, international cooperation in our four Mission 
Directorates covers a broad spectrum of activities. Currently, 
two thirds of our roughly 300 active international agreements 
support the Science Mission Directorate, with more than half of 
nearly 50 current missions on orbit including some level of 
international participation. In earth science particularly, 
international cooperation is absolutely essential as we strive 
to understand the planet as an integrated system of land, sea, 
and atmospheric processes.
    In space operations, the premiere example of international 
cooperation is obviously the International Space Station. This 
15-nation partnership has worked for two decades on what may be 
the most complex international science and engineering project 
in history. Regarding future robotic and human exploration, 
NASA welcomes participation by other countries, and in fact, we 
expect it. We have already partnered with 13 space agencies to 
develop a global exploration strategy that expresses a shared 
vision among those participating in the agencies, of the 
importance of space exploration to individual and national 
objectives.
    I think it is safe to say that NASA's international 
activities also promote foreign policy interests. For example, 
the invitation to Russia, to join the existing Space Station 
Partnership in 1993 had an important U.S. foreign policy 
component. Over the years, the Partnership has overcome a 
number of significant challenges, including the tragic loss of 
Space Shuttle Columbia, and now plays an ongoing positive role, 
in my view, in the relationship between the United States and 
its Space Station partners, one benefit of which certainly is 
their willingness to cooperate with the United States on future 
space exploration endeavors.
    Less dramatic international cooperation, and I guess that 
includes everything other than the International Space Station, 
can also have foreign policy benefits. In the area of remote 
sensing applications, for example, in collaboration with USAID 
and several other organizations, NASA supported the 
establishment of the SERVIR operations facility in Panama. 
SERVIR is a regional system used to monitor ecological changes 
and forecast severe events, such as forest fires, tropical 
storms. Eight countries participate, and discussions are 
underway now for potential use of this particular model in East 
Africa.
    NASA carefully coordinates with other government agencies 
during the conceptual development and negotiation of 
international agreements. We believe we have an excellent basis 
for this coordination, due to our longstanding, effective 
relationships with OSTP, the Department of State, other 
agencies within the Executive Branch. And in the vast majority 
of cases, such as bilateral agreements with our traditional 
partners, the consultation and approval process is 
straightforward and relatively streamlined, in my view. In 
cases or potential cooperation with nontraditional partners, 
such as India, Korea, Ukraine, perhaps in the future, even 
China, NASA clearly recognizes a requirement for detailed 
interagency and Congressional coordination to ensure that 
overall U.S. Government interests and any potential legal 
restrictions are fully addressed.
    In summary, international cooperation will continue to be 
fundamentally important to NASA, as we seek opportunities for 
mutually beneficial cooperation around the world. Let me add 
that we are extremely proud at NASA of our international 
cooperation. It benefits NASA programs. It benefits the 
programs of our partners, has a positive impact around the 
world, on the relations between the United States and those 
governments with whom we participate and cooperate in space.
    I would be pleased to respond to any questions that you 
might have. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. O'Brien follows:]

                Prepared Statement of Michael F. O'Brien

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss NASA's international science and 
technology (S&T) cooperation.
    The National Aeronautics and Space Act of 1958, as amended (42 
U.S.C. 2451, et seq.) directs NASA to conduct its activities so as to 
``contribute materially to. . .cooperation by the United States with 
other nations'' and effect ``the widest practicable and appropriate 
dissemination of information concerning its activities and the results 
thereof.'' As a result, since the Agency's inception, NASA has enjoyed 
significant benefits to almost all of its major programs through some 
level of international cooperation. Since 1958, NASA's international 
cooperative activities have involved more than 3,000 agreements with 
over 100 nations or international organizations. While the majority of 
NASA's cooperation is accomplished with space-faring nations, an 
increasing number of other nations are now relying on the unique 
vantage point of space for day-to-day activities such as urban 
planning, resource management, communications, weather forecasting, and 
navigation. As a consequence, NASA's international partnerships have 
continued to grow in diversity and importance, as the Agency engages 
both developed and developing nations in a wide range of mutually 
beneficial activities.
    Throughout NASA's extensive history of international cooperation, 
the Agency has developed a series of guidelines to govern its 
international activities. First, cooperative activities must have 
scientific and technical merit and demonstrate a specific programmatic 
benefit to NASA. These benefits are often achieved through the pooling 
of resources, access to foreign capabilities or geographic advantage, 
addition of a unique capability to a mission, increased mission flight 
opportunities, or enhanced scientific return. In almost all instances, 
each Partner funds its respective contribution and the cooperation is 
conducted on a ``no exchange of funds'' basis. These cooperative 
activities are always structured to protect against unwarranted 
technology transfer, take into account U.S. industrial competitiveness, 
and establish clearly defined managerial and technical interfaces to 
minimize complexity.
    Currently, international cooperative activities are underway in 
each of NASA's four Mission Directorates (Science, Space Operations, 
Exploration Systems, and to a limited extent, Aeronautics Research) 
involving hundreds of active agreements. This cooperation includes 
joint mission planning and development of human space flight systems 
such as the International Space Station (ISS); flight of foreign 
astronauts on NASA's Space Shuttle; flight of NASA instruments on 
foreign spacecraft (and vice-versa); close coordination of independent 
space activities with similar mission objectives; suborbital campaigns 
and field research (e.g., measurements from sounding rockets, balloons, 
aircraft and ground-based measurements); cooperative tracking and space 
communications inter-operability support; and scientist-to-scientist 
data exchanges with joint analysis, interpretation and publication of 
results.

International Cooperation Related to the Science Mission Directorate

    As might be expected, international cooperation in a wide range of 
science and technology initiatives is most evident in NASA's Science 
Mission Directorate whose activities fall broadly under the categories 
of Earth science and space science. The Agency has established a robust 
program of scientific research, informed by input from the global 
science community, from National Academy of Sciences' studies and 
decadal surveys, and from NASA external advisory committees. 
International involvement in the implementation of this science-driven 
program has historically been welcomed at all levels, which has ranged 
from multi-million dollar contributions of instruments and spacecraft 
to data analysis by individual researchers from around the world. At 
the present time, two thirds of NASA's three hundred active 
international agreements are for missions led by the Science Mission 
Directorate. It should also be noted that more than half of NASA's 46 
currently-operating science missions include international 
participation. It is anticipated that this involvement will continue to 
grow as NASA and international institutions with similar research 
objectives seek to maximize scientific return with limited domestic 
resources for mission development and operations. On an almost daily 
basis, the benefits for the broader scientific community are realized 
as NASA and its international partners readily make their research data 
available to the global research community.
    NASA's Earth science activities are inherently global as we strive 
to understand the Earth as a system, from a variety of U.S. and 
international platforms. In fact, some ground-based research programs 
involve dozens of countries, such as the Aerosol Robotic Network 
(AERONET), an optical, ground-based aerosol-monitoring network and data 
archive system in which over 40 countries/regions participate. NASA is 
a major U.S. contributor to the International Polar Year (IPY) 2007-
2008. IPY will involve a wide range of research disciplines, but the 
emphasis will be interdisciplinary in its approach and truly 
international in participation. NASA is also a leader in international 
mechanisms such as the Committee on Earth Observation Satellites 
(CEOS), which coordinates the civil space-borne missions of nearly 50 
space agencies and associated national and international organizations 
that observe and study the Earth. Global participation in these 
activities is a necessity.
    Certain examples of space science missions with international 
involvement are well known, such as the Hubble Space Telescope, which 
includes cooperation between NASA and the European Space Agency, and 
its follow on mission-in-development, the James Webb Space Telescope, 
in which NASA, ESA and the Canadian Space Agency are partners. For 
robotic planetary missions, bilateral cooperation with multiple 
international partners is generally the norm. For example, seventeen 
nations contributed to building Cassini-Huygens, a cooperative mission 
led by NASA, ESA and the Italian Space Agency to explore Saturn, Titan 
and the other moons of Saturn. Hundreds of scientists worldwide 
participate in the Cassini-Huygens science teams. Looking to the 
future, NASA's Science Mission Directorate recently initiated 
discussions on potential international participation in a new NASA-led 
lunar network initiative. While details of the concept are still being 
developed, the overall concept is to work with the international 
community to place a network of landers on the lunar surface in the 
2012-2015 timeframe.

International Cooperation Related to the Space Operations Mission 
                    Directorate

    NASA's premier example of international space cooperation is the 
ongoing assembly of the ISS. With participation from 15 nations, NASA 
and its space agency counterparts have worked together to design, 
develop, assemble on-orbit and operate one of the most complex science 
and engineering projects in history. With the last two Space Shuttle 
missions, NASA delivered to the ISS several key international elements: 
the European Columbus laboratory, a portion of the Japanese Kibo 
laboratory and the Canadian Dextre robotic manipulator system. As a 
result, NASA continues to honor the Nation's commitment to our 
international partners on the Space Station, while meeting the most 
prominent milestones of the program. As NASA Administrator Michael 
Griffin testified before the Committee on Science and Technology on 
February 13, 2008, ``. . .its development is the largest task ever 
performed by the civilian agencies of the United States or our 
international partners. Such international partnerships will be an 
integral part of our next steps out beyond low Earth orbit, toward what 
President John Kennedy called 'this new ocean'.''
    The success of the ISS is all the more remarkable due to the 
necessary harmonization of complex engineering and technology 
development activities among the United States, Russia, Japan, Canada 
and many nations of Europe. The ISS International Partners represent 
over a dozen different political systems, budgetary mechanisms, and 
cultural, management and industrial approaches, that rely on the 
multilingual skills of engineers, astronauts and mission controllers 
around the world.
    The history of Space Shuttle crew assignments clearly demonstrates 
the global nature of NASA's human space flight program. Fifty-nine 
international astronauts from 15 countries have flown on the Space 
Shuttle a total of 89 times, representing one-fifth of the total 
Shuttle Mission Specialists. As we move forward, each ISS Partner has 
an allocation of future Space Station crew opportunities for the 
lifetime of the program, based on its contributions to the ISS as 
articulated in the Space Station international agreements.
    Further, NASA enjoys significant international cooperation in 
support of space communication. NASA and the international community 
routinely provide back up communication services for each other. NASA 
leads the development of international data standards and protocols for 
such space communications, as well as participating, in coordination 
with the Department of State, in International Telecommunication Union 
forums to ensure that sufficient radio frequency spectrum is allocated 
appropriately to all international partners. International inter-
operability is an important keystone of our joint missions. NASA also 
provides communications between the U.S. and the U.S. South Pole 
Station and, through this service, is supporting a number of 
international science projects that were launched under the banner of 
the IPY.

International Cooperation Related to Future Exploration Activities

    In future exploration by humans beyond low Earth orbit, NASA 
expects significant international cooperation. On January 14, 2004, the 
President directed NASA to pursue opportunities for international 
participation to support U.S. space exploration goals in the 
implementation of its new vision. Since that direction was issued, NASA 
has made steady progress with its international counterparts. Most 
significantly, NASA and 13 space agencies from around the world 
developed ``The Global Exploration Strategy: The Framework for 
Coordination.'' This document, which the participating agencies 
released in May 2007, expresses the shared vision of these agencies, 
both large and small, on the importance of space exploration to 
national objectives. The process in which 14 international space 
agencies agreed on common goals for space exploration was as important 
as the product itself.
    For NASA, the focus on international cooperation for future 
exploration can be described by two parallel paths: maintaining our 
multilateral approach to information sharing and coordination while 
expanding our bilateral cooperation with international counterparts to 
identify new areas of space exploration. Some specific examples of 
bilateral cooperation that have resulted from this process include: 
NASA's ongoing cooperation with the Japanese Aerospace Exploration 
Agency on its Kaguya spacecraft currently orbiting the Moon; 
cooperation with the Indian Space Research Organization on its 
Chandrayaan lunar mission later this year, in which NASA is providing a 
Miniature Synthetic Aperture Radar to map ice deposits in the Moon's 
polar regions and a Moon Mineralogy Mapper to assess mineral resources 
of the Moon; and cooperation with the Russian Federal Space Agency on 
Russian provision of neutron detectors for NASA's Lunar Reconnaissance 
Orbiter and NASA's Mars Science Laboratory missions.

NASA International Cooperation and Foreign Policy Interests

    While NASA's international cooperation is driven by its mission 
objectives, such activities also promote U.S. foreign policy interests. 
Two highly visible examples at different extremes of complexity and 
cost include the ISS and frequent U.S. astronaut visits around the 
world. The ISS partnership resulted in a robust program among 15 
nations with scientific and technological benefits for all of the 
partners involved. Along the way, the partnership itself survived 
significant challenges such as initial delays in delivery of major 
components and the tragic loss of Space Shuttle Columbia. The success 
of this program has played a significant positive role in the 
governmental relationship between the United States and its ISS 
partners. In the case of U.S. astronauts, by virtue of their unique 
human space flight experiences and genuine admiration by international 
audiences, they have long been able to transcend government-to-
government issues and help to enable constructive discussion on the 
peaceful uses of outer space for the benefit of all.
    In addition, small, low-cost activities in partnership with other 
U.S. Government Agencies and international organizations can also have 
significant U.S. foreign policy benefits. Working closely with the U.S. 
Agency for International Development and international organizations, 
NASA has initiated a number of very successful pilot projects, 
particularly in the area of remote sensing applications. An important 
example of this type of cooperation is NASA's involvement in the 
establishment of the SERVIR operations facility in Panama. SERVIR (both 
a Spanish acronym and also a Spanish verb meaning ``to serve'') is a 
regional visualization and monitoring system for Mesoamerica that 
integrates NASA-provided satellite and other geospatial data for 
improved scientific knowledge and decision-making. Among other things, 
SERVIR is used to monitor and forecast ecological changes and severe 
events such as forest fires, red tides, and tropical storms. Eight 
countries in the region are members of this network and there is 
international interest in using this network as a model for other parts 
of the world. Discussions are already underway for potential use of 
this model in the eastern part of Africa.
    NASA's international activities have been a key component of the 
Agency's overall mission from the beginning. While those activities are 
pursued for scientific, programmatic and mission-related purposes, they 
also provide significant benefits to the United States more broadly, 
requiring close coordination with other government agencies during the 
negotiation of the related international agreements. NASA's authority 
to enter into international agreements, combined with effective, long-
standing relationships with the Office of Science and Technology 
Policy, the Department of State and other organizations in the 
Executive Branch, provides an effective basis for the development and 
implementation of NASA's international cooperation. In the vast 
majority of cases, such as bilateral agreements with long standing 
traditional partners from Europe, the consultation and approval process 
is straight forward and relatively streamlined. In other cases, NASA 
clearly recognizes that as we explore opportunities for cooperation 
with non-traditional partners such as India, Korea, Ukraine, China and 
others, enhanced interagency and Congressional coordination will be 
required to ensure that broader U.S. Government interests and any 
potential legal restrictions are carefully addressed.

Summary

    International cooperation will continue to be fundamentally 
important to NASA. By direction of the President and Congress, NASA is 
pursuing a bold agenda that commits the United States to complete 
assembly of the ISS and retire the Space Shuttle in 2010, and also 
develop the next generation of launch systems, vehicles, and other 
capabilities that will carry humans and robots beyond low Earth orbit 
as an integral part of a balanced program of human and robotic 
exploration, science and aeronautics research. As we continue to 
implement this exciting new chapter in space exploration, NASA will 
seek opportunities for mutually beneficial cooperation around the 
world.
    Again, thank you for the opportunity to appear before you today. I 
would be pleased to respond to any questions that you or other Members 
of the Subcommittee may have.

                    Biography for Michael F. O'Brien

    As Assistant Administrator for External Relations, Mr. O'Brien is 
responsible for NASA's interaction with Executive Branch offices and 
agencies; international relations for each NASA Mission Directorate; 
administration of export control and international technology transfer 
programs; the NASA History Office; NASA advisory councils and 
commissions. Prior to this appointment Mr. O'Brien served as Deputy 
Assistant Administrator for External Relations (Space Flight), in which 
capacity he led the team that negotiated the agreements for the 
International Space Station with the space agencies of Europe, Japan, 
Canada, and Russia.
    Mr. O'Brien came to NASA from the United States Navy. He served as 
a naval aviator in command positions and in Washington on the staffs of 
the Chief of Naval Operations and the Chairman of the Joint Chiefs of 
Staff. As an advisor to the Chairman concerning political-military 
policy in the Middle East, Africa, and Southwest Asia, he traveled 
widely in the Persian Gulf area for bilateral discussions with the 
defense forces of Saudi Arabia, Kuwait, Bahrain and other nations in 
the region.
    He also served as the Deputy Director for Research at the Institute 
for National Strategic Studies in Washington. O'Brien was Commanding 
Officer of U.S. Naval Station Roosevelt Roads, Puerto Rico where he 
designed and executed the $350 million repair and reconstruction 
program after the station was nearly destroyed by Hurricane Hugo. As a 
Navy combat pilot, he commanded a Navy carrier-based attack squadron, 
and has made over 900 aircraft carrier landings in high performance jet 
aircraft.
    O'Brien graduated with high distinction from the University of 
Virginia. He holds a Master of Science in Physics from Cornell 
University and a Master of Science in Aeronautical Systems from the 
University of West Florida. As an Olmsted Scholar, he performed 
research in International Relations and Strategic Studies at the 
Graduate Institute of International Relations in Geneva, Switzerland. 
O'Brien is also a graduate of the French Ecole Militaire in Paris, 
France.
    O'Brien's awards include the Presidential Rank of Meritorious 
Executive, the NASA Exceptional Service Medal, the Defense Superior 
Service Medal, two Legions of Merit and two Air Medals. He is a member 
of Phi Beta Kappa.

                               Discussion

    Chairman Baird. Thank you, Mr. O'Brien. We can tell we have 
a distinguished and experienced panel of witnesses. I think 
everybody came in within 15 seconds of the five minute mark, 
which is very rare here. We thank you for that, but we will----
    Mr. O'Brien. That is what stopwatches are for.
    Chairman Baird. We will enjoy a good round of questions. 
And because Dr. McNerney has informed me he has to go to 
another meeting at 11:00, I want to make sure we let all 
Members have an opportunity to ask questions. I will yield my 
time to Dr. McNerney, and then reclaim it after the Minority 
goes.
    Dr. McNerney.
    Mr. McNerney. Thank you, Mr. Chair. I am not a Trojan, but 
you let me take cuts in line, so I appreciate that.
    Historically, the United States has been recognized as an 
international scientific leader, and one of the focuses of this 
committee is, then, to make sure that we retain that leadership 
position, even as countries like China and India produce more 
and more engineers and scientists.
    Dr. Fedoroff, do you think that the United States continues 
to be viewed as a scientific leader, or is our role diminishing 
in some way that we should be aware of, and take strong action 
about?
    Dr. Fedoroff. I think we continue to be recognized as 
leaders and indeed, other countries are very much seeking 
partnerships with us, while their own scientific establishments 
are increasing. There is no question that the primacy of the 
U.S. is not what it was. This is not a negative, but in fact a 
positive. What I am experiencing as I travel is that scientists 
of other countries want to be seen as partners, as 
collaborators, not as recipients of our wisdom.
    So, I think that is a very important point. The second 
important point is that we have, for half a century, been the 
prime attractor of graduate students, talented people from 
around the world. We have to become aware of the fact that that 
situation is changing. Countries around the world are 
recognizing the importance of intellectual talent and are 
competing with us. Our visa policies haven't helped us. That 
aside, the value of the best and the brightest for economic 
development is recognized the world around.
    So, today, the challenge is more building capacity, 
educational capacity, everywhere. It is not that the world is 
short of people. The shortage is of highly trained people. 
Thank you.
    Mr. McNerney. Thank you for that answer. Dr. Miotke. Am I 
pronouncing that correctly?
    Mr. Miotke. It is most commonly pronounced Jeff, but that--
--
    Mr. McNerney. Jeff.
    Mr. Miotke. The last name is Miotke. Jeff works for me.
    Mr. McNerney. All right, Jeff. Compared to other--thank 
you--compared to other industrialized nations, the United 
States is dragging its feet with regard to eliminating 
greenhouse gas emissions, and both yourself and Dr. Fedoroff 
did mention global warming as a concern. Do you think that is 
hurting our international reputation as a premiere science 
country, and what should we do about that, if that is the case?
    Mr. Miotke. Well, I am not going to venture into Dr. 
Marburger's area of expertise, but let me just say that I have 
been a climate negotiator off and on since the '80s, and I 
don't see that our policies on climate change have an impact on 
the prestige that others assign to American scientists. On the 
contrary, most of the IPCC process, and Dr. Marburger, please 
correct me if I am incorrect here, is driven by American 
scientists and American science.
    So, I think we are on the cutting edge of pushing--we are 
not the only ones who are doing this research, but certainly, I 
think, we are doing more than others. And countries realize 
this--across the board, I think.
    Mr. McNerney. So, there is a disconnect, then, between what 
the Administration is doing and what the American scientist 
community is recommending. And you don't have to answer that if 
you don't want, but that is implied in what you said.
    Mr. Miotke. Yeah. I don't see the disconnect. I believe the 
President when he says that we will learn and act, and then, 
learn and act again. One of the first acts of the Bush 
Administration in their first term was to turn to the National 
Academies of Science, and ask for an assessment of the science 
of climate change at that point. And to my mind, they have 
acted accordingly, based on the information they are getting 
from the scientific community. And you can see, the MEM process 
that is underway, as well as a multitude of partnerships that 
are based on developing new technologies, new clean 
technologies, with countries that represent 80 percent of the 
total greenhouse gas emissions around the world. The 
administration is pretty active, and that it has been informed 
by the science.
    Mr. McNerney. Thank you, Mr. Chairman. I have one more 
question, but I think I had better yield back at this point.
    Chairman Baird. Thank you, Dr. McNerney. Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    I have two different questions, but I am going to roll it 
into one question. You know, a lot of folks would ask what is 
the value of our international participation in science 
diplomacy? In other words, we are, are we exporting American 
tax dollars? What is the value of doing that? And the 
reciprocal of that, they would say, well, why shouldn't we 
reserve American research dollars for American scientists?
    So, how would--and that is a question that I hear a lot 
about when we talk about diplomacy, and that everybody wants to 
be our friend, as long as we are sending American dollars over 
there. So, if we could just go down the panel here, and tell 
me, in your own words, what you think the value of that is, and 
what you would say to someone at Texas Tech University that is 
out there competing for these research funds, and they hear 
these funds are going to other parts of the world, and I will 
just--Dr. Marburger, I will start with you.
    Dr. Marburger. I believe that American objectives are 
served, and should be served, by investments that we make in 
science in other countries. Certainly, after I came to 
Washington, I prepared a list of 10 reasons why we should fund 
international science that I would be happy to share with the 
Committee, the Subcommittee, and make part of my testimony.
    To be brief, first of all, I think I had better just submit 
this for the record. The important thing is----
    Chairman Baird. Go ahead and expand on it a little bit. If 
we need to give you more time, we will do that.
    Dr. Marburger. We do have--one of the reasons is to provide 
access to the frontiers of science, wherever they may be. The 
U.S. doesn't have tropical forests. We don't have the South 
Pole. We don't have access to the Southern Hemisphere for 
astronomy, so there are good reasons for providing access to 
the rest of the world.
    Another is to augment our own human capital, as we have 
done historically, to go out and reach out to the best talent 
in the world, to find out what they can do to help us, 
sometimes invite them to our countries, but we have to be out 
there. To strengthen U.S. science through visits and exchanges, 
and by bringing in outstanding scientists from other countries. 
To increase U.S. national security, as Dr. Fedoroff pointed out 
so eloquently, national security and economic prosperity, by 
fostering the improvement of conditions in other countries, is 
a direct benefit.
    To accelerate the progress of science across a broader 
front than we may wish to fund. There are some areas of science 
that are very expensive, and we would like to know, but if 
other countries are willing to join us in an adventure, whether 
it is particle physics or nuclear physics, or space 
exploration, then we should reach out to them to broaden our 
own frontiers. To address U.S. interests of a global nature, 
which the U.S. alone cannot afford to address. Climate change 
is a good one, and the various enterprises, huge enterprises, 
like the International Polar Year that we are now involved.
    We can, we have a stake in these investigations, but they 
are so large that we enjoy having other countries involved. To 
discharge obligations in connection with treaties. And 
certainly, to increase U.S. prestige and influence with our 
nations. So, these are some of the things that we really do get 
out of science.
    And in my testimony, I emphasized the fact that my office, 
OSTP, is primarily concerned with the science, and the ability 
of the agencies, like the National Science Foundation, or NASA, 
to do that science as well as it can be done on an absolute 
global standard. So, we look to see if the agencies are taking 
advantage of international assets.
    When it comes to diplomatic objectives, the primary agency 
would be USAID, and we are very encouraged by the fact that 
USAID now has Dr. Fedoroff as a science advisor, and I hope 
that practice continues in future administrations.
    So, these are, this is a somewhat long answer, perhaps, and 
there is more in my statement.
    Chairman Baird. Dr. Marburger, we will make that available. 
And I think this is such a central question that I am going to 
take some discretion here, and ask other members to, of the 
panel to address it if they wish.
    Dr. Bement. It has already been mentioned that countries 
around the world are investing more in higher education and 
research and development, because they now recognize this 
drives the economy in a knowledge society. It is not 
preordained that scientists in the U.S. are always going to 
know where the frontier is at any given time. It may be 
somewhere else, in another part of the world. So, having broad-
ranging networks, where they have collaborations with 
scientists around the world, is critically important.
    Also, we don't have all the best research facilities in the 
United States. CERN is an example, the Large Hadron Collider at 
CERN. So, having access to special facilities is also 
critically important. But it is also important for our 
workforce for the 21st Century that we have people in 
leadership positions in science and engineering to have a broad 
international connection. And that is true even for our 
graduate students, because those who go into industry, for 
example, who have language skills, who have some 
interconnection with other scientific groups around the world, 
are considered to be very valuable, because most global 
companies now are trying to seek where the best technology may 
be that they can capture and add it to their internal 
innovation system. They can add their own know how, their own 
patents, and gain an advance in the marketplace.
    So, just for self-serving interests, and being able to 
develop our workforce for the 21st Century, having a very 
strong international program is critically important.
    I might add just one other thing. One of the greatest 
things we contribute to developing countries in the world is 
building their human resource capacity through exchanges, and 
working with scientists, and getting technical assistance, and 
learning how to use sophisticated instrumentation, and also, in 
jointly conducting field studies, where they can share 
information and knowledge, in how their natural environment is 
changing.
    There are many areas where we are really making a major 
impact on developing countries. I might add that NSF currently, 
even in sub-Saharan Africa, there are, well, in Africa 
altogether, there are 57 nations. We have active collaborations 
in projects with 40 out of those 57, which is just an example.
    Dr. Fedoroff. We live in a single, very interconnected 
world. In some measure, the violence that we see against us is 
rooted in the disparities in our way of life and those of the 
poorest countries. They are immediately obvious to everyone 
through contemporary telecommunications. We ignore that at our 
peril.
    It is in our best interest to raise the educational levels 
around the world, to help other countries create the kinds of 
opportunities that are, in fact, the purview primarily of the 
most developed countries today. We cannot afford that. We are 
increasingly realizing how interconnected the entire world is.
    The question of infectious diseases is a critical one 
today. We can't wall ourselves off. Our best strategy is to 
help others interconnect the entire world for a surveillance 
system for infectious diseases and help build the requisite 
capacity on the ground.
    Let me just give you one example. Extremely drug-resistant 
TB is a problem. It came to our attention because we had an 
American citizen who took off to get married, and have his 
honeymoon in Europe. But a few days ago, last week, in the New 
York Times, there was an article about South Africa, which has 
had a huge outbreak of XDR-TB. There are hundreds of patients 
in isolation, because this is an extremely infectious disease, 
and frankly, they have so little in the way of support and 
personnel and drugs, that those patients know that they will 
only leave that hospital dead.
    They broke out at Christmas time, they broke out at Easter 
time, just to be with their families. That is a problem that 
can come to us. It is time to think globally in this area, as 
well as many others. That is just one of them.
    Thank you.
    Mr. Miotke. Yeah. I mentioned the outreach effort in 
Hungary, and I think that is a good example of how S&T 
cooperation can have broader foreign policy benefits for the 
United States. I won't belabor that point.
    I want to add a little bit to what Dr. Fedoroff said, as 
well. Pandemic flu is another example that we benefit from 
international cooperation because, no pun intended, avian flu 
could come home to roost. And also, I have been consistently 
surprised at where we have found some cutting edge work being 
done. There is an African country in particular that is doing 
interesting work producing solar panels on plain copying paper. 
And they are also using nanotechnology for novel ways to purify 
water in mines. This is something that my people tell me is not 
being done elsewhere. So, there is almost inevitably some 
benefit to the United States in cooperating and in fact, mutual 
benefit is one of the underlying principles of our S&T 
agreements across the board.
    And then finally, let me also, again, highlight something 
that Dr. Fedoroff said, and that is, S&T is a fundamental 
pillar of development. Without it, we are only assisting people 
over the short-term, but if we are building S&T capability, we 
are helping them to develop, to truly develop over the long-
term.
    And if we want to close the gaps, or if we want to prevent 
the gaps between the United States and other countries from 
growing larger, we have to invest in S&T with our international 
S&T partners.
    Mr. O'Brien. Mr. Chairman, I would just respond to one part 
of the question, which I think asks why are we sending money 
overseas. Wouldn't it be better to keep it here in the United 
States?
    NASA, the way we cooperate, is generally almost uniquely on 
a no exchange of funds basis, so in those 300 agreements that 
we have, all but a couple of them involve NASA funding its own 
contribution, our partners funding their contributions, and 
then reaping the collective benefits. There are only a couple 
of occasions where we actually are sending money overseas, and 
that is for services that we need and can't get elsewhere.
    Chairman Baird. Thanks for the question. I think it is 
central. I am inclined to share an analogy offered by former 
Governor of Colorado, Roy Romer, and I am a little bit hesitant 
with Dr. Fedoroff here, because it may not be scientifically 
apt, but former Governor Romer used to describe a fellow who, 
every year, his corn won the prize at the State Fair. Dr. 
Bartlett may have some insights on this as well. He won the 
prize at the State Fair, blue ribbon, and the very first thing 
he would do is distribute the corn seed to all the farmers 
around him. People said why are you doing that, because these 
guys are your competition? And the reply was, you understand 
that the way the wind carries pollen from corn, pollen from the 
fields around my field are going to blow some of that pollen 
into my cornfield, and if the guys around me don't have good 
corn, I am going to have bad corn down the road. And that is 
part of what you are describing.
    I think the other side of it, though, that is lacking from 
Governor Romer's analogy, is that sometimes, the other guy has 
better corn. And if we don't collaborate in that way, and the 
corn is obviously the metaphor, whether that is any aspect of 
scientific research, we tend, parochially, to assume that we 
are always at the cutting edge. We can gain a great deal from 
other countries, and one of the fun, but also challenging 
realizations, as one travels and studies international science, 
is sometimes, folks are well ahead of us, and it is to our 
benefit. If we don't collaborate now, when the time to 
collaborate comes back the other direction, people may say hey, 
you weren't there with us, and so, there is this mutual 
benefit.
    I think it is a central question, and we all need to be 
able to answer that for our taxpayers, who have every reason to 
ask the question.
    Dr. Fedoroff.
    Dr. Fedoroff. I would like to add one thing, and that is 
probably 20, 25 years ago, USAID was educating something close 
to 20,000 students a year. Those individuals are now back, 
often as ministers, as people in high places around the world. 
Today, I think that number is less than 1,000. China is 
educating 10,000 Africans. We go around the world, and we speak 
English. If we do not maintain our educational support, the 
next generation will not be speaking English.
    Chairman Baird. I think that is very eloquently said. I 
don't think most Americans are aware of those numbers, and it 
is absolutely true when you travel the world.
    Let me, if I may, ask a question to follow up on this. So, 
if we agree that there is merit in this, what do we need to do 
to further enhance this issue? How do we--what are the 
obstacles remaining, what takes us to the next level and 
improves this?
    Dr. Bement. There is a change in many countries in the 
world. Until fairly recently, most of the research was done at 
federally supported institutions in most nations. There is a 
movement to put much more capability in universities, and to 
build higher education to integrate education with research, as 
we have been doing in this country traditionally for many, many 
years.
    As a result, what we are finding is that many countries are 
modeling the National Science Foundation, and setting up a 
National Research Council that mimics the National Science 
Foundation. For example, I can mention Turkey, France, Japan, 
Ireland, Russia, and more recently, the United Arab Emirates, 
and the King Abdul Aziz City for Science and Technology in 
Saudi Arabia, and many more. They come to the National Science 
Foundation. They--and we invite them. We have an open door for 
them, to show them how we do merit review, how we operate, what 
our policies are, and then, they take that back, and build it 
into their programs.
    Now, why do I use that as an example? The more Research 
Councils around the world that are normed, if you will, 
according to the National Science Foundation, the easier our 
relationships are, the lower the barriers, and the more 
opportunities we have for cooperative research. That is 
happening at a very rapid rate.
    Dr. Marburger. Sir, I would like to generalize that very 
articulate answer from Dr. Bement. The idea is to have receptor 
sites in the other countries. There are many countries that 
would like to be our partners that don't have the capability of 
doing so. I believe that one of the most valuable aspects of 
the Secretary's Initiative for Transformational Diplomacy, is 
that it can build receptor sites that make it possible for 
these other countries to participate with us.
    So, there is sort of, there is somewhat of a chicken and 
egg problem here. It isn't a question of our just coming in and 
dumping money in. It is necessary to have a level of 
sophistication within those other countries, and a base 
capacity. And this is a function of USAID, I think. It is 
important, and it is one of the reasons that I am glad to see 
the direction of increased science advice into USAID. I think 
it will help.
    Chairman Baird. I am going to actually yield, at this 
point, and recognize Dr. Bartlett.
    Mr. Bartlett. Thank you very much, and thank you for your 
testimony. I am caught in the horns of a dilemma.
    For a long number of years, the United States has been 
preeminent in science, math, and engineering. The best and 
brightest of the world have flocked to our universities, as 
scientists and students. I think it is no accident that during 
those same years, we were the world's undisputed military and 
economic superpower.
    I remember a few years ago, I sat with a number of the top 
scientists in the little country of Georgia, desperately poor, 
and I thought, ``Gee, with the limited money that we have in 
this country, wouldn't it go a whole lot further if we were 
collaborating and working with these scientists, and putting 
some money there?''
    As you know, during the last several years, every year, we 
have committed less and less of our resources to basic science 
and R&D. I am a farmer. I represent farmers, and that is 
exactly the equivalent of eating your seed corn. I have a lot 
of farmers. None of them are dumb enough to eat their seed 
corn, but that is precisely what we have been doing.
    The dilemma that I face is that we are 1 person out of 22 
in the world, and we have a fourth of all the good things in 
the world. We use a fourth of the world's energy. Now, what do 
I do? China today will graduate 6 times as many engineers as we 
graduate. India will graduate 3 times as many engineers as we 
graduate, and about half of our engineers are Chinese and 
Indian students, aren't they?
    How are we going to maintain this preeminence in the world, 
where this 1 person in 22 has a fourth of all the good things 
in the world? Particularly challenging, since I believe that 
the world now is at the point of the maximum production of 
fossil fuel energy. By the way, for everybody in the world to 
live as well as you and I live, they would have to have the 
equivalent of 300 people turning the cranks and running the 
industry that provides the amenities that represent our quality 
of life. Now, that is the amount of fossil fuel energy that 
each of us consumes today, the work output of 300 people. That 
energy just won't be there.
    If I want to maintain, for my kids and my grandkids. . .I 
have 10 kids and 16 grandkids and two great-grandkids. I would 
like them to live as well as I am living. If we are going to 
maintain this superiority in this country, how do we do that, 
with the diminishing supply of energy, with the challenge of 
science, math, and engineering in the rest of the world? How do 
we do that?
    Dr. Bement. We are now in a knowledge-driven economy, much 
less a resource-driven. Knowledge is the sort of thing that 
when you change it, it doesn't exchange, your share doesn't 
deplete. It actually enhances, so that there is a tremendous 
leveraging power in the exchange of knowledge.
    The critical factor is what you do with that knowledge, and 
how successful you are in reducing that knowledge into products 
and services that are useful to society at large. And the key 
to that is to have a very strong entrepreneurial and 
innovation-driven system, and to have very creative people 
doing the research, and finding ways to apply the research.
    I think at present, we do that better than any other 
country in the world. We are the teachers, but other countries 
in the world are learning, and learning very rapidly, so we 
have to be more agile in the future. We have to, I think, pay 
particular attention to whether or not we are getting to be a 
complacent society, instead of really recognizing the trends, 
and doing something about it.
    Dr. Fedoroff. Well, could I answer your question directly, 
and that is, imagine a world in which you could live as well as 
you do, using energy much more efficiently, and simultaneously, 
through the kinds of knowledge building that Dr. Bement has 
described, help the rest of the world live better?
    Mr. Bartlett. When I drove to work this morning, more than 
half the cars that shared the road with me were SUVs and pickup 
trucks with one person in them.
    Dr. Fedoroff. They sure are.
    Mr. Bartlett. It would be really nice if we can move to a 
more efficient world.
    Dr. Fedoroff. We could do something about that, yes. I 
think it will take cultural changes. I think it will take 
technological changes, but I think we ignore learning those 
lessons at our own peril.
    Mr. Bartlett. We have faced some huge challenges. This is 
exhilarating for me, Mr. Chairman, because there is no 
exhilaration like the exhilaration of meeting and overcoming a 
big challenge, and boy, do we have one. Thank you very much.
    Chairman Baird. Well said, Dr. Bartlett. Eddie Bernice 
Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. I am sorry 
I was a little late, and I would like to ask unanimous consent 
to put my statement in the record.
    Chairman Baird. Without objection.
    Ms. Johnson. As a follow-up to the line of questioning, my 
concern goes back, I guess, a little bit further. We are not 
preparing an adequate number of young people for our future, 
and I would like each of you to comment on what you are doing, 
or what you have done to address this issue.
    Dr. Marburger. So, I will go first. The--this 
Administration is very concerned about the quality of 
education, from preschool up throughout the lives of our 
citizens, and worked very hard early in the Bush 
Administration, to pass laws, such as No Child Left Behind, and 
augment that initiative with further initiatives, some of which 
were captured in the President's American Competitiveness 
Initiative, which had a strong education component, and of 
course, the President signed the America COMPETES Act, which 
this committee had something, important input on, which also 
had strong educational components.
    I believe it is important for us to pay attention to the 
quality of the education that we deliver to American young men 
and women, and my office has participated strongly in 
interagency programs to understand exactly which steps have to 
be taken to improve the quality of the educational experience, 
particularly in math and science.
    We support the Department of Education in their efforts to 
form panels, and study the situation, and try to identify the 
best avenues for research on how children learn, and we support 
agencies like the National Science Foundation, that have 
systematic programs for studying the, how people learn science 
and mathematics, and they sponsor pilot programs in schools to 
try to learn best practices.
    So, I believe that, I certainly agree that education is a 
primary pillar of strength for our future national security, as 
well as our economic competitiveness, and it is important for 
us to continue to support these important initiatives.
    Ms. Johnson. Thank you. Does the President know that No 
Child Left Behind is not working?
    Dr. Marburger. The President understands that we have got a 
difficult problem, that will only yield to persistence. We 
can't back away from the commitments that we have made to our 
children. We have got to keep pushing at this until we get it 
right.
    Ms. Johnson. Thank you.
    Dr. Bement. Let me bring this to a more international 
orientation. I think you are pretty well aware of what we are 
doing in the Math and Science Partnership, in our informal 
education programs, in our public education programs, involving 
the Internet, the media, as well as science museums. What we 
are discovering is that as we provide undergraduate students an 
international experience, it generates a lot more enthusiasm 
for science, and it helps in retaining them through not only 
their undergraduate degree, but it encourages them to go on to 
a graduate degree.
    For that reason, we are also primarily concerned about the 
number of students of color who participate in international 
programs. And we discover that the percentage is lower than the 
number that are in higher education overall. So, to simulate 
that, and to help address this challenge, we have provided, or 
embedded in our Louis Stokes Alliances for Minority 
Participation, international activities, and--of course, is 
aimed at undergraduate students.
    Likewise, in our Alliances for Graduate Education, and in 
our Professoriate Program, we have also embedded international 
research experiences in that program, for graduates and post-
doc students as well.
    Ms. Johnson. Thank you.
    Dr. Fedoroff. I spent most of my life as an educator. I am 
very familiar with this problem.
    Before coming to the State Department, I was at Penn State 
University, and one of the things that I did there, as a 
director of a multi-disciplinary organization, was to support 
an outreach program that went out into the schools into the 
primary and secondary schools in hands-on science and 
technology education, just to give people experiences.
    But to come back to my present role, one of the things that 
has been considerably neglected is our international investment 
in tertiary education, that is, college education. And one of 
the things that is happening this month is that Secretary of 
State Rice, Secretary of Education Spellings, and USAID 
Administrator Fore are convening a global conference of 
university presidents to address precisely how we can build the 
capacity in all countries for higher education.
    Ms. Johnson. Thank you.
    Mr. Miotke. If I can just add to that real briefly, too. We 
do make a special effort to reach out to young people in our 
S&T programs overseas. We are bringing a group of 16 Middle 
Eastern kids to NASA Space Camp in Alabama later this summer.
    We are teaching teachers in the Philippines to use GPS and 
other space-based technologies to teach geography to kids. We 
look for ways to reach out to youth during our S&T delegation 
trips overseas. My boss, Assistant Secretary McMurray, for 
instance, spoke to a group of kids in Morocco, and tried to 
excite them about science. We are bringing a group of kids in 
from TJ to participate in the Earth Day in the State 
Department, where the focus this year is going to be on science 
and technology working for the environment.
    Ms. Johnson. And Mr. O'Brien, in addition to your comments, 
I would also like to know what you are doing to be sure that 
NASA has prepared persons in the future. NASA in particular.
    Mr. O'Brien. Thank you. As far as education is concerned, 
NASA does have an education component that is largely 
domestically focused, and be glad to give you a much more 
detailed response to that for the record.
    On the international aspect of that, we do partner with 
international counterparts on occasion. An example of that 
would be that over at, the Dutch, in cooperation with NASA and 
the European Space Agency, have replicated a NASA program that 
we call the Explorer School Program. There are a series of 
schools around the United States for which NASA, for a three-
year period, provides scientific education materials, trains 
the teachers through a three-year period, that they can focus 
on space science types of disciplines.
    Now, your second question, I am sorry.
    Ms. Johnson. I am wondering what type of investment or 
leadership does NASA engage in, to be sure that you have the 
adequately prepared persons for the program?
    Mr. O'Brien. For NASA?
    Ms. Johnson. Yes.
    Mr. O'Brien. Well, we--I have to say that I can't really 
answer that directly. I can tell you that we at NASA have no 
problem getting educated people in NASA, and I will give you an 
example. In our organization, which manages international 
cooperation, occasionally, we are allowed to hire somebody, and 
we have a very bright group of about 50 people managing a lot 
of things at NASA. The last time that we were able to hire more 
than one person, we hired two, we had 450 applications. So, we 
don't have a problem, in my view, at least in my area, 
attracting highly qualified, educated people to populate the 
NASA workforce.
    Ms. Johnson. Well, thank you. I know a couple of years ago, 
there was real concern, because most of the people there were 
nearing retirement age, and they didn't feel that was a----
    Mr. O'Brien. Well, that is another issue. There are a lot 
of old people, like me, in NASA, too, but----
    Ms. Johnson. Thank you. Thank you, Mr. Baird.
    Chairman Baird. Thank you, Ms. Johnson. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I guess, Mr. 
Chairman, first of all, to sort of answer Dr. Bartlett's 
question about how do we do this, I think we start off by 
saying what we don't do. We don't burn the world's food, 
consuming more energy than it produces, and call it green.
    We don't abandon international, long-term strategies for 
energy, clean energy independence, like ITER, which has been 
abandoned over the last two Administrations, since '92, while 
the entire crisis of climate change has been talked about, on 
one hand, by an Administration, while at the same time they 
were abandoning the long-term answer to addressing the problem.
    And the other issue we don't do, is we don't continue to 
pay math and science teachers the same as a history teacher or 
a coach, just because union rules preempt the wellbeing of this 
Nation's future in science. In D.C., and now, let us just face 
this, in D.C., we talk about education across this country. 
Washington, D.C. is our responsibility, like it or not. We may 
delegate authority, but not responsibility. Still, in D.C., a 
science teacher does not get a bonus, does not get an incentive 
to stay in the educational institutions. And we sit here and 
talk like we are concerned about it, but we are not willing to 
cross that political boundary of saying we are going to 
implement the responsibility here in D.C., and lead through 
example, rather than cry about how bad the world is in the 
future.
    So, now that I have gotten that off my chest, I have just 
got to say, Doctor, your comment about ITER, I appreciate it. I 
do have to say one thing to you. I think it is an illusion by 
science to think that the language of the world is based on 
what science talks about. There was a period in the 19th 
Century the Germans would be dominating, and if anybody who 
spends any time in Third World countries, like I do, let us all 
agree that our media impact in this world is extraordinary, and 
Americans don't understand it. You go to villages, they don't 
have electricity, but they have satellite dishes, and they are 
watching I Love Lucy, and having it under subtitles. That 
impact, the language, the American language will dominate until 
the Chinese start producing the movies. Okay. So, let us just 
start off with that.
    But the ITER program, can we bring, Doctor, would you 
articulate about how that is going to affect our relationship, 
not just in science, but in climate change and everything else, 
but the entire concept that this long-term strategy, that the 
rest of the world is still recognizing, because of our internal 
political structure, the lack of a special interest group 
lobbying for it, it has now been basically put on a back shelf? 
Can you articulate at all your feelings about that?
    Dr. Fedoroff. I am going to defer that to Dr. Marburger. He 
has been centrally involved in it.
    Dr. Marburger. ITER is an important project for the future, 
because it does capture a source of energy that doesn't produce 
large quantities of radioactive waste or CO<INF>2</INF>, and--
but it does require demonstration. There is still a further 
science step that has to be taken, that is now underway, in 
France, and the U.S. rejoined the partnership that is trying to 
make this work in 2003, and we continue to be a partner, 
despite the fact that funds, in fact, were eliminated for our 
share of this in the '08 Omnibus Bill.
    I don't believe that that represents the true will of the 
U.S. Certainly, it is an embarrassment to us. It does 
jeopardize our partnership status. It has detracted from the 
confidence that other countries have in us as an international 
partner. So, there is no question that this was an event that 
has hurt.
    However, President Bush has requested funds, increased 
funds for this program, in his '09 budget request to Congress. 
I hope that Congress will respond with an appropriations bill 
soon enough so that other countries can see that we do mean to 
carry forward our obligation to see this thing through.
    So, it is important. This Administration is trying to make 
it work, and I know that many Members of Congress want to see 
it work as well. So, let us keep our fingers crossed for the 
future of this important project.
    Mr. Bilbray. Another issue that is sort of near and dear to 
me is the fact that we talk about Africa, we talk about Asia, 
when we talk about scientific exposure, outside of Brazil, you 
know, Latin America is an orphan, culturally and economically 
to us, so much, and it is our own backyard. I just get 
frustrated when I see major emphasis on things like biofuels in 
Indonesia, but not in Nicaragua. Is there a cultural or 
institutional barrier for us not doing more outreach into Latin 
America, especially Central America, which has been the orphan?
    Dr. Marburger. Let me say one thing about Central America. 
There are some important assets. The U.S., as a matter of fact, 
the Smithsonian Institution has an important Tropical Studies 
Program in Panama. We do look to countries that have unique 
ecological and archaeological assets for cooperation and 
partnerships. There are very important archaeological sites, as 
you know, spread throughout South America and Central America, 
and U.S. archaeologists work with local archaeologists and 
scholars in those countries, to preserve and study those sites.
    We also have important programs in astronomy, because the 
Southern Hemisphere is blocked to our telescopes here in the 
U.S., and there are some excellent sites in Chile, perhaps Dr. 
Bement can talk to this, that--where we have important 
scientific stations. So, we are looking for what I referred to 
earlier as receptor sites in those countries, and trying to 
develop further relationships with those countries.
    Dr. Bement. We have strong partnerships with most of the 
countries in Central America, as well as in South America. Dr. 
Marburger mentioned Chile, you mentioned Brazil, but we have 
strong partnerships with Argentina, with Colombia, with many 
other countries in South America.
    In Central America, there are many important research 
activities going on that have to do with biodiversity and 
natural medicines. There is a World Materials Network, that is 
interconnected with most of the countries now in South America. 
The Foundation has worked with the Inter-American Development 
Bank, and with the Organization of American States, to develop 
programs that will build capacity, not only in Central America, 
but also, in South America.
    So, I would say that South America and Central America are 
about on par with almost anything we are doing elsewhere in the 
world. I think we are paying attention to it.
    Mr. Miotke. We have four or five S&T agreements with 
countries in Central and South America. One of them, the 
Brazilian S&T relationship, has been raised to a higher 
political level, and we are quite engaged in all these, and I 
should say also that Dr. Marburger plays, and Dr. Bement have 
played huge roles in those relationships under the S&T 
agreements.
    Chairman Baird. Go ahead, Mr. Bilbray, go ahead, briefly. 
We have got--those buzzers mean we have a vote shortly, so we 
will wrap up.
    Dr. Fedoroff. I would just like to say that we are still 
not doing enough, and I would like to put Mexico on the table 
as well.
    Mr. Miotke. That is my concern, is Central America and 
Southern Mexico has basically been a black hole, and we talk 
about Colombia, and we talk about Brazil, but it is almost as 
if we are looking right over our neighbors. But go ahead, 
Doctor. I am doctor.
    Dr. Fedoroff. I think we need to do more. One of the things 
that is really important is bringing together scientists to 
begin collaborations it is an enormously important diplomatic 
tool, and it does take a little bit of money.
    Chairman Baird. I want to commend our witnesses, and Mr. 
Bilbray, good question. To wrap up on that, and maybe tie that 
into something Dr. Bartlett said, Mr. Miotke talked about the 
science and technology partnerships. One of the challenges is 
we don't fund that, and one of the questions I think this 
committee needs to do, one of our tasks, as Members of 
Congress, we have heard from our witnesses, we have read their 
testimony, is advocate vigorously with our colleagues to set 
aside some of this money.
    Because within an agency budget, be it USAID, or one of the 
various directorate agencies, other directorate agencies, you--
the task of international scientific collaboration can too 
easily be the easy cut. It is not the urgent thing, like 
getting food to somebody's door, but again, Dr. Bartlett's seed 
corn analogy, so instead of building capacity among their 
scientists to solve their own problems, and maybe some of ours, 
that may easily be the first thing to be cut.
    And when we sign science and technology agreements with 
these countries, there is almost never funding that goes with 
it. It is sort of we want to work together, but our funding to 
even fund our own side of that is limited, and then there are 
statutory restraints on what we can give to the other country 
that participates. So the handshake is important, but we need 
to back that up with more substance, and I think that is our 
committee's task, is to educate our colleagues in the Congress, 
and frankly, to vote that way when these appropriations and 
other measures come forward.
    There is a great article by Norm Neureiter, which I will 
introduce into the record, but also, share with my colleagues, 
about the whole broad role of science at the Department, but 
one of the issues he makes is making sure there are dedicated 
funds for this purpose.
    [The statement follows:]


                    Statement of Norman P. Neureiter

Abstract

    This article is a first-person account of the strategy and 
experiences, over the past three years, of the first Science and 
Technology Advisor to the U.S. Secretary of State--a position created 
based on a study by the NAS/NRC on the role of science, technology, and 
health issues in current foreign policy. It stresses the importance of 
having more scientists either as Fellows or career officers in the 
Department of State. It also presents a strong case for the value of 
science and technology cooperation as an instrument of soft-power 
diplomacy in strengthening ties among nations and building technical 
capacity in the developing world. 2004 Elsevier Ltd. All rights 
reserved.

1. Introduction

    Rather than the critical, sometimes retrospective, analysis for 
which this publication is noted, this article represents a highly 
personalized account of a forty-year career spent more or less 
continually in efforts to develop scientific and technical cooperation 
on an international basis--in governmental, industrial and, indirectly, 
academic circles. The principal piece here is a discussion of my three 
years as the first Science and Technology Advisor (STAS) to the U.S. 
Secretary of State. I first briefly consider the uneven history of 
science at the Department of State, and then lay out the approach we\1\ 
took to try to fulfill the promise of this new position. One can then 
ask to what extent did we succeed in assuring that scientific and 
technological (S&T) considerations were effectively integrated into the 
formulation of U.S. foreign policy, and what should be the future of 
science at State?
---------------------------------------------------------------------------
    \1\ ``We'' refers to the three of us who were the initial 
complement in the S&T Advisor's office (STAS). Of enormous help was my 
Deputy, Andrew W. Reynolds, a highly effective and knowledgeable 
government science official with experience at the Department of Energy 
(DOE), in State's Bureau of Oceans, International Environmental and 
Scientific Affairs (OES), at OECD in Paris, and as Scientific Counselor 
in the U.S. Embassy in Rome. One AAAS Fellow was also assigned to STAS. 
The first was Michael Landolfa (biologist), who is now at the Max 
Planck Gesellschaft in Dresden, Germany. In the second year we had two 
Fellows, Ranjan Gupta (microbiologist) and Melissa Flagg (chemist). I 
am particularly grateful to Dr. Flagg, for helping to assemble this 
article.
---------------------------------------------------------------------------

2. Increasing importance of S&T

    Throughout the 1960s and 1970s, the State Department developed an 
increasingly important office for handling scientific issues, SCI, 
while also managing a corps of some 20-25 professional scientists who 
were designated ``science attaches'' or ``scientific counselors'' and 
who served in major embassies abroad. In Washington, the SCI office had 
solid S&T competence in its staff that backed up the attaches, and the 
office handled issues such as the peaceful uses of atomic energy, 
space, and the growing number of issues involving high technology. From 
1967-1969, I was the first science attache in Eastern Europe. I lived 
in Warsaw,\2\ and I was responsible for S&T affairs in Poland, 
Czechoslovakia, and Hungary. While no doubt mistakenly suspected by 
hostile Polish government officials of being a spy, I nonetheless had 
considerable access to the Polish scientific community and some success 
in developing cooperative projects with U.S. institutions. In 1974, as 
a result of legislation, SCI became the Bureau of Oceans, International 
Environmental and Scientific Affairs (OES).
---------------------------------------------------------------------------
    \2\ I was not the first U.S. science attache to serve in the 
Eastern Bloc. Glenn Schweitzer, who is still active in S&T relations 
with Russia on the National Research Council (NRC) staff, was science 
attache in Moscow from 1963-1966 and he impressively demonstrated the 
value of such a position for interacting with the Soviet S&T community.
---------------------------------------------------------------------------
    Upon leaving Warsaw, I returned to Washington to the Office of 
Science and Technology (OST) as Assistant for International Affairs to 
the President's Science Advisor, initially Lee DuBridge and then Ed 
David. This was a time when--cynics said for lack of money to give 
away, but I think because they really believed in it--both President 
Nixon and his National Security Advisor, Henry Kissinger, were 
traveling the world and, in lieu of other ``goodies,'' often left 
behind the prospect of a better S&T relationship with the U.S. In fact, 
I recently found this relevant quote by Dr. Kissinger: ``No human 
activity is less national in character than the field of science. . .no 
development efforts offer more hope than joint scientific and technical 
cooperation. The symbolism of nations working together in an area as 
strategic as science is important'' [1].
    The truth was, we were quite busy following up on their trips, and 
it was an exciting time to have an international science portfolio in 
OST, especially if one was an inveterate ``engager'' like myself. We 
are all prisoners of our own experiences, and my years in Eastern 
Europe had convinced me of the value of keeping open channels of 
communication to the science communities of other nations--even those 
where political relations were very strained. We knew that many of the 
scientists in those countries agreed with us and were not in sympathy 
with their own governments. I also had seen how the Pugwash Conferences 
involving Russian physicists and the informal contacts and growing 
trust between the U.S. and Russian science communities had contributed 
to the eventual signing of the treaty banning nuclear tests, and later 
to other arms control agreements.
    ``Engagement'' is often maligned as a strategy by those who favor a 
policy of isolating unfriendly nations, but I found that it was always 
the communist governments that wanted to keep their scientists away 
from us; it was the governments that feared scientific contact with the 
West. There is a belief in some quarters that we can punish hostile 
governments by not allowing their people to contact Americans, but my 
view is that we should make every effort to develop these people-to-
people relationships, which emerge naturally from visits, exchanges, 
and cooperation in appropriate areas.
    The Nixon Administration brought two dramatic developments in 
foreign policy: the Nixon-Brezhnev period of detente with the USSR, and 
the breakthrough in relations with China. S&T played a role in each 
initiative. Indeed, one of the seven science-related agreements, which 
was eventually signed during the 1972 summit in Moscow, underwent its 
final negotiations with the Soviets at the dining room table in my home 
in Bethesda, Maryland, after almost a year of back-and-forth 
discussions in both countries. While the resulting relationship almost 
ended after the Soviets invaded Afghanistan, the core agreement was 
drawn on again for a new agreement on S&T cooperation which was signed 
in 1993 and is still in effect today. It was in 1972 that Ed David 
coined a new phrase, one that still resonates today: ``Science and 
technology have become the new international currency.''
    Less well-known is the science element in President Nixon's 
unprecedented visit to China. Henry Kissinger had requested OST to 
prepare a series of illustrative proposals for S&T cooperation that 
could be laid before the Chinese as evidence of U.S. willingness to 
enter into meaningful cooperation as part of the proposed change in the 
political relationship. In great secrecy and haste, under Ed David's 
guidance, and with help from the Committee on Scholarly Communication 
at the National Academy of Sciences (NAS), we cobbled together forty 
possible projects as examples of what might be done. Those proposals 
later served as models for actual exchanges and joint projects that 
began after President Nixon's visit--slowly at first, but then with 
increasing momentum. They were administered on the U.S. side by the 
NAS. Ultimately, an intergovernmental S&T Agreement was put together by 
Frank Press during the Carter Administration. Today the S&T 
relationship with China is truly incredible in its range of activities, 
including some 60,000 Chinese students who annually attend U.S. 
universities, the majority of them in S&T fields. As one U.S. 
university professor said to me, ``Where would our physics research be 
today without these Chinese graduate students? Not enough Americans 
want to study physics any more.'' He was not joking, although I assume 
the Russian physicist was joking who recently described an American 
university today as the place where Russian professors teach Chinese 
students.
    Not all Americans welcome these developments, arguing that we are 
helping China to become stronger and that the science can be applied to 
military uses, thus becoming a threat to U.S. interests. At a recent, 
quite remarkable conference on U.S.-China relations held at the Bush 
Library at Texas A&M University, the keynote speakers--President George 
W. Bush, Secretary of State Colin Powell, former Secretary of State 
Henry Kissinger, and former Chinese Vice Premier Qian Qichen--each 
stressed the importance of the U.S. bilateral relationship with China 
and the need to work through the occasional strains that will doubtless 
appear in that relationship. In a later session co-keynoted by Deng 
Xiao Ping's daughter, Vice Minister of Science and Technology Mme. Deng 
Nan, and myself, both of us emphasized the role of S&T cooperation in 
strengthening the ties between our nations. Indeed, the relationship 
has already weathered several storms: the Tienanmen incident, the 
accidental NATO bombing of the Chinese Embassy in Belgrade, and the 
downing of a U.S. reconnaissance plane on Hainan Island, among others. 
So far, statesmanship on both sides, plus a recognition of the 
importance to both countries of what could be lost, have prevailed. I 
believe that S&T cooperation is one significant element contributing to 
the overall stability of the U.S.-China relationship.
    The great foreign policy achievements of the Nixon Administration 
were sullied, though not obliterated, by the Watergate scandal and the 
President's resignation. But even before that, at the end of 1972, the 
OST staff had been informed that the entire White House science 
advisory structure would be abolished. It was then that I decided to 
leave government. I had been concerned for some time that when we in 
the government discussed S&T cooperation with other countries, we were 
talking about exchanges of students and cooperation on issues of 
environment, health, housing, basic science, etc. However, the other 
side wanted computer technology, aerospace technology, and other high-
tech elements that were largely in private hands in the U.S.

3. Moving on

    In mid-1973, I joined Texas Instruments (TI), a high-technology, 
multinational company where I could experience the global movement of 
technology in the private sector. TI was at the time the world's 
leading semiconductor company, with plants in the U.S., Europe, Asia, 
and Latin America. My assignments in Europe, Japan, and at corporate 
headquarters provided an excellent vantage point from which to observe 
and participate in the enormous economic, educational, and 
infrastructure-stimulating impact of high-tech investment in another 
country. TI has been part of the explosive technical development of 
Japan, Taiwan, Singapore, and Korea since the 1960s, and it had a role 
in the 10-year semiconductor market-opening battle with Japan in the 
late 1980s and 1990s. My final major assignment at TI was as Vice 
President of TI-Asia, with residence in Japan for five years, prior to 
retirement at the end of 1996.
    While this essay is intended to focus on the role that governments 
play at the policy level in our S&T relations abroad, it is useful to 
note that a single corporate project can involve hundreds of millions 
of dollars, the training of thousands of operators, technicians, and 
managers, and exchanges of hundreds of individuals, often dwarfing 
single government-to-government programs. I also learned from working 
on the semiconductor problems with Japan, that a government/industry 
team, working together in a coordinated way, can achieve results that 
neither industry nor government could negotiate alone.

4. The decline of science at State

    At roughly the same time, in the Washington science community, the 
distinct impression was arising that science had come on hard times at 
the Department of State. Some symptoms of decline were:

        <bullet>  the position of Deputy Assistant Secretary for 
        Science in the OES Bureau was eliminated;

        <bullet>  the staff of the once-strong OES office for 
        international cooperation, which managed the 35+ S&T agreements 
        between the U.S. and other countries, had been sharply cut 
        back;

        <bullet>  all the professional scientists in U.S. embassies 
        abroad were gone, replaced by foreign service officers--some 
        actually quite good, but most with little or no technical 
        background;

        <bullet>  the ``science cone'' as a professional category of 
        career choice in the foreign service was eliminated;

        <bullet>  nuclear affairs had been transferred from OES to the 
        Nonproliferation Bureau, and protection of technology replaced 
        sharing of technology as a principal element of U.S. policy; 
        and

        <bullet>  environmental issues, and fisheries and ocean 
        negotiations dominated the OES agenda at the expense of S&T.

    Concern in the science community, particularly from the National 
Academies and the American Association for the Advancement of Science 
(AAAS), reached the point that in 1998 Secretary of State Madeline 
Albright formally requested a study of this issue by the National 
Research Council (NRC). The resulting eighteen-month effort produced an 
excellent report on the relationship of S&T to foreign policy, and a 
series of recommendations to the State Department for strengthening its 
capacity to deal with those issues.\3\ In one salient phrase, the 
report conveys the pervasiveness of the challenge for the foreign 
affairs community, when it observes that of the sixteen specific 
objectives set forth in the U.S. Strategic Plan for International 
Affairs, thirteen of them encompass considerations of science, 
technology, or health.
---------------------------------------------------------------------------
    \3\ ``The pervasive role of science, technology, and health in 
foreign policy: imperatives for the Department of State'' [2] is 
certainly among the best pieces written on the practical aspects of the 
relationship of S&T to foreign policy. It also contains an extensive 
bibliography of previous studies on S&T and foreign affairs, including 
work done by the Carnegie Commission on Science, Technology, and 
Government in the early 1990s. It is a must for any serious student of 
this subject.
---------------------------------------------------------------------------

5. Reinvigorating science in the Department of State

    Secretary Albright's response to this report was to establish a 
task force which developed an action plan called ''Science at State'' 
and included a number of actions to increase State's overall capacity 
to deal more effectively with issues involving S&T. One recommendation, 
taken from the NRC report, was to appoint an S&T Advisor to the 
Secretary (STAS).\4\ The Advisor would drive this action plan while 
reporting through the Under Secretary for Global Affairs.
---------------------------------------------------------------------------
    \4\ While the study was still in progress, supporters in Congress 
inserted language in the FY 2000-2001 authorization bill for State 
calling for establishment of the S&T Advisor's position. This 
legislation has certainly helped to sustain this independent office 
within State's complex bureaucracy.
---------------------------------------------------------------------------
    I was hired in late 2000, but with the presidential election only 
two months away, I was cautioned not to sell our home in Dallas--the 
implication being that the survival of STAS was not guaranteed in a new 
administration. However, from our very first meeting after the 
election, the new Under Secretary for Global Affairs, Paula Dobriansky, 
strongly affirmed her support of the office and the work to be done on 
the action plan. Her support remained steadfast throughout my three-
year term and in the important decision of appointing my successor. 
Secretary Powell, in his first week on the job, revealed his own 
``techie'' biases in a department-wide town meeting in which he 
committed to seek funds for a major upgrade of State's global computer 
system, including the goal of Internet access at every desk. Later, in 
addressing an annual meeting of the NAS, his ringing endorsement of the 
importance of S&T to inform and support foreign policy-making, and the 
role of scientists at State, brought the packed auditorium to its feet 
in a standing ovation [3].
    Secretary Powell did much more, but one key factor was a new focus 
on the management of the department and on relating mission to 
financial needs in ways that brought a positive response from the White 
House and Congress. This reversed a negative trend in State Department 
budgets that had gone on for many years, despite ever-increasing 
demands for embassy security, for adding new missions, for increased 
hiring to staff unfilled positions in the Foreign Service, and for 
upgraded communications, not to mention the new challenges that arose 
in response to the terrorist attacks of September 11, 2001.
    It was immediately clear to me that the Department of State must be 
seen by the American people not as tea-sipping diplomats attending 
lavish diplomatic affairs but as a critical agency of national 
security--and it must be budgeted for and funded in that context. Early 
on, we coined a simple mantra for STAS: the three pillars of national 
security--intelligence, diplomacy, and military preparedness. A common 
thread through those pillars is science and technology, with diplomacy 
the last stop before war-when the talking stops, the shooting starts. 
Secretary Powell speaks about people in the U.S. embassies and 
consulates abroad as the ``front line of national security.'' Sadly, 
the growing number of foreign service names on State's bronze memorial 
plaques to those killed in the line of duty gives a special poignancy 
to this front-line metaphor.

6. A new paradigm

    For me this renewed focus on diplomacy as a special instrument for 
national security is the new paradigm in this post-Cold War era. We no 
longer live in what was once called a ``New World Order,'' but now live 
in a world of inordinate disorder, in which diplomacy carries a 
particularly heavy burden for building peaceful, constructive 
relationships among nations. And S&T are essential components of that 
diplomacy, whether combating terrorism, striving for sustainable 
development, understanding and addressing global climate change, 
attacking the HIV/AIDS pandemic, developing new energy technologies, 
preventing the proliferation of weapons of mass destruction, assuring 
food safety and security for a growing world population, protecting the 
global environment, or conservation of diminishing marine resources, 
among a list of many.
    In a non-classified report released three years ago called ``Global 
Trends 2015: A Dialog about the Future with Non-government Experts,'' 
the National Intelligence Council identified S&T as one of the seven 
key drivers that will shape the world in 2015. Specifically cited were 
information technology, biotechnology, materials science, and 
nanotechnology. The report also foresees the dangers of side-wise 
development or proliferation of older technologies for ballistic 
missiles and weapons of mass destruction.
    There is no shortage of S&T-related topics for America's foreign 
policy agenda in the 21st century. But the real question is whether we 
can make progress toward strengthening State's capacity to deal with 
S&T issues in a foreign policy context. How can the STAS office, with 
only three people, affect the culture of the oldest department of 
government, which a former Science Advisor to the President called the 
most technophobic culture he had ever experienced?

6.1. Outreach to the scientific and engineering communities
    We began with a three-point program, the first element of which was 
a major outreach effort to the scientific and engineering communities, 
both inside and outside of government. We wanted the closest possible 
relationship in order to draw on the best S&T advice and counsel 
available in the country. Key participating institutions were the 
National Academies (of Sciences, Engineering, and the Institute of 
Medicine), the AAAS, the American Association of Universities (AAU), a 
host of professional science and engineering societies, and a number of 
individual universities. The responses were quite fantastic. All were 
eager to help find ways to make effective inputs into the policy 
process. We expected less enthusiasm from the government technical 
agencies, which we thought might see State as interfering with, rather 
than assisting, their international activities. But we were surprised 
and pleased at their enthusiastic response to having a stronger S&T 
focus at State.
    Also of great importance to the STAS office is the President's 
Science Advisor, who is also Director of the Office of Science and 
Technology Policy (OSTP). For international representational purposes, 
the OSTP Director is the de facto S&T Minister for the U.S., with a 
highly visible and important international role. We were fortunate to 
enjoy strong support and close working relations with Neal Lane at the 
start and the present incumbent, John Marburger.
    So there was no doubt that the transmission side of the advisory 
process was in fine shape. But how about the receptor mechanisms inside 
State? Certainly, we could draw on the best available S&T advice and 
convene roundtables, workshops, or briefings with State officials. Such 
sessions were useful, especially to brief a delegation leaving on a 
specific mission, but to me they seemed insufficient for the challenge 
of institutionalizing a greater awareness of S&T issues throughout the 
policy process. One might be tempted to think that foreign policy is 
made by whispering in the Secretary's ear, but nothing could be further 
from the truth.
    Policy development at State is a complex process that derives from 
the structure of the institution--a structure that should be understood 
if any attempt to advise or inform the system is to succeed (see Fig. 
1). State has over 25,000 employees located in Washington and in more 
than 250 embassies, consulates, missions to international 
organizations, and other overseas posts that formulate and carry out 
U.S. policy toward some 191 nations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Reporting to Secretary Powell through his Deputy, Richard Armitage, 
are six undersecretaries who oversee the work of some 23 bureaus of two 
different types: regional bureaus and functional bureaus. The six 
regional bureaus (which divide the world into six geographic regions), 
each headed by an assistant secretary, are responsible for all posts 
abroad and the focus of all policies toward individual regions and 
countries. Early in my assignment, one senior foreign service officer 
said that to have any real impact at State, I had to penetrate the 
``baronies''--the realms of the regional assistant secretaries, the six 
``barons,'' who represent the traditional diplomatic heart of the 
Department.
    The functional bureaus outnumber the regional bureaus and serve 
specific missions, such as arms control; verification and compliance of 
arms agreements; nonproliferation; oceans, environment, and science; 
consular affairs; educational and cultural affairs; economic and 
business affairs; democracy, human rights and labor; international 
narcotics and law enforcement; population, refugees, and migration; 
political/military affairs; intelligence and research; international 
organizations; administration; etc. The functional bureaus are 
extremely important but, to oversimplify, they are essentially single-
viewpoint organizations that wish to have their issues prevail in the 
formation of policy toward any given country or region--among a tide of 
often competing interests.
    Take country X as an example. The desk responsible for X would like 
good relations; the human rights office wants to punish it for rights 
abuses; OES wants a bilateral science agreement to work with X's 
science community; a third bureau insists that X's space program is for 
military purposes and there must be no cooperation; the narcotics 
people want to spray the poppy fields just discovered there; the 
economics people want to promote business opportunities in X for U.S. 
industry; the trade controls office wants to deny export licenses for 
certain products for security reasons; the education people want to 
start a Fulbright program with X's main university; another bureau 
wants to deny a U.S. visa for one of X's prominent professors because 
he is a nuclear scientist; the agricultural affairs office wants to 
take retaliatory action because X has just banned imports of U.S. 
genetically modified corn; the aviation people want to deny U.S. 
landing rights to X's airline, because X will not permit a second U.S. 
carrier to serve its capital city; and the health office says that X 
has a surge of HIV/AIDS incidents that threaten an entire region 
because the president of X denies there is a problem.
    As these multiple, often-conflicting views move up through the 
system and the regional people try to blend them into a coherent policy 
position toward country X, if the S&T inputs are not made early in the 
process but wait until the final papers reach the assistant secretary 
or higher, the chances of having any influence on that policy are very 
slim indeed. This is even more true with the big political issues that 
occupy much of the Secretary's time, such as North Korean weapons, the 
Mideast conflict, Iran's nuclear program, Iraq reconstruction, the 
Global AIDS Fund, etc. If relevant S&T inputs are not made at the 
bureau or office level on such issues, the chances of them influencing 
the final policy are next to nil.
    Therefore, it seemed obvious that we had to try to get more 
scientists into the system, and to distribute them among many different 
bureaus. In the functional bureaus they could work in their scientific 
fields. In the regional bureaus, their creative and adaptive skills 
could deliver large dividends in bringing new perspectives and 
approaches to offices where science is (usually) at best only an 
afterthought. They could begin to influence the baronies.

6.2. The Fellows program
    The second element of our STAS strategy was to greatly expand the 
Fellows programs. For years there had been a handful of Ph.D. scientist 
Fellows, selected on a highly competitive basis by AAAS, and made 
available to the State Department at State's expense for one year, 
renewable by mutual agreement for a second year. These had generally 
been limited to the OES bureau. With help from Human Resources, we were 
able to secure a small number of these two-year positions and then 
distribute them across several bureaus. We also found some offices with 
unfilled positions that were able to take Fellows with the right 
qualifications and interests.
    In addition, the American Institute of Physics (AIP) became the 
first professional society to create and fund a competitive Scientist 
Fellow program for State. The quality of the candidates from AIP has 
been so high and the demand so strong that we have been able to place 
not only the winner but also the runner-up for three years running. The 
first AIP Fellow at State, George Atkinson, a professor of chemistry 
and optical physics on leave from the University of Arizona, was so 
successful that he was selected as my successor when my three-year 
appointment ended in September 2003. The Institute of Electrical and 
Electronics Engineers quickly followed AIP and is now in its second 
year with a total of three Fellows. The American Chemical Society (ACS) 
recently approved a program and we expect an ACS Fellow in 2004. On the 
industry side, the Industrial Research Institute has also signed a 
Fellows agreement.
    The unprecedented result is that as of September 2003, we had some 
40 Ph.D. scientists and engineers working or committed to work in State 
as Fellows, distributed among 18 offices in 12 bureaus, including five 
of the six regional bureaus. This rich mixture of talent brings 
distributed S&T wisdom to State at affordable costs and easy 
accommodation in the personnel system. I would like to see this number 
stabilize at about 50 Fellows per year. Furthermore, George Atkinson is 
now putting the final touches on a new Jefferson Science Fellows pilot 
program with funding from private foundations and U.S. universities. 
Administered through the NRC, this program should add five new Fellows 
per year on leave from their faculty positions, hopefully presaging a 
new relationship between State and the university research community.
    We have also put a new focus on getting science students into 
State's summer intern program, have increased the number of scientist 
detailees into State from other U.S. Government agencies, and have 
strongly promoted an OES program that is now placing some 30 staff 
scientists from six participating government agencies into tailored, 
one- to three-month assignments at U.S. embassies throughout the world. 
These varied programs all aim at bringing technical talent into State 
on a non-career basis. But we also worked with the recruiting people to 
hire more people with S&T backgrounds into the career foreign service. 
It is now possible for Fellows interested in a foreign service career 
to be exempted from the written examination and move directly into the 
competitive selection process.
    There is also one long-term detailee from NASA who has been 
assigned as the first S&T advisor to an embassy. That person is in 
Australia and has demonstrated brilliantly the benefits to an embassy 
of having a professional scientist to complement the foreign service 
officer who holds the science portfolio as part of his economic job. It 
is a model I would like to see realized in 20-25 embassies around the 
world because I do not see any possibility of rebuilding the 
professional science attache corps that existed 30 to 40 years ago. A 
professional scientist will always enjoy a level of access and 
interaction with the local scientific community that is simply not 
possible to a layman.

6.3. Selecting specific science initiatives
    The third element of the STAS program was the selection of specific 
science initiatives that could demonstrate the direct value of S&T for 
achieving political objectives with other countries. With the ability 
to interact with the programs of all government technical agencies and 
to interface with any of the 191 countries in the world, there was a 
rich smorgasbord of opportunities on which to draw. We were selective 
in choosing actions that we believed would raise awareness in the 
regional bureaus to the value of S&T initiatives as part of an active 
foreign policy. In citing a few examples, I must also note the 
inadvisability of a small office taking on long-term operational 
responsibilities. Such responsibilities are simply too time-consuming 
and should be transferred, after the catalytic stage, to a bureau 
equipped to manage the operation.
    I spent nearly 30 years in two large companies--one in oil, the 
other in electronics. It is clear to me that the greater corporate 
world has heartily embraced globalization. Mergers and alliances, 
especially in high-tech industries, are de riguer. Exxon and Mobil were 
not big enough alone to address the global marketplace, so now my $83 
per month retirement check comes from ExxonMobil Corp. HP and Compaq 
were either too big to compete with each other or not big enough to 
compete in the global market, so they merged.
    But the political world has not yet bought into this. There, 
centrifugal forces are rife. Ethnic tensions, nationalist ambitions, 
and religious extremism continue to divide the world's peoples at a 
remarkable rate. The instruments of division or separation can be 
democratic, but increasingly they are violent--fueled by passionate 
convictions that emerge as terrorism or suicidal attacks. The point is 
that the political world is very different and global business 
solutions and market forces alone do not provide the answers. All 
nations struggle to find answers to these questions and, in doing so, 
to protect their borders and their citizens and to move forward with 
economic development. In considering projects, we worked on both 
strategic bilateral science relationships as well one of the 
multilateral ``big science'' opportunities emerging globally.

6.4. The Indo-U.S. S&T forum
    The first project was the formation and implementation of the Indo-
U.S. S&T forum. It grew out of two high-level dialogues between U.S. 
and Indian science leaders. It then became a major objective of the 
U.S. Ambassador to India, but although a modest rupee endowment was 
provided and an agreed framework established, nothing happened, and the 
money was about to be lost.
    With strong support from State's South Asia Bureau and our embassy, 
we set up a U.S. board and arranged a first meeting with the Indian 
counterparts. For three years now, I have served as the U.S. Co-
Chairman of the Forum, with strong support from the National Academy, 
and in this way we have sustained a formal, funded mechanism for 
promoting bilateral S&T cooperation with India. This fits well with 
present U.S. policy toward India, which stresses cooperation, 
encourages the economic and scientific development of India, and has 
relaxed the sanctions imposed after India's nuclear tests. The Indians 
particularly want more cooperation in nuclear power, civil space 
activity, and the easing of export controls on high-technology items--
the so-called ``trinity of issues.'' Progress continues in these areas, 
but proliferation issues and intellectual property protection concerns 
still limit these interactions. At the same time, the forum is working, 
and is considered a meaningful part of the new and much warmer 
relationship between the U.S. and India.

6.4.1. Vietnam
    A second project involved Vietnam. A previously signed bilateral 
S&T agreement had not yet been ratified in Vietnam and there was no 
activity. The East Asia Bureau was eager to see this program proceed as 
part of warming relations with this most populous and energetic country 
in the region. On a trip to India, I also stopped in Hanoi to try 
nudging things forward. Subsequently I put together an interagency 
delegation and convened the first meeting of a committee to define some 
joint activities. The result is that there is now a modest, 
functioning, bilateral program with operational responsibility shifted 
to the OES Bureau. Furthermore, Congress has also created the Vietnam 
Education Fund, which will provide $5 million per year for 17 years 
from Vietnamese debt payments to the U.S. to support exchanges of 
students and professors in science, technology, and mathematics. Over 
time, this program will develop a cohort of U.S.-trained Vietnamse 
scientists, who will maintain links with their U.S. colleagues and 
build the cooperative programs of the future.

6.4.2. Pakistan
    Pakistan is crucial in the war against terrorism, and President 
Musharraf, in the face of considerable domestic opposition, has pledged 
his support to the U.S. in this effort. During a U.S. visit with 
President Bush, in addition to discussions on fighting terrorism, the 
two leaders noted the desirability of S&T cooperation and assistance in 
education and economic development. This was of considerable interest 
to the embassy and to the South Asia Bureau, so when no one else picked 
up the issue, STAS did.
    Working with Pakistan's indefatiguable Science Minister, Atta-ur-
Rahman, and the U.S. technical agencies, we laid out the framework for 
a jointly funded cooperative program, and OES developed a bilateral 
science agreement to formalize the relationship. In a subsequent 
meeting with the U.S. Ambassador to Pakistan, President Musharraf 
emphasized the importance of this S&T relationship for Pakistan's 
future economic development.
    While U.S. funding was delayed due to complexities in the 
appropriations process, funds were included in the FY 2004 for State 
and implementation plans are now underway, also including partial 
funding from the Pakistan side.

6.4.3. Multilateral cooperation on big projects
    Another important issue is multilateral cooperation on big science 
or big technology projects that are so large, expensive, or risky that 
no one country will undertake them alone. A current example is the 
International Thermonuclear Experimental Reactor project (ITER), a key 
next step on the still long and uncertain road from nuclear fusion to 
another source of energy.
    Since our office began, we strongly supported the ultimately 
successful effort of DOE and OSTP to have the U.S. rejoin the ITER 
consortium, which now includes the EU, Russia, China, Japan, and South 
Korea. This is an extremely important test case for the viability of a 
prototypical big science or technology project. Can five nations and 
one region really come together at a fixed location in one nation and 
work for ten years to build a reactor and then work cooperatively for 
an additional 10 to 20 years of operation? Will each entity compromise 
its own domestic fusion program, its domestic industry involvement, and 
agree to sustain funding for work at a site perhaps thousands of miles 
from home? Can issues of export control, intellectual property, and 
legal structures all be resolved on a timely basis?
    While the parties have now agreed on a basis for sharing the $5 
billion cost of the project, there is as yet no agreement on the site 
for construction. ITER has been in process for 18 somewhat bumpy years. 
It must move forward soon or it will founder, with very unfortunate 
implications for other big programs, such as the next large accelerator 
for the high-energy physics community. Success, however, will provide 
valuable lessons and inspiration to future programs by demonstrating 
that such complex cooperative activities are indeed possible.

7. Building S&T cooperation

    The above examples all involve international S&T cooperation, which 
I see in a political context. I strongly believe that S&T cooperation 
can help build a solid, long-term relationship between participating 
countries. Each individual program represents a separate strand in the 
fabric of an overall relationship. The more of these strands that exist 
and the stronger they are, the more resilient and durable the 
relationship, whatever the slings and arrows that may impinge on it.
    Such cooperation is particularly valuable in today's complex world. 
But let me say it in slightly different terms. The military strength of 
the U.S. is our hard power. No other nation today can challenge that 
hard power on the open battlefield. But there is another side to 
America--our soft power--also called by Joseph Nye our ``co-opting 
power'' [4]. It is the siren song of the values of an open, democratic 
society, one that cherishes human rights, freedoms of speech, religion, 
and inquiry, etc. Science and technology, coupled with our universities 
and the relationships we build around the world, are all instruments of 
that soft power. It is highly appropriate that both OES and STAS are 
housed at State in Paula Dobriansky's Under-secretariat for Global 
Affairs, together with several other bureaus and offices that are major 
actors in the conduct of America's soft power diplomacy (refer back to 
Fig. 1).
    S&T cooperation can also be one of our most effective instruments 
for helping the developing world to build an indigenous technical 
capacity for linking to the global economy that is essentially driven 
by technology. That is why the S&T forum with India was a priority for 
their rapidly developing S&T community, and why the President of 
Pakistan so strongly favors S&T cooperation with the U.S. That is also 
why a major study, just beginning in the NAS/NRC, on the role of S&T in 
the U.S. Agency for International Development (USAID), is of such 
potential import. Despite a number of sporadic attempts over the years 
to make S&T an identifiable and pervasive element in USAID's 
activities, that has not happened, even though many of their projects 
are technical in nature. USAID's approval and partial funding of this 
study is highly significant.

7.1. Challenges facing S&T cooperation
    I should also note some of the challenges that we currently face in 
taking full advantage of our cooperative S&T opportunities. The U.S. 
response to the terrorist attacks of September 11 profoundly changed 
the Nation, as well as its scientific and diplomatic priorities. The 
top issues today are the war against terrorism, homeland security, and 
nonproliferation of weapons of mass destruction (WMD), and they are 
impacting all of our international activities. On the positive side, 
there are opportunities to cooperate with other countries on R&D 
aspects of cyber security, combating terrorism, detecting hidden 
weapons, protecting container shipments, etc. The newly formed 
Department of Homeland Security (DHS) has offices for international 
activities and has begun discussions with some potential international 
cooperative partners. Our STAS office has also discussed cyber security 
issues with the EU, led a negotiation on an R&D agreement with Canada, 
and scheduled a first meeting with Japan on R&D for peace and security.

7.1.1. New visa procedures
    However, one issue has emerged, which I believe has the potential 
to seriously affect research and development activities in the U.S., 
and which, over time, will negatively impact U.S. national security. 
That is the issue of new visa procedures contained in Congressional 
legislation passed in response to 9/11. Under this legislation, visa 
policy was moved from State to DHS, and procedures were tightened 
considerably in order to prevent terrorists or potential WMD 
proliferators from entering the country as students or scientists. This 
article is not the venue for reviewing these procedures in detail, nor 
is it easy to acquire accurate data on the impact of visa delays and 
denials on attendance at scientific meetings and research in industrial 
and university laboratories; both the AAU and NAS/NRC are trying to 
develop accurate numbers. However, extensive anecdotal information 
indicates a serious problem, particularly for applicants from China, 
Russia, Vietnam, the Balkans, India, and Muslim countries. Graduate 
students and post-doctoral researchers, who are not being granted visas 
or who simply find the procedures too onerous or the decisions too 
capricious, are turning toward Europe, Australia, and Japan. One large 
midwestern university president told me that enrollments fell by about 
1000 students in Fall 2003 because of visa problems. While the 
processing is faster than a year or more ago when serious backlogs 
arose, many people will not or cannot apply two or three months ahead 
of their trip as recommended. Scientific meeting planners are 
increasingly looking at alternate overseas venues.
    I believe we must find a better balance between security and 
openness. We are muffling one of the most effective soft-power 
instruments of this great country-a nation whose very essence rests on 
the principle of openness. In 1966, Hollywood produced a comedy film 
about the cold war called ``The Russians are Coming.'' The present 
Russian Ambassador to the U.S. had an op-ed piece in the Washington 
Post last year titled, ``The Russians Are Not Coming.'' It was about 
the visa problem.
    Good science is not limited to the U.S., and diminished contact 
with excellent work abroad will only constrain U.S. research. Last year 
nearly 70 percent of the pages of Physical Review, the world's leading 
physics journal, came from foreign authors. With something like 50 
percent of our graduate students in the physical sciences and 
engineering coming from overseas, a severe decline will also limit U.S. 
university research, with long-term adverse effects on the economy as 
well as the cutting-edge basic research important for national 
security.

7.1.2. Absence of funding mechanisms
    A second issue, which I never thought was a problem until seeing it 
firsthand during the past three years, is the absence of effective 
government-wide funding mechanisms for international S&T cooperation. 
In most agencies there are no dedicated funds for this purpose. 
Furthermore, legislation often limits cooperation to programs that can 
be justified purely in terms of their domestic missions or the benefits 
to U.S. science.
    One possibility would be to appropriate funds expressly for soft-
power S&T cooperation, perhaps to the Department of State. To some 
extent there are precedents. One was when the Soviet empire imploded 
and funds were made available by Congress, through the SEED Act and the 
Freedom Support Act, to aid the transition in those countries. Some of 
that money did go for science programs, although with more emphasis on 
assistance than on cooperation. The difference may be subtle, but it 
can be important to the receiving nation.
    It might also be possible--and legislatively easier--to 
specifically designate for S&T cooperation a portion of the so-called 
Economic Support Funds (ESF), which State now receives for various uses 
overseas including some regional environmental initiatives. This may 
require more program development capacity than State can presently 
muster, but such an approach deserves serious consideration.
    Easier funding for S&T cooperation could also be achieved via 
changes in the spending authorities for each of the technical 
agencies--not a simple process. It would require some sort of 
resounding policy authorization stating that international S&T 
cooperation is an active element of U.S. foreign policy. Then each 
agency would have to interpret that policy in terms of its own mission, 
with guidance from State to ensure overall compatibility with U.S. 
foreign policy.
    I recently learned of a past effort in the Carter Administration to 
create a new government agency to directly support international S&T 
cooperation. The proposal actually made it through three of the four 
Congressional hurdles--two authorization bills and one appropriations 
bill in the House--but, regrettably, it died in the Senate for lack of 
a champion and in the face of opposition by USAID.
    But in truth I am not sure a new agency is the best answer to the 
problem. Our S&T cooperation needs to be broad and to encompass the 
full range of mission-oriented research within our federal technical 
agencies. However, that would require a clear indication from Congress 
that international S&T cooperation is, in fact, encouraged and 
fundable. I was pleased to see this year, in the OSTP/OMB budget 
guidance to the agencies, that one of the seven criteria for project 
funding that would be seen favorably was to include an element of 
international cooperation. That is a welcome statement, but it does not 
solve the larger issue, and I hope that a brave future S&T Advisor at 
State will try to find such a resolution. It could have a great impact 
on the challenge of effective capacity building in the developing world 
and on U.S. relations in some problematic, but important, countries.

7.1.3. Export controls
    When I was in government 30 years ago, export controls were a 
problem of constant contention among the agencies. That situation has 
not changed. One particularly difficult area has been controls on 
satellite technology, which has caused problems at universities where 
non-U.S. graduate students have worked on scientific satellite 
experiments. Of more direct economic significance, in the last few 
years the struggling U.S. satellite industry claims that these controls 
have caused a drastic drop in their global market share of civilian 
satellites and components and virtually guaranteed their foreign 
competitors captive markets abroad. Each issue in this field is complex 
and beyond the scope of this paper. However, with particular attention 
since 9/11 to nonproliferation issues, export controls will be an 
element of concern in any international cooperation involving high-
technology products or know-how. Successful collaboration with the U.S. 
will obligate other nations to provide rigorous enforcement of their 
own export control regulations and to come down hard on violators.

7.1.4. Intellectual property rights
    Another issue affecting international S&T cooperation is 
intellectual property rights (IPR). The negotiation of bilateral 
agreements has sometimes been seriously delayed or even derailed by 
U.S. insistence on standard IPR language in all such agreements, even 
though IPR issues have very rarely arisen in these cooperative 
programs. IPR is not a trivial issue, and universities throughout the 
world are beginning to recognize the value of IPR in their research and 
to seek early patent protection. But I have always felt that IPR issues 
should be worked out on a project basis between the cooperating 
parties, and that including somewhat draconian IPR boilerplate in 
umbrella agreements is counterproductive. In the corporate world, where 
the stakes are high, detailed IPR agreements are worked out between the 
parties based on specific projects or programs. If agreement cannot be 
reached, the project does not proceed. That should be possible within 
our government S&T cooperative relationships as well.

7.1.5. Marginalizing S&T considerations
    The final issue is what some outside scientific observers call the 
marginalization of S&T considerations by the foreign policy community. 
Of course, that is the reason the S&T Advisor position was created at 
the Department of State. In the past three years, I believe we have 
made some significant progress on these issues. I have worked for Under 
Secretary Dobriansky and Secretary Powell and with many other 
colleagues at the State Department with great enthusiasm, and I 
welcomed the appointment of my successor to sustain this department-
wide effort.
    Yet, for all of the Fellows, the individual S&T initiatives and the 
strong support from the top of the department, I still believe that S&T 
has only shallow roots in the Department of State as an institution, 
and there is much more that can be done. It behooves the outside S&T 
community, which has so strongly supported the NAS/NRC study and our 
efforts to turn its recommendations into reality, to continue its 
vigorous support and to remain involved. Eternal vigilance should 
remain the watchword in following future developments in the 
fascinating interplay of S&T and foreign policy.

References

[1]  Carvalho-Rodrigues F. NATO's science programs: origins and 
influence. Technol Soc 2001;23: 375-381.

[2]  The pervasive role of science, technology, and health in foreign 
policy: imperatives for the Department of State. National Research 
Council: National Academy Press, 1999.

[3]  Powell C, Remarks at the NAS Annual Meeting. Washington DC, April 
30, 2002. Available in the archives section of State's website: 
www.state.gov

[4]  Nye Jr JS. The paradox of American power: why the world's only 
superpower can't go it alone. New York: Oxford University Press; 2002.

                   Biography for Norman P. Neureiter

    Norman P. Neureiter has a Ph.D. in organic chemistry from 
Northwestern University. Following six years of research in the oil 
industry, he spent two years at NSF and then entered the U.S. Foreign 
Service, serving in Germany and then in Poland (1967-1969) as the first 
U.S. Science Attache in Eastern Europe. He was responsible for 
international affairs in the White House Office of Science and 
Technology (OST) during the Nixon Administration. Upon disbandment of 
OST in 1973, he joined Texas Instruments (TI), finishing a career in 
corporate relations and international business development as Vice 
President of TI Asia, based in Japan. After retirement in 1996, he was 
a consultant to government and business, until his recent three-year 
assignment as the first Science and Technology Advisor to the U.S. 
Secretary of State. He is presently a Distinguished Presidential Fellow 
for International Affairs at the National Academy of Sciences.

    Chairman Baird. I would very much like to thank our 
witnesses for your work. Some incredibly eloquent testimony 
today, and inspiring testimony, and we appreciate your daily 
work, and the information that you have provided this 
committee. I want to thank my colleagues for their 
participation. As I have said before, this is one of the 
central issues that this committee will occupy itself with over 
the year. Dr. Fedoroff, I am very excited about this, I don't 
know, gathering is maybe the best word, maybe you have got 
another word, of university directors, and we hope to learn 
more about that in the future.
    With that, this hearings stands adjourned, and with the 
gratitude of the Committee, thank you.
    [Whereupon, at 11:36 a.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by John H. Marburger, III, Director, Office of Science and 
        Technology Policy

Questions submitted by Chairman Brian Baird

Q1.  Is there a role best served by a non-governmental organization, 
such as the Civilian Research and Development Foundation, in maximizing 
the ``soft power'' effectiveness of science and technology cooperation 
to meet U.S. foreign policy objectives?

A1. Non-governmental science and technology (S&T) organizations (NGO's) 
such as CRDF, the American Association for the Advancement of Science, 
Alfred P. Sloan Foundation, Carnegie Foundation and many others 
continue to have an important role in influencing what others think of 
the United States and help promote U.S. foreign policy goals. S&T NGO's 
are able to form connections to organizations, scientists, and citizens 
globally. They communicate the culture, processes, values and ideas 
that form the foundation for U.S. S&T such as transparency, openness, 
peer review, and intellectual property rights. These ideas can then be 
transferred outside of the scientific community to other parts of 
society.

Q2.  How can the Federal Government more effectively capitalize on the 
scientific expertise and innovative spirit at our research universities 
in pursuit of our foreign policy goals?

A2. Studies have shown that foreigners continue to have high admiration 
and respect for U.S. science, technology, and innovation capabilities 
and want to come to the U.S. to study. The Federal Government can 
capitalize on the scientific expertise and innovative spirit at U.S. 
research universities for foreign policy goals by continuing to support 
the exchange of foreign scientists and students to the U.S. to study 
and work. This includes easing visa difficulties and providing a 
welcoming environment (increased public diplomacy) for foreign 
students. We also encourage U.S. undergraduates, graduates, and post-
docs to do some of their training in other countries to increase their 
abilities to form international collaborations in their later careers 
and to tap into overseas knowledge. The exchange between U.S. and 
international scientific communities not only strengthens the health of 
our S&T community but also provides an opportunity to influence 
potential foreign S&T leaders in government, academia and society.

Q3.  There exists no single point of contact in the U.S. government 
with the authority, the budget and the coordinating function to 
initiate new cooperative research activities, even with countries with 
whom we have already signed a formal agreement or with whom we 
regularly collaborate. The National Science Board made some 
recommendations to improve the process by which international 
collaborations are established, including the designation of a lead 
official in each agency empowered to promote and develop international 
science and engineering strategy and coordination. What is your 
response to that particular recommendation, and what else might your 
office or other agencies do to improve the process by which new 
international collaborations are established?

A3. Each USG technical agency has an office dedicated to international 
cooperation. Staff responsibilities are to promote international 
collaboration in support of their agency's goals and missions. 
Additionally, senior Administration officials serve on a variety of 
international organizations and groups that promote international 
scientific collaborations (UNESCO, G8 Science Ministers, Heads of 
Research Councils, OECD/GSF). These activities help to support agency 
to agency or researcher to researcher international collaborations in 
support of U.S. diplomatic objectives. These offices work closely with 
the State Department which has responsibility to coordinate and 
establish U.S. diplomatic objectives. As stated in my written 
testimony, OSTP has found that drawing together the USG technical 
agencies around specific topics or focused on a particular country have 
proven the most successful way to promote coordination and strategic 
thinking in our international collaborations.
                   Answers to Post-Hearing Questions
Responses by Arden L. Bement, Jr., Director, National Science 
        Foundation

Questions submitted by Chairman Brian Baird

Q1.  You mentioned in your testimony that the Office of International 
Science and Engineering is currently leading an effort to develop a 
goal-oriented strategic plan that will inform coordination of 
international activities across the Foundation. What is the timeline 
for that plan? Does NSF currently maintain a directory of all of its 
international projects and grants or is one being developed as part of 
the strategic plan?

A1. The planning framework is being developed with input from an 
internal Foundation-wide International Coordinating Committee. The 
draft framework will be shared with NSF's external Advisory Committee 
for International Science and Engineering over the next few weeks and 
their advice will be incorporated. The draft will then be reviewed by 
the NSF Director and other senior management with the intent of 
finalizing the plan by summer 2008.
    NSF does not maintain a directory of international projects and 
grants. However, NSF electronic files identify awards with 
international activity so that reports can be developed as needed. The 
recent Office of International Science & Engineering (OISE) 
International Data Working Group project resulted in substantially 
revised international implication data collection for awards effective 
December, 2007, with future enhancements planned. This change should 
improve reporting on international activity NSF-wide by requiring 
identification of planned international activity at initial award. Over 
tune, this should allow easier analysis of international activities 
embedded in proposals across NSF,

Q2.  In your testimony you discussed the benefits of the Partnerships 
for International Research and Education (PIRE), including the 15 PIRE 
projects involving collaboration with scientists in developing 
countries. You also discussed the joint program with Pakistan. Across 
the Foundation, what percentage of the budget supporting international 
collaborations involves U.S. scientists and engineers working with 
scientists and engineers in developing countries on research projects 
of mutual interest but also with direct benefit to those countries, 
including for capacity-building?

A2. Foundation-wide budget information on international collaborations 
is not readily available. However, international implications data 
discussed in the response above indicate that roughly 37 percent of all 
NSF awards issued in FY 2007 had an international component. These 
awards involved a total of 145 different countries.
    Budget information is available for OISE programs with respect to 
developing countries. In FY 2007, nearly 31 percent ($11 million) of 
the OISE research and education budget ($36 million) was spent on 
awards involving U.S. scientists and engineers collaborating with 
counterparts from developing countries. (If the Committee would like to 
receive relevant budget information beyond OISE, NSF would be happy to 
discuss a framework and timeline for providing such data.)
    OISE seeks to ensure that the next generation of STEM scientists 
and engineers are globally engaged; thus we have a number of mechanisms 
to give U.S. students and recent graduates experience in doing research 
throughout the world, and especially in developing countries. In order 
to strengthen ties with developing countries in particular, we have 
recently entered into a partnership with the U.S. Agency for 
International Development whereby they will provide support to the non-
U.S. participants in projects of mutual interest to both agencies.

                   Answers to Post-Hearing Questions
Responses by Nina V. Fedoroff, Science and Technology Advisor to the 
        Secretary of State, U.S. Department of State; Administrator of 
        USAID

Questions submitted by Representative Russ Carnahan

Q1.  By statute, you report through the Under Secretary of State for 
Democracy and Global Affairs rather than directly to the Secretary.

Q1a.  Does this statutory reporting inhibit you in any way from 
providing advice and input directly to the bureaus and offices across 
the Department, including those in other reporting lines?

A1a. No. The current Science and Technology Adviser to the Secretary of 
State is also serving in the same capacity to the Administrator of 
USAID/Director for U.S. Foreign Assistance. This broadened 
responsibility provides an opportunity to further align the missions of 
USAID and the State Department. To implement this broader vision, the 
Adviser is currently working with Secretary Rice and Administrator Fore 
to transform the Adviser's office to further enhance the contribution 
of science and scientists, engineers and other technologists to the 
missions of both USAID and the State Department, as articulated in the 
Secretary's Transformational Diplomacy Initiative. The Adviser 
interacts directly with the Secretary and the Under Secretaries and the 
Administrator through briefings and in a multiplicity of other 
settings, reflecting the growing role of science and technology in our 
foreign policy and foreign assistance activities.

Q1b.  What do you think of the suggestion from the Secretary's Advisory 
Committee on Transformational Democracy to either make the Science 
Advisor and the Assistant Secretary for OES the same person or 
alternatively, to make the Science Adviser a Principal Deputy Assistant 
Secretary so that there is only one line of reporting and one 
individual responsible for bringing senior attention to the full range 
of science and technology challenges and opportunities across the 
Department.

A1b. The Adviser acts as the principal interface between the larger 
scientific and technical community and USAID and one of the principal 
interlocutors among scientists, engineers and technical experts and the 
State Department. The current procedure for appointing the Adviser, 
which involves nominations generated by a committee at the highest 
levels within the National Academy of Sciences, followed by State 
Department interviews, including an interview with the Secretary of 
State, is extremely important to maintaining the credibility of the 
position both within the government and within the scientific and 
technical communities.
    Combining the position of the Adviser with that of the Assistant 
Secretary (A/S) or the Principle Deputy Assistant Secretary (PDAS) 
would limit the ability of the Adviser to focus on her core functions. 
The A/S and PDAS have responsibility for a large range of 
administrative, environmental and ocean-related issues which need to be 
informed by science but which are not science functions, per se. STAS 
works closely with OES on many initiatives, and they play reinforcing 
and complementary roles to each other.

                   Answers to Post-Hearing Questions
Responses by Jeff Miotke, Deputy Assistant Secretary for Science, 
        Space, and Health, Bureau of Oceans, Environment, and Science, 
        U.S. Department of State

Questions submitted by Chairman Brian Baird

Q1.  If Congress or the public were to request a comprehensive list of 
international science and technology cooperation activities currently 
being funded by the Federal Government, where would we/they turn for 
this information? Given that international science and technology 
activities across the agencies are coordinated by your office, is this 
a list that your office or another in the Department of State does or 
could maintain?

A1. Currently, there is no comprehensive list of international science 
and technology (S&T) cooperation activities being funded by the Federal 
Government. As an indication of the breadth of USG international S&T 
activities, Congress or the public should turn to the State 
Department's Bureau of Oceans, Environment, and Sciences (OES) to 
obtain a comprehensive list of framework (or ``umbrella'') S&T 
agreements between the United States and other countries. This list is 
available on the State Department website: http://www.state.gov/g/oes/
rls/fs/2006/77212.htm).
    The OES Bureau can prepare lists of cooperative activities taking 
place in specific countries upon request. Two examples are for India 
and China. For India, at the request of the Office of Science and 
Technology Policy, the OES Bureau polled the technical agencies and 
prepared a spreadsheet listing all of their S&T cooperative activities 
with that country. For China, Congress has requested the State 
Department to prepare a biennial report, agency by agency, on all S&T 
collaborative activities, with a special emphasis on security issues. 
This report therefore also provides a complete listing of all Federal 
Government funded S&T activities in that country. Often considerable 
time is required to prepare such information because of the number of 
federal agencies that need to be contacted and the extent of their 
activities.

Q2.  There exists no single point of contact in the U.S. Government 
with the authority, the budget, and the coordinating function to 
initiate new cooperative research activities, even with countries with 
whom we have already signed a formal agreement or with whom we 
regularly collaborate. What would your office do to improve the process 
by which new collaborations are established?

A2. All relevant USG technical agencies have a seat at the table when 
the Department of State convenes S&T coordination meetings with partner 
countries to review the status of S&T cooperation. The review proceeds 
under the auspices of existing or new ``umbrella'' S&T cooperation 
agreements. With our major partners, these ``Joint Committee Meetings 
(JCM)'' convene once every two years; with others, they occur less 
frequently. Interim meetings at lower levels can also be held to check 
on progress between JCMs. Our internal USG preparatory process before 
each of the JCMs allows us to understand what each USG agency hopes to 
gain from collaboration with our international partner and what 
resources that USG agency can devote to that collaboration. Agency 
priorities are, in turn, influenced by a number of factors, including 
the annual list of overall U.S. R&D priorities developed by the Office 
of Science and Technology Policy, congressional preferences and agency 
mandates. Given the manner in which U.S. S&T priorities are set and 
resource are allocated, the current system--while not perfect--works 
fairly well and provides for considerable flexibility to accommodate 
scientific progress and changing national priorities over time.
    The technical agencies have also been responsive to some strategic 
U.S. foreign policy priorities; their support for our S&T partnerships 
with predominantly Muslim countries is a good example. The current 
system is perhaps least effective in our relationships with less 
developed countries which are in need of S&T capacity building and lack 
the other resources necessary to cooperate with U.S. science agencies 
and other institutions. Our answer to the next question describes a new 
effort to help bridge the gap with developing countries.

Q3.  You stated in your testimony that the State Department could be 
doing more to interact with the private sector, academia, and other 
nongovernmental organizations. Can you elaborate on this statement? In 
particular, I would like to understand how both the State Department 
and the Federal Government generally could more effectively capitalize 
on the scientific expertise and innovative spirit in academia in 
pursuit of our common goals of science for diplomacy, development, and 
international decision-making?

A3. We are working to create new opportunities for the private sector 
(business, foundations, academia, and non-governmental organizations) 
to work with the State Department and USAID to carry out its core 
foreign policy and foreign assistance objectives.
    OES has on-going dialogues with a number of countries, such as 
South Africa and Vietnam, regarding development of business 
accelerators and has raised the subject in meetings with the OECD and 
AFEC. Since the promotion of technological entrepreneurship is of great 
interest to many partner countries, discussions on accelerators are 
frequently associated with recently signed bilateral agreements on S&T 
cooperation. We have structured our bilateral talks to allow these 
partners to interact with State and local officials, as well as with 
private sector representatives, in an effort to help them build a 
variety of ties and public/private partnerships with many different S&T 
related organizations in the United States.
    We have also benefited from the generosity of the private sector: 
e.g., Sun Microsystems, and many other companies, contributed 
significant resources and expertise in the development of the Iraq 
Virtual Science Library in cooperation with the Departments of State 
and Defense. The State Department's Education and Cultural Affairs 
Bureau (ECA) also draws on the expertise of the U.S. scientific 
community for its grant, mentoring and exchange programs, including the 
Fulbright S&T scholarships. For example, under its Labs-to-Market 
program, ECA will bring budding young researchers to high-tech centers 
in the United States, such as Silicon Valley. These researchers are 
given a crash course in everything needed, from intellectual property 
rights to venture capital, to translate research results into 
marketable products.
    The National Academies have provided administrative support to 
recruit and interview tenured, university professors interested in 
serving in the Jefferson Fellows program. This program, established by 
the S&T Adviser with generous support from the MacArthur Foundation and 
Carnegie Corporation, enables distinguished scientists and engineers to 
work for one year at the Department of State or at USAID, and 
subsequently to serve as consultants after they return to their 
universities. STAS and OES are discussing ways to further tap into this 
growing network as well as the expertise of academia and the private 
sector to enhance the Department's scientific capacity, while 
addressing specific needs of our international partners.
    A recent example of broadening the involvement of academia and the 
private sector in development and science diplomacy is provided by the 
Higher Education Summit for Global Development convened on the 29th and 
30th of April, 2008, by Secretary of State Rice, Secretary of Education 
Spellings, and USAID Administrator Fore with strong support from the 
S&T Adviser and her office. The conference brought together university 
presidents from around the world, both developed and developing, 
together with representatives of companies, foundations and NGOs, to 
discuss new means and mechanisms of involving the colleges, 
universities and research institutes of the developed world in 
strengthening higher education, research and knowledge-based 
entrepreneurship in the less developed world.
    During the conference, a historic agreement was signed between the 
National Science Foundation (NSF) and USAID that will allow researchers 
in the developed and developing worlds to receive funding from NSF for 
the American collaborator and funding from USAID for the foreign 
collaborator. The meeting was funded, in part, by a grant from the 
Lounsbery Foundation to Higher Education for Development (BED), an NGO 
that provides administrative support for USAID-funded university 
collaborations. The grant application was written and submitted by the 
Office of the Science Adviser to the Secretary of State (STAS) and 
funded the travel of a number of university presidents from less-
developed countries. As a follow-up from the conference, STAS is 
working with a private sector CEO and several presidents of top U.S. 
universities to establish a Global University Network to support the 
kinds of novel capacity-building interactions between companies, 
foundations and universities discussed in the course of the conference.
    The S&T Adviser is also currently working with the Secretary of 
State and the Administrator of USAID to transform the Adviser's office 
and promote the role of science and scientists, engineers and other 
technologists both in foreign policy and in the foreign assistance 
functions of the State Department and USAID. We seek to convene 
scientists, engineers, and other technical professionals from academia, 
government, and the private sector to better address the fundamental 
challenges of development today, ranging from addressing the current 
global food, water and energy crises to powering economic development 
through scientific and technical education and research and knowledge-
based entrepreneurship.

Questions submitted by Representative Russ Carnahan

Q1.  At present, many of the science counselors in U.S. embassies are 
junior officers with broad portfolios. (A) How could the Department of 
State both increase the number and elevate the role of qualified 
science attaches at key U.S. embassies to promote science, engineering, 
and technology in host countries? (B) How can you increase science and 
technology literacy in the Foreign Service more broadly?

A1. In response to question (A), the Department has many excellent 
officers that have served as Environment, Science, and Technology, and 
Health (ESTH) officers, with varying degrees of technical expertise. As 
their title indicates, these officers cover a wide variety of issues, 
from climate change to space cooperation and avian influenza. An ESTH 
officer, for instance, would commonly be asked to advocate for the U.S. 
position on any one of several multilateral environmental agreements.
    When they face an S&T issue, our objective is not to have these 
individuals do the work of a scientist but rather to be able to manage 
the science policy issues at hand and, when necessary, to know how to 
access more specific expertise for a program or problem that might 
arise in the country in which they are stationed. Among their many 
tasks, an ESTH officer might engage his/her counterparts on possible 
large scale joint scientific facilities, such as the space station or 
ITER. He/she will facilitate the exchange of scientists and technical 
delegations. He/she will need to understand the views and influence of 
the local scientific community on issues of importance to the United 
States, such as agricultural biotechnology.
    To address trans-boundary environmental issues, and to support 
officers at U.S. embassies working on the broad range of OES issues, 
the Department established 12 regional environmental Hubs, located in 
embassies around the world. The Hub concept is based on the idea that 
trans-boundary environmental problems can best be addressed through 
regional cooperation. The regional environmental officer's role 
complements the traditional bilateral ESTH officers stationed in U.S. 
embassies in many countries of the world. Rather than dealing with a 
single country, Hub officers engage with several countries of a region 
on a particular issue, with the aim of promoting regional environmental 
and scientific cooperation, sharing of data, and adoption of sound 
policies that will benefit all countries in that area. The Hubs work 
closely with other USG agencies and support their efforts by raising 
key issues at the diplomatic level. They also cooperate with non-
governmental organizations on scientific and environmental activities 
within their region. In addition, there are ESTH officers working with 
the U.S. Mission to the UN and the U.S. Mission to the EU.
    A very limited number of U.S. embassies in countries where major 
S&T partnerships exist are staffed by attaches from the Department of 
Energy, the National Science Foundation, the Department of Health and 
Human Services, and NASA.
    One way to increase the number of science attaches is to expand the 
existing interagency Embassy Science Fellows program that is 
administered by the Department of State. This program places USG 
scientists overseas at U.S. embassies for one to three months. 
Proposals come in from U.S. embassies requesting Fellows. The proposals 
are developed in conjunction with host governments. Since the start of 
the program in 2001, the State Department has placed 210 scientists and 
science administrators in about 45 countries. In 2007, we had 55 
requests, with some embassies submitting more than one, and filled 40 
of them. We have a unique cost sharing program, in which the sending 
agencies provide salary, expenses, training, and airfare, while the 
hosting embassy covers local costs and housing.
    Regrettably, not all of our technical agencies participate in the 
program due to the cost they must absorb for placing scientists 
overseas. Likewise, embassy and State Department resources are limited. 
As a result, support for the program is uneven due to the somewhat ad 
hoc nature of funding for the program. We would like to lengthen the 
time that Embassy Science Fellows remain at post, and significantly 
increase the number of Fellows serving at foreign posts.
    The State Department's Public Diplomacy and Public Affairs sections 
support many activities related to S&T diplomacy, especially in its 
Education and Cultural Affairs bureau. Most effective have been 
visitors' programs and other exchanges, the Fulbright S&T scholarships, 
and more recently grant competitions for science and technology 
education and women's scientists mentoring programs.
    In terms of elevating the role of our ESTH personnel abroad, first 
and foremost, we must insure a certain level of science literacy. If 
our officers are not sufficiently well-versed or do not know how to tap 
into the vast pool of scientific expertise in this country, they will 
not be able to understand, much less manage, the many complex ESTH 
issues that commonly arise. We describe our work to enhance science 
literacy below in some detail.
    In addition to science literacy, we need to attract the best and 
brightest of the Foreign Service to bid on these positions both at home 
and abroad. Recently, the Department has given the Bureau of Oceans, 
Environment, and Science (OES) an equal role in selecting Foreign 
Service Officers (FSOs) for bilateral ESTH positions. We aggressively 
recruit to fill these positions but it can be difficult to convince an 
FSO that an ESTH position will be as career enhancing as others 
assignments, such as one in a regional bureau. Previously, the 
Department created a separate specialization for ESTH officers and 
provided a mechanism for officers serving in these positions to be 
given additional recognition in the promotion process.
    In response to question (B), there have been numerous calls to 
improve science literacy in the State Department, such as in the 1999 
National Research Council report entitled ``The Pervasive Role of 
Science, Technology, and Health in Foreign Policy: Imperatives for the 
Department of State.'' One of the report's recommendations was to 
establish the office of the Science and Technology Adviser to the 
Secretary (STAS). Her office's functions include making recommendations 
on how to increase science and technology literacy in the Foreign 
Service more broadly.
    A more recent report, that of the Secretary's Transformational 
Diplomacy Report and the 2025 Working Group, reiterates that the 
Department needs to increase science and technology literacy in the 
Foreign Service more broadly. The 2025 Working Group Report suggests 
that:

        A)  The Department should increase its recruitment of personnel 
        with significant training, education, and/or experience in 
        science, engineering, and technology fields with a goal of 
        having a minimum of ten percent of U.S. diplomatic personnel 
        with appropriate technical backgrounds by 2025.

        B)  The Department should develop means of increasing the level 
        of scientific literacy and awareness among current FSOs and 
        other officials of the Department and the U.S. Agency for 
        International Development in matters relating to foreign 
        policy. This training should be ongoing through their career, 
        with opportunities to work in and interact with scientists and 
        engineers in U.S. technical agencies, academia, and the private 
        sector.

    Consistent with these recommendations, the Foreign Service 
Institute (FSI) has a regular program of instruction for FSOs and for 
Foreign Service Nationals (FSN) who are working in ESTH positions. The 
Department also offers year-long mid-career programs of study at U.S. 
universities in S&T related fields. Literacy, however, is a constantly 
moving target, as new scientific issues emerge and as ESTH officers 
move on to other, unrelated assignments. OES and STAS are therefore 
working with FSI to strengthen the curricula and scientific expertise 
available to the new generation of FSOs and FSNs to expand science 
capacity within the Foreign Service.
    In addition to enhancing FSO literacy, the Department also hires a 
number of trained scientists and engineers. The primary way scientists 
serve within the Department is through fellowship programs in 
Washington and as embassy science officers abroad. The American 
Association for the Advancement of Science (AAAS) Diplomacy Fellow 
Program provides one way for the U.S. Government to quickly increase 
its scientific expertise involving individuals with in-depth 
understanding of a scientific discipline and broad commitment to 
bringing that knowledge to the policy process. This program has 
suffered from declining resources and funding, particularly at USAID. 
Other fellowship programs, such as the Foster and Jefferson Fellowship 
Program, bring the specialized expertise of distinguished scientists to 
the Department for a year, following which they continue to serve as 
consultants to the Department for five years.

                                   

</pre></body></html>
